<html>
<title> - MOUNTAIN PINE BEETLE: STRATEGIES FOR PROTECTING THE WEST</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
       MOUNTAIN PINE BEETLE: STRATEGIES FOR PROTECTING THE WEST

=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                             joint with the

                    SUBCOMMITTEE ON NATIONAL PARKS,
                        FORESTS AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, June 16, 2009

                               __________

                           Serial No. 111-24

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
50-438                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel

                                 ------                                
                    SUBCOMMITTEE ON WATER AND POWER

              GRACE F. NAPOLITANO, California, Chairwoman
     CATHY McMORRIS RODGERS, Washington, Ranking Republican Member

George Miller, California            Adrian Smith, Nebraska
Raul M. Grijalva, Arizona            Mike Coffman, Colorado
Jim Costa, California                Tom McClintock, California
Peter A. DeFazio, Oregon             Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Joe Baca, California
Nick J. Rahall, II, West Virginia, 
    ex officio

                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 16, 2009...........................     1

Statement of Members:
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah..............................................     6
    DeGette, Hon. Diana, a Representative in Congress from the 
      State of Colorado..........................................     7
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................     7
        Prepared statement of....................................     8
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington...............................     3
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     3
    Smith, Hon. Adrian, a Representative in Congress from the 
      State of Nebraska, Statement submitted for the record......   124

Statement of Witnesses:
    Bentz, Dr. Barbara, Research Entomologist, Rocky Mountain 
      Research Station, Forest Service, U.S. Department of 
      Agriculture................................................    34
        Prepared statement of....................................    36
    Cables, Rick, Regional Forester, Rocky Mountain Region, 
      Forest Service, U.S. Department of Agriculture.............    35
        Prepared statement of....................................    36
    Frost, Dr. Herbert C., Associate Director, Natural Resource 
      Stewardship and Science, National Park Service, U.S. 
      Department of the Interior.................................    42
        Prepared statement of....................................    44
    Kolb, Dr. Peter, Associate Professor of Forest Ecology and 
      Management, University of Montana, Missoula, Montana.......   114
        Prepared statement of....................................   115
    Larsen, Charles A., General Manager, Carbon Power and Light 
      Inc., Saratoga, Wyoming....................................   106
        Prepared statement of....................................   108
    Markey, Hon. Betsy, a Representative in Congress from the 
      State of Colorado..........................................    15
        Prepared statement of....................................    17
    Mathis, Mark, President, Confluence Energy, Kremmling, 
      Colorado...................................................   101
        Prepared statement of....................................   103
    McGuire, Brendan, Manager of Government Relations, Vail 
      Resorts, Broomfield, Colorado..............................   109
        Prepared statement of....................................   111
    Minnick, Hon. Walt, a Representative in Congress from the 
      State of Idaho.............................................    18
        Prepared statement of....................................    19
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado..........................................    20
        Prepared statement of....................................    22
    Rehberg, Hon. Dennis, the Representative in Congress from the 
      State of Montana...........................................    12
        Prepared statement of....................................    14
    Rich, Judge John, Commissioner, Jackson County, Northwest 
      Colorado Council of Governments, Walden, Colorado..........    70
        Prepared statement of....................................    71
    Salazar, Hon. John T., a Representative in Congress from the 
      State of Colorado..........................................     9
        Prepared statement of....................................    11
    Scanlan, Hon. Christine, State Representative, State of 
      Colorado, Dillon, Colorado.................................    65
        Prepared statement of....................................    67
    Shoemaker, Sloan, Executive Director, Wilderness Workshop, 
      Carbondale, Colorado.......................................    75
        Prepared statement of....................................    76
    Turley, Ronald, Special Programs Manager, Western Area Power 
      Administration, U.S. Department of Energy..................    48
        Prepared statement of....................................    49
    Wilkinson, Eric W., General Manager, Northern Colorado Water 
      Conservancy District, Berthoud, Colorado...................    84
        Prepared statement of....................................    86

Additional materials supplied:
    Gibbs, Hon. Dan, Colorado State Senator, and Hon. Christine 
      Scanlan, Colorado State Representative, Statement submitted 
      for the record.............................................    67
                                     



   JOINT OVERSIGHT HEARING ON ``MOUNTAIN PINE BEETLE: STRATEGIES FOR 
                          PROTECTING THE WEST'

                              ----------                              


                         Tuesday, June 16, 2009

                     U.S. House of Representatives

            Subcommittee on Water and Power, joint with the

         Subcommittee on National Parks, Forests & Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittees met, pursuant to call, at 10:03 a.m., in 
Room 1324, Longworth House Office Building, Hon. Grace 
Napolitano [Chairwoman of the Subcommittee on Water and Power] 
presiding.
    Present: Representatives Napolitano, Grijalva, Costa, 
DeGette, Inslee, Baca, Herseth Sandlin, Gallegly, McMorris 
Rodgers, Chaffetz, Lummis, McClintock, Smith of Nebraska, and 
Pierluisi.

  STATEMENT OF THE HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Good morning, ladies and gentlemen. This 
morning we are holding a joint hearing of the Subcommittee on 
Water and Power and the Subcommittee on National Parks, Forests 
and Public Lands headed by my colleague, Raul Grijalva. The 
hearing will come to order.
    Today's meeting is an oversight hearing on the ``Mountain 
Pine Beetle: Strategies for Protecting the West.''
    I will recognize all of the Members of the Subcommittee for 
any statement they may have after my opening statement. Any 
Member who desires to be heard will be heard, and any 
additional material may be submitted for the record by Members, 
by witnesses, or by any other interested party. The record will 
be kept open for 10 business days following today's hearing, 
and the five-minute rule, with our timer, will be enforced. 
Green means ``go''; yellow, ``near end''; and red means ``wrap 
it up, stop.''
    It is with great urgency and concern that Chairman Grijalva 
and I hold this hearing with our respective Ranking Members 
Cathy McMorris Rodgers and Rob Bishop. The mountain pine 
beetle, an insect no greater than a grain of rice, has killed 
millions of acres of pines across the West and continues to 
spread quickly unabatedly.
    The death of those trees threatens the very existence of 
western communities. While presently most of the mountain pine 
beetle kill areas are found in Colorado, Wyoming, and even 
California, we should not make the mistake of thinking that the 
beetles will not continue to spread, infesting and killing 
massive numbers of trees in other states throughout the entire 
West.
    We see evidence of bark beetle as far West now, like I 
said, into California. Even if the mountain pine beetle does 
not decimate tree populations in other areas, something else 
will. The United States Geological Survey published a report in 
January of this year showing evidence that the rate of death of 
trees in the western U.S. forests has more than doubled in the 
last two decades. The cause of this death has been linked to 
higher temperatures and scarce water, both of which are the 
result of climate change.
    Aside from higher temperatures and less water, climate 
change is conducive to outbreaks of pests like the mountain 
pine beetle and other diseases. The entire West needs to be on 
notice: this epidemic is one of many events that we can expect 
in the coming decades that will cause substantial death of 
trees in the western U.S. forests.
    The death of these trees threatens the safety of 
communities due to fires. The death of the trees threatens our 
watersheds, our power grids, transecting forests and other 
vital infrastructure. The death of these trees threatens the 
economic viability of the entire region; hence, we need to 
bring together all stakeholders from the entire region to share 
information about how best to move forward before we act.
    We will today hear from witnesses that the mountain pine 
beetle cannot be stopped. We will also hear that the damage is 
so widespread that a fire is inevitable. It is not a question 
of if, but when.
    As we hear from our witnesses today, I must remind 
everybody in this room that this horrible situation we 
currently find ourselves in probably will continue to repeat 
itself over time and throughout our entire nation. We must 
begin using this experience with the mountain pine beetle as a 
wake-up call to develop comprehensive strategies to protect 
western communities from future mass tree deaths in our 
forests. There are lessons to be learned about prevention of 
future outbreaks of disease and pests. We need to work 
cooperatively to develop a clear plan before outbreaks occur to 
know how to best manage and mitigate the damage.
    We must be ready to protect our forests, our western 
communities, and the livelihood of each and every person in the 
West.
    We will use today's meeting not only to think about how we 
protect the western way of life in the face of this deadly 
beetle and protect our forests, but to learn lessons to help us 
combat widespread death of other trees in the future and to 
begin to understand how climate change will require us to think 
out of the box to forge new partnerships to protect the 
American way of life.
    Besides that, Ms. Ranking Member and Chairman Grijalva, I 
am very seriously contemplating following this hearing with a 
hearing with the Department of the Interior and other agencies 
to present the evidence that is given here today to move 
forward on maybe forging a plan that we can work with.
    Thank you. With that said, I am now pleased to yield to my 
friend and colleague, the Ranking Member of the Subcommittee on 
Water and Power, Congresswoman Cathy McMorris Rodgers, for her 
opening statement.
    [The prepared statement of Chairwoman Napolitano follows:]

      Statement of The Honorable Grace F. Napolitano, Chairwoman, 
                    Subcommittee on Water and Power

    It is with great urgency and concern that we hold this hearing 
today. The mountain pine beetle, an insect no bigger than a grain of 
rice, has killed millions of acres of pine trees across the West and 
continues to spread unabated. The death of those trees threatens the 
very existence of Western communities and their residents.
    While presently most of the mountain pine beetle kill areas are 
found in Colorado and Wyoming, we should not make the mistake of 
thinking that the beetle won't continue to spread, infesting and 
killing massive numbers of trees in other states throughout the entire 
West.
    Even if the mountain pine beetle doesn't kill trees in other areas, 
something else will. The United States Geological Survey published a 
report in January of this year showing evidence that the rate of the 
death of trees in Western U.S. forests has more than doubled in the 
last two decades. The cause of this death has been linked to higher 
temperatures and scarce water, both of which are the result of climate 
change.
    Aside from higher temperatures and less water, climate change is 
conducive to outbreaks of pests like the mountain pine beetle and other 
diseases. The entire West needs to be on notice: this epidemic is one 
of many events that we can expect in the coming decades that will cause 
substantial deaths of trees in Western U.S. forests. The deaths of 
those trees threaten the safety of communities due to fires. The deaths 
of those trees threaten our watersheds, our power grid, and other vital 
infrastructure. The deaths of those trees threaten the economic 
vitality of the entire region.
    We will hear today from witnesses that the mountain pine beetle 
cannot be stopped. We will hear that the damage is so widespread that a 
fire is inevitable. While I accept those facts, I want to remind 
everyone in this room that the horrible situation we find ourselves in 
now will continue to repeat itself over time and throughout our entire 
country.
    We need to use this experience with the mountain pine beetle to 
develop comprehensive strategies to protect Western communities from 
future mass tree deaths in our forests. We need to learn lessons about 
prevention of future outbreaks of diseases and pests. We need to have a 
clear plan in place BEFORE outbreaks occur to know how to best manage 
them and mitigate the damage. We must be ready to protect our Western 
communities and the livelihoods of each and every person in the West.
    I look forward to learning today about how we protect the Western 
way of life in the face of this deadly beetle, and the lessons we can 
learn from this to help us combat the widespread death of other trees 
in the future.
    With that said, I am pleased to now yield to my friend and 
colleague, Ranking Member Congresswoman Cathy McMorris Rodgers, for her 
opening statement.
                                 ______
                                 
    Mrs. McMorris Rodgers. Thank you, Madam Chairwoman. I would 
first like to ask unanimous consent for my colleague from Utah, 
Jason Chaffetz, to participate at the dais.
    Mrs. Napolitano. Without objection, so ordered.

STATEMENT OF THE HON. CATHY McMORRIS RODGERS, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. McMorris Rodgers. Thank you, Madam Chairwoman. I 
sincerely thank you for holding this hearing on the growing 
mountain pine beetle problem in the West. Like many areas of 
the Rocky Mountain West, forests in my district have been hit 
hard by the mountain pine beetle.
    The impacts have been devastating. More than half of the 
land base in the four northern counties of my district is 
forest. This is not a small area, considering Okanogan County, 
the largest of the four counties, is larger than the State of 
Connecticut. Much of this area is managed by the U.S. Forest 
Service.
    I grew up in Stevens County, one of these four northern 
counties. I know it well, and I lived with the forest 
management issues for 10 years as a State Legislator 
representing this area before coming to Congress. During that 
time, I was also a member of the Western States Legislative 
Forestry Task Force.
    Damage from the pine beetle can be spotted throughout these 
northern forests, with the heaviest infestations on the south 
side of the Methow Valley, which is close to a populated area.
    In 2006, 175,000 acres burned in the Okanogan National 
Forest on the north side of the Methow Valley. Lightning found 
fertile ground in beetle-killed trees that could not be 
harvested because conservation organizations assured the Forest 
Service they would sue to block the sale.
    As a result of these and other lawsuits, the Avista 
cogeneration plant at Kettle Falls, Washington, is hauling most 
of its fuel out of Canada because it is not available from the 
forest, although it operates right next to it. They actually 
haul 70 percent of their waste wood from Canada for this 
cogeneration plant.
    This is a sad commentary when Congress is in pursuit of 
alternative energy but continues to leave a wealth of energy to 
burn in wildfires.
    In addition, we waste valuable taxpayer dollars fighting 
wildfires when we could have prevented them in the first place. 
In fact, over half of our Forest Service budget goes to 
fighting wildfires that will only get worse if we do not 
address the root problem: overcrowded forests and diseased and 
dying trees. We cannot continue to grow over 20 billion board 
feet of timber annually and only harvest two billion board feet 
and expect to have healthy forests.
    The lack of management also impacts water supplies and the 
humans and species that depend on water. An unhealthy and 
overcrowded forest can literally drain our creeks and much of 
our rural watersheds, which will substantially decrease the 
water available for human use and can also have serious impacts 
on the needs of endangered species.
    There is much talk about removing the four Lower Snake 
River dams in the name of endangered salmon protection, yet few 
focus on managing our forests as a key way to help protect the 
species.
    This hearing is an important first step in managing our 
forests for the future. We cannot afford to wait any longer.
    In closing, I sincerely want to thank the Chairwoman again, 
thank the witnesses for their testimony and dedication. I look 
forward to working with everyone on this important issue.
    Mrs. Napolitano. Thank you, ma'am, and now we will hear 
from my good friend, the Chair of the Subcommittee on National 
Parks, Forests and Public Lands, Congressman Raul Grijalva, for 
his statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Madam Chair. Now is a particularly 
relevant time for us to discuss this problem because in this 
season many beetles will be looking to infect new areas and new 
trees.
    In addition to describing the mountain pine beetle 
epidemic, we also need to focus on how to meet this challenge. 
The few isolated communities that have had success fighting off 
the bark beetle have developed extensive action plans combining 
efforts at every level of government. Some of these efforts 
were focused on protecting healthy trees while other steps were 
taken to reduce the risk of wildfire.
    There have been some successes on both fronts, but there 
are also many reasons that the plan of a small community cannot 
be applied in the entire West. However, we can learn from these 
successes, much of which are credited to strong community 
support, private landowners, city officials, and residents all 
coming together to carry out the necessary work.
    We will need to develop an approach at a similar level for 
support. Let me just note that the level of support will not be 
easy to come by if cutting corners in the National 
Environmental Policy Act (NEPA) process is the cornerstone of 
our plan. Instead, we need to focus on the best strategies for 
solving this problem without creating another one for future 
generations.
    Are there places we can protect from infestation? What are 
the options to preventing wildfire? Is it correct to link the 
beetle infestation to fire? Is it appropriate to say that 
increased cutting and logging is a preventive tool to the 
beetle and to the infestation? There are many questions about 
the best way to respond to this epidemic. I hope we can answer 
some of that today.
    I want to thank all of our witnesses, many from Colorado, 
for making this trip to D.C., and I look forward to their 
testimony, and I yield back, Madam Chair.
    [The prepared statement of Chairman Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Thank you Chairwoman Napolitano.
    Now is a particularly relevant time for us to discuss this problem, 
because this is the season that many beetles will be looking to infect 
new trees. In addition to describing the mountain pine beetle epidemic, 
we must also focus on how we respond to this challenge.
    The few isolated communities that have had success fighting off the 
bark beetle have developed extensive action plans, combining efforts at 
every level of government. Some of these efforts were focused on 
protecting healthy trees, while other steps were taken to reduce the 
risk of catastrophic wildfire. There have been some successes on both 
fronts.
    There are many reasons that the plan of a small community can't be 
applied to the entire West. However, we can learn from these successes, 
much of which are credited to strong community support. Private land 
owners, city officials, and residents all came together to carry out 
the necessary work. We will need to develop an approach that has a 
similar level of support.
    Let me just note, that level of support will NOT be easy to come by 
if cutting corners in the NEPA process is the cornerstone of our plan. 
Instead, we need to focus on the best strategies for solving this 
problem without creating another one for future generations. Are there 
places we can protect from infestation, and what are the options for 
preventing catastrophic wildfires?
    There are still many questions about the best way to respond to 
this epidemic, and I hope that we can answer some of them today. I want 
to thank all of our witnesses, many from Colorado, for making the trip 
to D-C, and I look forward to hearing their testimony.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. Chairman.
    In the interest of time, we will just ask, if you have 
statements, let me know; otherwise, we will go straight into 
the hearing.
    Mr. Chaffetz?
    Ms. DeGette. Madam Chair, may I? I will defer to my 
colleague.
    Mrs. Napolitano. Mr. Chaffetz is next and then you.

   STATEMENT OF THE HON. JASON CHAFFETZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Chaffetz. Thank you, Madam Chairwoman. Thank you for 
allowing me to participate. I do appreciate it. I appreciate 
all of the witnesses and the time that they are taking to be 
here and the number of Members who are here on our first panel. 
I think it is a representation of the severity of the 
challenges and the interests that lie in the many states out in 
the West.
    I would like to ask unanimous consent to offer two 
documents for the record.
    First, I would like to share comments prepared by Iron 
County, Utah. Iron County is the home to a large percentage of 
Dixie National Forest, which is Utah's largest national forest, 
covering nearly two million acres; second, a report prepared by 
Darren McAvoy, who is a forestry extension associate from the 
Department of Forest, Range, and Wildlife Sciences at Utah 
State University.
    Mrs. Napolitano. Without objection, so ordered.
    Mr. Chaffetz. Thank you, Madam Chairwoman.
    For those of us who live in the 12 states in the West 
affected by the mountain pine beetle epidemic and the 
devastation it has brought to our forests, this problem has 
been developing before our eyes for years, even decades. The 
current course we are taking with dealing with the problem is 
unacceptable. Progress is being made in some areas, most 
notably in areas of Colorado; however, more can and needs to be 
done.
    The progress being made in Colorado was one in a way no 
other state, including my State of Utah, has to go through to 
achieve. The gains being made in Colorado are being made 
essentially because environmental groups have stopped 
litigating on trees that have been killed by mountain pine 
beetles. That same litigation drove 9 of the 10 timber mills in 
the state out of business. Litigation has stopped in the face 
of growing public concern over the amount of dead trees in the 
state.
    Of course, groups like Colorado Wild are still suing timber 
sales in healthy forests like they did two weeks ago, but I am 
confident they will stop once again. The beetle kill affects 
the Rio Grande National Forest as well.
    This is no different than what is happening on the Dixie 
National Forest or the Fish Lake National Forest in my State of 
Utah. It is no different than the lawsuits in California, 
Wyoming, and Montana or any other state where forests need 
management.
    I believe it is time we looked for a bipartisan legislation 
that will once again allow forest-management decisions to be 
made by those who wear the emblem of the Forest Service.
    We also need to end restrictions on harvesting biomass on 
Federal lands created by the 2007 energy bill. I believe H.R. 
1190 is a good way to do this. No matter how much grant money 
we give out to biomass projects, they will all fail unless we 
can allow a sustainable timber yield to come off of our Federal 
lands.
    Finally, the Natural Resources Committee needs to hold 
oversight hearings over stimulus spending. Are stimulus funds 
going to further the intended mission of the Forest Service to 
manage our forests, or are they going to other parochial goals?
    I am sure we will hear many good recommendations to combat 
the mountain pine beetle problem, and I am looking forward to 
the hearing. I thank you, Madam Chairwoman, and I yield back 
the balance of my time.
    [NOTE: Documents submitted for the record have been 
retained in the Committee's official files.]
    Mrs. Napolitano. Thank you very much, and Ms. DeGette.

   STATEMENT OF THE HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Madam Chairwoman. I want 
to thank you for having this hearing, and I want to thank all 
of my colleagues, mostly from Colorado, but also from the whole 
West, for being here: Congressman Salazar, Congresswoman 
Markey, Congressman Polis, also State Senator Dan Gibbs and 
Representative Christine Scanlan, who are my buddies from the 
Legislature who are here.
    We also have people from the ski industry, water 
authorities, the Forest Service, and the power sector. I want 
to welcome all of them.
    All of us from Colorado know, Madam Chairwoman, that this 
is a terrible problem in the West, in particular, in Colorado. 
I borrowed this poster from our friend, Congressman Greg Walden 
from Oregon, who brought this to an Energy and Commerce meeting 
a couple of weeks ago. If you look at it, it looks like a 
really beautiful autumn scene. The problem is, these are 
evergreens that have turned this color. This is Grand County, 
Colorado, and all of us from Colorado know this level of 
devastation.
    It is a complex problem. It is complex at every level. I am 
really pleased to tell you that the Colorado delegation has 
been working closely together, on a bipartisan basis, and also 
with all of our colleagues in the State Legislature and in the 
state agencies to talk about what to do with this problem. 
There are no easy solutions because the magnitude is so great.
    So I am looking forward to this hearing. I will tell you, 
along with Congressman Walden and Congressman Baird from 
Washington State, we are looking at some amendments to the 
climate change bill which we expect to have up on the Floor to 
try to help us get out some of these dead trees from the 
forests, but the underlying problem remains, and it is complex. 
It is not easily solved, so I am happy that all of these 
experts have come today to help us figure out these problems.
    With that, Madam Chair, I yield back.
    Mrs. Napolitano. Thank you, Ms. DeGette.
    With that, we have a statement. Make it a short one, 
please.

 STATEMENT OF THE HON. CYNTHIA M. LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Lummis. Yes, Madam Chairwoman. I would like to make an 
opening statement. Thank you kindly.
    As this body has heard from me before, my home State of 
Wyoming has many points of pride, but perhaps none rival our 
public lands legacy. In addition to the beautiful forests that 
make up our National Parks in Yellowstone and Grand Teton, 
Wyoming is home to nine National Forests, encompassing roughly 
8.8 million acres of land. Put into context, National Forests 
in Wyoming cover about a million more acres than the total land 
areas of Maryland, Delaware, and the District of Columbia 
combined. Add the vast tracts of state and private forests, and 
you begin to understand the monumental task of maintaining 
healthy forests in my state.
    Wyoming and her people are proud of the way our state has 
helped manage and protect our public lands and resources. Good 
stewardship of the land is a Wyoming value, and I hold it very 
personally dear.
    Unfortunately, Wyoming's Federal partners are failing to 
carry their own weight when it comes to forest management in 
the West. I am not laying blame here. Our Federal land managers 
have struggled with restrictive policies created by Congress, 
ever increasing costs, droughts, devastating fire seasons, and, 
in the mountain pine beetle, a devastation of healthy trees 
like I have never seen before in my lifetime.
    While I am hopeful we can begin to dissect and better 
understand those challenges today, for much of our forested 
land in the West, it is too late: We have already lost the 
battle.
    Decisions about fuel reduction, beetle prevention and 
mitigation, prompt harvesting of dead and dying trees, and the 
overall health of our forests have real tangible effects on the 
livelihood of my constituents. We live near or even in these 
forests. We base entire industries off of them. We recreate and 
enjoy them, and we count on these forests to attract thousands 
of tourists every year.
    As I have testified in the past, we only have one sawmill 
left in the entire State of Wyoming, so this is not even so 
much about forestry; it is about recreation.
    Healthy forests are integral to our lives and livelihoods. 
The story you will hear today from Chuck Larsen, general 
manager of Carbon Power and Light in South Central Wyoming, is 
a perfect case study for how wide and diverse the effects truly 
are of this beetle epidemic on the average citizen.
    This picture, taken by Mr. Larsen just days ago, tells a 
story all by itself: Our forests are being ravaged. First 
managers estimate that, by 2012, every single adult, lodgepole 
pine in Southern Wyoming and Northern Colorado will be 
destroyed by beetle kill. This is devastating to our forest 
economies. We are also one unlucky lightning strike away from a 
serious threat to human health and safety.
    It is time we learned what tools our land managers need to 
address this epidemic and ensure they have those tools at their 
disposal. I look forward to making progress on that front 
today. Thank you, Madam Chairman. I yield back the balance of 
my time.
    [The prepared statement of Ms. Lummis follows:]

Statement of The Honorable Cynthia Lummis, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. and Madam Chairmen.
    As this body has heard me claim before, my home State of Wyoming 
has many points of pride, but perhaps none rival our public lands 
legacy. In addition to the beautiful forests that make up our National 
Parks in Yellowstone and Grand Teton, Wyoming is home to 9 National 
Forests, encompassing roughly 8.8 million acres of land. Put into 
context, National Forests in Wyoming cover about a million more acres 
than the total land areas Maryland, Delaware, and the District of 
Columbia combined. Add the vast tracts of State and private forests and 
you begin to understand the monumental task of maintaining healthy 
forests in my state.
    Wyoming and her people are proud of the way our State has helped 
manage and protect our public lands and resources. Good stewardship of 
the land is a Wyoming value I hold very personally dear. Unfortunately, 
Wyoming's federal partners are failing to carry their own weight when 
it comes to forest management in the West. I'm not laying blame--our 
federal land managers have struggled with restrictive policies created 
by Congress, ever-increasing costs, droughts, devastating fire seasons, 
and--in the mountain pine beetle--a devastation of healthy trees like 
I've never seen in my lifetime. While I am hopeful we can begin to 
dissect and better understand those challenges today, for much of our 
forested lands in the west, it is too late--we have already lost the 
battle.
    Decisions about fuel reduction, beetle prevention and mitigation, 
prompt harvesting of dead and dying trees, and the overall health of 
our forests have real, tangible effects on the livelihood of my 
constituents. We live near or even in these forests, we base entire 
industries off of them, we recreate and enjoy them, and we count on 
these forests to attract thousands of tourists every year. Healthy 
forests are integral to our lives and livelihoods. The story you will 
hear today from Chuck Larsen, General Manager for Carbon Power and 
Light in south-central Wyoming is a perfect case-study for how wide and 
diverse the effects truly are of this beetle epidemic on the average 
citizen. This picture, taken by Mr. Larsen just days ago, tells a story 
all by itself. Our forests are being ravaged.
    Forest managers estimate that by 2012, every single adult lodge 
pole pine in southern Wyoming and northern Colorado will be destroyed 
by beetle kill. This is devastating to our forest economies. We are 
also one unlucky lightning strike away from a serious threat to human 
health and safety. It is time we learn what tools our land managers 
need to address this epidemic and ensure they have those tools at their 
disposal. I look forward to making progress on that front today.
    Thank you, Mr. and Madam Chairmen. I yield back the balance of my 
time.
                                 ______
                                 
    Mrs. Napolitano. Thank you so very much, ma'am, and we now 
will proceed to hear from our witnesses. We do have four 
panels, so it is going to be a bit of a lengthy hearing. 
Witnesses will be introduced before they testify. After we hear 
from our panel, we will have questions for the panel. All of 
your submitted prepared statements, of which I have not 
received any, so I am assuming none of you had one, will be 
entered into the record, and all witnesses are kindly asked to 
summarize the high points of your testimony and limit your 
remarks to five minutes.
    Again, the timer before you will be used to enforce this 
rule. It also applies to all questioning: A total of five 
minutes for questions, including responses, applies to our 
Members. If there are any additional questions, we may have a 
second round, and I do not think today might be the time for 
it.
    For our first panel, we have Congressmen Rehberg, Salazar, 
Markey, Minnick, and Polis, and I am being very frugal on time. 
I would like to start with John Salazar, if you do not mind, 
Denny, for the first testimony. Mr. Salazar, you are on.

  STATEMENT OF THE HON. JOHN T. SALAZAR, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Salazar. Well, thank you, Madam Chair and Ranking 
Member Rodgers and Chairman Grijalva and Ranking Member Bishop, 
for having this hearing today. I am honored to be a part of it.
    I would also like to acknowledge a special person who is 
here who is the past director of the Colorado Department of 
Natural Resources, Mr. Greg Walter, here in the back, who has 
worked on these issues for many, many years.
    The mountain pine beetle epidemic in Colorado and 
throughout the West is devastating, Madam Chair. It is 
destroying our forests and threatening our communities.
    I have some pictures today to show you, some that are up on 
the screen. I think the first one was shared by Mrs. DeGette. 
The picture gives you an idea of the magnitude of the problem 
we are dealing with. The red trees that you see in this picture 
are dead. Ninety percent of the trees in this picture are dead.
    These next two pictures that we will see show the magnitude 
of the impact on our recreational areas, one of the economic 
mainstays of Colorado.
    This next picture is a picture of one of our campgrounds at 
Steamboat Springs as the mountain pine beetle began going 
through it.
    Picture 3 shows what it looks like after the Colorado State 
Forest Service removed all of the hazardous trees.
    Picture 4 shows dead trees by a power line. Imagine what 
would happen to that power line if fire went through it like in 
Picture 5.
    Picture 6 actually is a map that demonstrates how far 
reaching the epidemic is in Colorado. It is over two million 
acres and growing.
    We have over 633 miles of electric transmission lines just 
in Colorado that are in the areas of dead or dying trees. We 
also have over 1,300 miles of electrical distribution lines at 
risk from falling trees or fire. A large fire could destroy 
many of these lines, causing power outages for months.
    While a wildfire is just a matter of when, falling trees 
are occurring now on the trails, on ranchers' fences, and on 
campgrounds and power lines. How long before one of these 
falling trees kills someone? Already, we have had to close 
campgrounds and trails because of these hazards.
    We need to do something to ensure our communities' 
watersheds and power and communication infrastructure are safe. 
We also need to be looking into the future, at the health of 
our industries, small and large, that utilize these dead trees, 
and keeping our future forests healthy so that epidemics such 
as this one are less likely to happen.
    Let me show you, in reference to some of the questions that 
Congressman Grijalva was asking, Picture 7 is a picture that 
shows where, several years ago, trees were harvested for water-
distribution research. The areas that are in green were 
harvested many years ago and grew back. Those younger, healthy 
trees were not attacked by the mountain pine beetle. You can 
almost see a hand print of what happened there.
    The areas that are red were not harvested. Those trees were 
not as healthy, and most of them died.
    So, today, I am looking forward to hearing what the second 
and third panels are doing to avoid the almost certain 
catastrophe. I also want to hear suggestions for actions 
Congress should take, and Congresswoman DeGette mentioned that 
we, as the Colorado delegation, have moved forward in a 
bipartisan way trying to figure out a solution to the problem. 
We have been able to address some of the issues along the urban 
interface areas, but, as you see, the devastation is incredible 
in Colorado. Most of the forests are dying up toward the 
Steamboat Springs are and Northwest Colorado.
    I welcome your ideas on the most strategic approaches we 
can make to protect our communities and natural resources, and 
I would like to thank the leadership of this Committee for 
addressing this critical issue, and thank you, Madam Chair, for 
making it a point that you will present the findings of these 
hearings to the Department of the Interior, and also I would 
appreciate it if you could share those with the Department of 
Agriculture as well. Thank you, and I yield back.
    [The prepared statement of Mr. Salazar follows:]

    Statement of The Honorable John T. Salazar, a Representative in 
                  Congress from the State of Colorado

    Thank you Chairman Grijalva and Ranking Member Bishop, and 
Chairwoman Napolitano and Ranking Member McMorris Rodgers for having 
this hearing today. I am honored to be a part of it.
    The Mountain pine beetle epidemic in Colorado and throughout the 
West is devastating. It is destroying our forests and threatening our 
communities.
    I have some pictures I'd like to share with you and to submit for 
the record.
    (Picture 1) This picture gives you an idea of the magnitude of the 
problem we're dealing with. The red trees you see in this picture are 
dead.
    Ninety percent of the trees in this picture are dead.
    These next 2 pictures shows the magnitude of the impact to our 
recreation areas, one of the economic mainstays of Colorado.
    (Picture 2) This is the picture of one of our campgrounds in 
Steamboat Springs as the mountain pine beetle went the area.
    (Picture 3) This is what it looks like after the Colorado State 
Forest Service removed the hazardous trees.
    (Picture 4) This picture shows dead trees by a power line. Imagine 
what would happen to that power line if a fire like this went through. 
(Picture 5)
    (Picture/Map 6) This map demonstrates how far reaching the epidemic 
in Colorado is.
    It is over 2 million acres and growing.
    We have over 633 miles of electrical transmission lines just in 
Colorado that are in areas of dead or dying trees.
    We also have over 1300 miles of electrical distribution lines at 
risk from falling trees or fire.
    A large fire could destroy many of these lines, causing power 
outages for months.
    While a wildfire is just a matter of when, falling trees are 
occurring now on trails, rancher's fences, campgrounds, and powerlines.
    How long before one of those falling trees kill someone? Already 
we've had to close campgrounds and trails because of the hazards.
    We need to do something to ensure our communities, watersheds and 
power and communication infrastructure is safe.
    We also need to be looking into the future.
    At the health of our industries--small and large--that utilize the 
dead trees.
    At keeping our future forests healthy so epidemics such as this are 
less likely to happen.
    (Picture 7) This picture shows where several years ago trees were 
harvested for water distribution research.
    The areas that are green were harvested many years ago and grew 
back. Those younger, healthy trees were not attacked by the mountain 
pine beetle.
    The areas that are red were not harvested. Those trees were not as 
healthy and died.
    I am looking forward to hearing what the 2nd and 3rd panels are 
doing to avoid an almost certain catastrophe.
    I also want to hear suggestions for actions Congress should take.
    As this committee knows, I, along with several members of the 
Colorado delegation, have introduced legislation the last several 
Congresses addressing different approaches to tackle this problem.
    Our delegation is currently working on a bill we plan to introduce 
this summer.
    I welcome your ideas on the most strategic approaches we can make 
to protect our communities and natural resources.
    I'd like to thank the leadership on the committee for addressing 
this critical issue.
    Thank you and I yield back the remainder of my time.
    [NOTE: Pictures have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mrs. Napolitano. Thank you so very much, Congressman.
    Mr. Rehberg, Congressman Rehberg.

   STATEMENT OF THE HON. DENNIS REHBERG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Madam Chair and Mr. Chair and 
Members of both Subcommittees for allowing me this opportunity 
to testify today.
    The forests in Montana are quite different from the forests 
out East or even in Colorado. On the East Coast, masses of 
deciduous trees turn a variety of different colors each fall as 
the leaves fall off to conserve energy. In Colorado, masses of 
aspen tree growths change to gold each fall.
    Montana's forests are primarily comprised of coniferous 
trees, or, as we call them, ``evergreens.'' With evergreens, 
nature has a different strategy for surviving the winter. 
Smaller leaves shaped like needles and sheathed in protective 
coatings require less energy during the winter months. As a 
result, as the name implies, our forests remain green year-
round, or they are supposed to.
    Lately, massive infestations of western pine beetles have 
left their mark on more than the trees. Like a teenager with a 
paint-ball gun in an art museum, splotches of rust, red, and 
orange, mucous yellow being to corrupt the tapestry of our 
forests. It started small, a few trees peppered in a forest of 
millions, but eventually entire mountainsides turned yellow 
with the infestation. Visitors were forgiven for thinking that 
they were just seeing the annual life cycle of a deciduous 
forest, but the locals knew that something was very wrong.
    The western pine beetle has infested millions of acres of 
forests throughout the West, thanks to drought and burdensome 
litigation. Our forests have been inadequately managed as our 
local government agencies and timber companies have not been 
allowed to work hand in hand to combat this destructive insect. 
As a result, our western forests are now more vulnerable than 
they have ever been to massive forest fires that can engulf 
entire communities, undermine energy reliability by burning 
transmission lines, destroy historical, cultural, and 
recreational sites; and seriously compromise endangered species 
and water quality.
    While these losses alone are costly to taxpayers, they do 
not include the vast amounts of money spent every year to 
combat forest fires and that are fueled by pine beetle-infested 
trees.
    I paint a picture of this vicious cycle where the victims 
are our once-prestigious, green, western forests and the 
American taxpayer, and the problem is quickly getting worse.
    With the lack of local healthy forest management, the 
western pine beetle has increased the mortality rate of mature 
trees in Montana twofold in just the last year, from 735,000 
acres in 2007 to 1.8 million acres in 2008. One area, in 
particular, between Helena and Butte, has reported morality 
levels three to four times higher in 2008 than compared with 
2007. Additionally, at higher elevations, significant pine 
beetle-caused mortality has been noted in white bark pine 
stands on our state park lands and the Yellowstone National 
Park.
    It is no coincidence that as the acreage of infestation has 
risen, so have the costs of forest fire suppression. The Forest 
Service has approximately spent $225 million in suppression 
funds in Montana over the last three fiscal years. The Bureau 
of Land Management has spent over $33 million in the last three 
years compared to $24 million in the subsequent three-year 
period. These costs are only for fighting fires, the forest 
fires themselves. They do not include loss of infrastructure, 
wildlife, and fish, and habitat for endangered species and 
dollars generated from tourism.
    Exhaustive research has been conducted over the years to 
determine the best methods for combating western pine beetle 
infestation. This research has proven, time and again, that the 
insect thrives in environments that are overcrowded, dense, and 
old growth, particularly during periods of drought. Under 
epidemic outbreak conditions, enough beetles can emerge from 
one infested tree and kill several trees the following year.
    Healthy forest management is best done at the local level 
by men and women who live in the forest and can read its signs.
    As an example of this, I want to tell you a success story 
near the ghost town of Garnet, Montana, located just east of 
Missoula. The areas surrounding this historic ghost town had 
become infested with the western pine beetle. In 2006, as other 
forest fires raged in nearby forest lands of Western Montana, 
local Bureau of Land Management officials were convinced that 
unless they thinned the forests around Garnet, they would lose 
the ghost town to a forest fire. Then the beetles showed up and 
infected twice as many trees as they had done in the previous 
years.
    Consequently, the BLM quickly teamed up with Pyramid 
Mountain Lumber Company to remove up to 60 percent of the 
standing trees in the 320-plus-acre area in the fall of 2008. 
The project successfully avoided sensitive cultural areas, 
saved a historical site, built several handicapped-accessible 
trails for recreational purposes, lessened the spread of the 
insect, promoted the diversification and growth of animal 
populations, including the snowshoe hare and the Canada lynx 
and utilized every part of the dead trees removed.
    From these 320 acres alone, trees were milled into building 
construction lumber, pulped into paper products, and even used 
as energy to fuel the kilns where green lumber is dried and 
cured. While this is just one success story, it is a success 
story. The view and perspective of what is happening and how it 
should be fixed looks very different to an out-of-state 
bureaucrat flying overhead at 30,000 feet. When it comes to 
forest management, one-size-fits-all solutions can oftentimes 
cause more problems than they solve.
    We have boots on the ground. I only ask that we stay out of 
their way and let our forest managers do their job. Thank you.
    [The prepared statement of Mr. Rehberg follows:]

    Statement of The Honorable Denny Rehberg, the Representative in 
                   Congress for the State of Montana

    Thank you Chairwoman Napolitano, Chairman Grijalva and members of 
both subcommittees for allowing me to testify today on the Western Pine 
Beetle Infestation in our Western forests--the forests that many of the 
people I represent call home. I appreciate the opportunity to share 
with you what I have heard from Montanans and to explain our approach 
to healthy forest management.
    The forests in Montana are quite different from the forests out 
east, or even in Colorado. On the East Coast, massive deciduous trees 
turn a variety of different colors each fall as the leaves fall off to 
conserve energy. In Colorado, massive aspen tree groves change to gold 
each fall. Montana's forests are primarily comprised of coniferous 
trees--or as we like to call them ``evergreens''. With evergreens, 
nature has a different strategy for surviving the winter--smaller 
leaves shaped like needles and sheathed in protective coatings require 
less energy during winter months. As a result, as the name implies, our 
forests remain green year-round.
    Or, they are supposed to.
    Lately, massive infestations of western pine beetles have left 
their mark on more than the trees. Like a teenager with a paintball gun 
in an art museum, splotches of rust orange and mucus yellow began to 
corrupt the tapestry of our majestic forests. It started small, a few 
trees peppered in a forest of millions, but eventually entire 
mountainsides turned yellow with the infestation. Visitors were 
forgiven for thinking that they were just seeing the annual lifecycle 
of a deciduous forest, but the locals knew that something was very 
wrong.
    The western pine beetle has infested millions of acres of forests 
throughout the West. Thanks to drought and burdensome litigation, our 
forests have been inadequately managed as our local government agencies 
and timber companies have not been allowed to work hand-in-hand to 
combat this destructive insect. As a result, our western forests are 
now more vulnerable than ever to massive forest fires that can engulf 
entire communities, undermine energy reliability by burning 
transmission lines, destroy historical, cultural and recreational sites 
and seriously compromise endangered species and water quality. While 
these losses alone are costly to taxpayers, they don't include the vast 
amounts of money spent every year to combat forest fires that are 
fueled by pine beetle infested trees. I paint a picture of a vicious 
cycle where the victims are our once-prestigious green western forests 
and the American taxpayer.
    And the problem is quickly getting worse.
    With a lack of local healthy forest management, the western pine 
beetle has increased the mortality rate of mature trees in Montana 
National Forest lands two-fold in just one year, from 734,500 acres in 
2007 to 1.8 million acres in 2008.
    One area in particular, between Helena and Butte, has reported 
mortality levels 3-4 times higher in 2008 as compared to 2007. 
Additionally, at higher elevations, significant beetle-caused mortality 
has been noted in white bark pine stands on our state park lands and in 
Yellowstone National Park.
    It's no coincidence that as the acreage of infestation has risen, 
so have the costs of forest fire suppression. The Forest Service spent 
approximately $225 million in suppression funds in Montana over the 
last three fiscal years. The Bureau of Land Management has spent over 
$33 million in the last three years compared to $24 million in the 
subsequent three year time period. These costs are only for fighting 
the forest fires themselves; they do not include loss of 
infrastructure, wildlife and fish, habitat for endangered species and 
dollars generated from tourism.
    Exhaustive research has been conducted over the years to determine 
the best methods for combating western pine beetle infestation. This 
research has proven time and again that the insect thrives in 
environments that are overcrowded, dense, and old growth--particularly 
during periods of drought. Under epidemic outbreak conditions, enough 
beetles can emerge from one infested tree and kill several trees the 
following year.
    The same research has also shown that the best way to combat the 
western pine beetle is through healthy forest management. As forest 
fires thrive in the same conditions as the insect, it is no surprise 
that we've seen a rise in fires in forests that have become victims of 
the western pine beetle. This relationship could be changed through 
healthy forest management such as creating forests with trees of 
various ages and sizes that are more resilient and less vulnerable to 
the western pine beetle.
    Healthy forest management is best done at the local level by the 
men and women who live in the forests and can read its signs. As an 
example of this, I want to tell you of a success story near the ghost 
town of Garnet, Montana. Located just east of Missoula, the area 
surrounding this historic ghost town had become infested with the 
western pine beetle.
    In 2006, as other forest fires raged in nearby forest lands of 
western Montana, local Bureau of Land Management officials were 
convinced that unless they thinned the forest around Garnet, they would 
lose the ghost town to a forest fire. Then, the beetles showed up and 
infected twice as many trees as they had done in previous years. 
Consequently, the BLM quickly teamed with Pyramid Mountain Lumber 
Company to remove up to 60 percent of the standing trees in the 320-
plus-acre area in the fall of 2008.
    The project successfully avoided sensitive cultural areas, saved a 
historical site, built several handicapped-accessible trails for 
recreational purposes, lessened the spread of the insect, promoted the 
diversification and growth of animal populations--including the 
snowshoe hare and the Canada lynx--and utilized every part of the dead 
trees removed. From these 320 acres alone, trees were milled into 
building construction lumber, pulped into paper products and even used 
as energy to fuel the kilns where green lumber is dried and cured.
    While this is just one success story on 320 acres in western 
Montana, our forests can be green once again, wild fires can be kept at 
bay, and every wood product from paper to energy can be produced--but 
only if our local professionals are allowed to thin the red and grey 
dying trees that have fallen victim to the western pine beetle. Through 
local healthy forest management, we can make substantial strides in a 
short amount of time.
    The view and perspective for what is happening and how it should be 
fixed looks very different to an out-of-state bureaucrat flying 
overhead at 30,000 feet. When it comes to forest management, one size 
fits all solutions can often times cause more problems than they solve. 
We've got boots on the ground, and in the forests of Montana ready to 
do what is necessary to restore our forests to a healthy, green state. 
I only ask that we stay out of their way and allow them to do their 
jobs.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. Rehberg. Ms. Markey?

    STATEMENT OF THE HON. BETSY MARKEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. Markey. Thank you, Madam Chairwoman and Members for 
allowing me the opportunity to speak to your Subcommittee 
today.
    As you will hear from many members of the panel, the West 
is no stranger to bark beetle infestations. In the past, native 
bark beetles have served to renew forest ecosystems by weeding 
out older, mature trees to allow younger trees to regenerate. 
Unfortunately, warm winter temperatures, drought conditions, 
and uniform tree maturity have both stressed trees and created 
the perfect conditions for the current outbreak.
    While I will leave the etymology and ecology of park bark 
beetles to the experts on the next panel, I would like to 
stress to the Committee why this issue is important in my 
district.
    Until recently, the eastern slope of the Rocky Mountains in 
Colorado has fared much better than the western slope in the 
bark beetle outbreaks. As my colleagues, Congressman Salazar 
and Polis, can attest, the western slope has seen a large swath 
of mature trees killed by the epidemic.
    The Forest Service expects this bark beetle outbreak will 
kill most of the mature lodgepole pines covering 2.2 million 
acres in Colorado and Southeastern Wyoming in the next five 
years. Some estimates indicate that almost two million acres 
have already been decimated.
    The epidemic can be seen by the characteristic reddish hues 
that the needles take on after about a year of infection. My 
district, on the eastern slope of the Rockies, is showing signs 
that the bark beetles have made it over the ridge and are now 
spreading to the eastern slope and the Ponderosa pines in the 
front range.
    Infestation-prevention techniques in Colorado involve 
spraying individual trees, thinning highly susceptible areas, 
and monitoring individual healthy trees for infestation. These 
techniques are very labor intensive and do not guarantee the 
trees will survive. Therefore, it is important to focus on how 
to limit the damages brought on by the epidemic and study ways 
to reduce the intensity of outbreaks in the future.
    The Forest Service and Colorado State University are just 
two of the many entities studying the impact of bark beetle 
kill on wildfire risk. The Colorado Forest Restoration 
Institute at the Warner College of Natural Resources at 
Colorado State University works with other research 
institutions and private entities to apply field-based evidence 
to implement healthy forest-management practices.
    Catastrophic wildfires can also have detrimental effects on 
water quality and supply, as Mr. Wilkinson will testify in the 
next panel. Erosion and debris from wildfires can have long-
lasting effects on water quality and incur great expenses to 
repair.
    The two biggest concerns in my district are the increased 
threat of wildfire due to the bark beetle-killed trees and the 
impact of the bark beetle infestation on watershed health and 
water quality.
    Colorado's Fourth Congressional District covers part of 
Rocky Mountain National Park, extends east to Nebraska and 
Kansas borders, and runs as far south as the Oklahoma border. 
My district contains mountains, planes, grasslands, and some of 
the best agricultural land in Colorado.
    To ensure our forests and water are protected, it is 
imperative that we provide a stable source of funding for 
emergency wildfire suppression, such as provided in the FLAME 
Act. By creating a separate fund for unpredictable, emergency 
wildfire efforts, we can ensure annual funding for fire 
prevention and fuel reduction is not wiped out by sudden 
catastrophic wildfires.
    This bill also requires the development of wildfire 
management strategies by the Department of Agriculture and the 
Department of the Interior in addition to establishing wildfire 
grants to encourage individual communities to develop their own 
wildfire emergency plan.
    I would also like to stress how important it is for 
wildfire prevention plans to implement protections from hazards 
affecting water infrastructure and watershed health. These 
include plans to control debris and sediment accumulation, as 
well as thinning around potential critical access sites to 
ensure these control measures can be put in place as soon as 
possible.
    Federal programs like the Colorado Good Neighbor Authority 
and the pending FLAME Act are making strides in wildfire 
prevention and mitigation, but Congress can do more.
    The number one barrier to implementing wildfire prevention 
plans and beetle-kill-mitigation programs is funding. I, along 
with the rest of the delegation, sent a letter to Secretaries 
Salazar, Vilsack, and Chu and Chairwoman Napolitano urging 
these agencies to use recovery funds to address the bark-kill 
mitigation problem.
    Finally, I would be remiss if I did not stress the 
importance of providing the USDA Animal and Plant Health 
Inspection Service with the resources they need to update the 
quarantined 37 regulations for the importation of plants into 
the U.S. While bark beetles are a native species to the West, 
our forests are prone to invasive species without these updated 
regulations.
    Thank you again for allowing me to speak to the 
Subcommittee, and I yield back the balance of my time.
    [The prepared statement of Ms. Markey follows:]

 Statement of The Honorable Betsy Markey, a Representative in Congress 
                       from the State of Colorado

    Chairman Grijalva and Chairwoman Napolitano and Ranking Members 
Bishop and McMorris Rodgers, thank you for allowing me the opportunity 
to testify before your subcommittees today. I also want to thank you 
for holding this hearing on mountain pine beetles and highlighting what 
needs to be done to limit the hazards brought about by this epidemic.
    As you will hear from many members of the panels today, the west is 
no stranger to bark beetle infestations. In the past, native bark 
beetles have served to renew forest ecosystems by weeding out older 
mature trees to allow younger trees to regenerate. Unfortunately, warm 
winter temperatures, drought conditions and uniform tree maturity have 
both stressed trees and created the perfect conditions for the current 
outbreak. The range of various bark beetles species has been 
traditionally limited by climate, but warmer temperatures have 
contributed to the outbreaks spreading into new areas.
    While I will leave the entomology (en-toe-maul-o-gee) and ecology 
of bark beetles to the experts in the next panel, I would like to 
stress to the Committee why this issue is important to my district. 
Until recently, the Eastern Slope of the Rocky Mountains in Colorado 
has fared much better than the Western Slope in the bark beetle 
outbreaks. As my colleagues, Congressman Salazar and Polis can attest, 
the Western slope has seen large swaths of mature trees killed by the 
epidemic. The Forest Service expects this bark beetle outbreak will 
kill most of the mature Lodgepole pines covering 2.2 million acres in 
Colorado and southern Wyoming within the next 5 years. Some estimates 
indicate almost 2 million acres the have already been decimated. In 
2007, the Forest Service detected bark activity in 4 million acres of 
lodgepole and ponderosa pine in the west. Many other states are being 
affected by beetle infestations.
    The epidemic can be seen by the characteristic reddish hue the 
needles take on after about a year of infection. My district on the 
Eastern slope of the Rockies is showing signs that bark beetles have 
made it over the ridge and are now spreading to the eastern slope and 
the ponderosa pines in the Front Range.
    Infestation prevention techniques in Colorado involve spraying 
individual trees, thinning highly susceptible areas, and monitoring 
individual healthy trees for infestation. These techniques are very 
labor intensive and do not guarantee the trees will survive. Therefore 
it is important to focus on how to limit the damages brought on by the 
epidemic and study ways to reduce the intensity of outbreaks in the 
future.
    The Forest Service and Colorado State University are just two of 
the many entities studying the impact of bark beetle kill on wildfire 
risk. The Colorado Forest Restoration Institute in the Warner College 
of Natural Resources at Colorado State University works with other 
research institutions and private entities to apply field-based 
evidence to implement healthy forest management practices. It is 
theorized that while canopy fire risks decreases as the dead needles 
drop to the ground, the threat of fire on the forest floor greatly 
increases due to the deadwood pile up on the surface. This deadwood can 
also contribute to increased nutrient loading in water supplies. 
Catastrophic wildfires can also have detrimental effects on water 
quality and supply as Mr. Wilkinson will testify in the next panel. 
Erosion and debris from wildfires can have long lasting effects on 
water quality and incur great expenses to repair.
    The two biggest concerns in my district are increased threat of 
wildfire due to the beetle-killed trees and the impact of the bark 
beetle infestation on watershed health and water quality. Colorado's 
fourth Congressional District covers part of Rocky Mountain National 
Park, extends out east to the Nebraska and Kansas borders and runs as 
far south as the Oklahoma border. My district contains mountains, 
plains, grasslands, and some of the best agricultural land in Colorado. 
Weld County, in the 4th CD, is the number one ranking county in the 
state for agricultural products sold and eighth in the nation. The 
Eastern Plains of Colorado, including Weld County, depend on the water 
that flows from the Rocky Mountain forested areas. In the West, and 
especially in the dry state of Colorado, water is a resource more 
precious than gold.
    To ensure our forests and water are protected, it is imperative 
that we provide a stable source of funding for emergency wildfire 
suppression, such as provided in the FLAME Act. By creating a separate 
fund for unpredictable emergency wildfire efforts we can ensure annual 
funding for fire prevention and fuel reduction programs are not wiped 
out by sudden catastrophic wildfires. This bill also requires the 
development of wildfire management strategies by the Department of 
Agriculture and the Department of the Interior in addition to 
establishing wildfire grants to encourage individual communities to 
develop their own wildfire emergency plans. Being prepared for wildfire 
activity in advance will inherently reduce the risks of wildfire 
associated with the bark beetle kill.
    I would also like to stress how important it is for wildfire 
prevention plans to implement protections from hazards affecting water 
infrastructure and watershed health. These include plans to control 
debris and sediment accumulation as well as thinning around potential 
critical access sites to ensure these control measures can be put in 
place as soon as possible following wildfires. By putting in place 
infrastructure protections and response programs, we can ensure that 
should a wildfire take place, communities will be prepared to quickly 
mitigate the damage to our water supply.
    Federal programs like the Colorado Good Neighbor Authority and the 
pending FLAME Act are making strides in wildfire prevention and 
mitigation, but Congress can do more. The number one barrier to 
implementing wildfire prevention plans and beetle kill mitigation 
programs is funding. I along with the rest of the delegation sent a 
letter to Secretaries Salazar, Vilsack, Chu and Napolitano urging the 
agencies to use Recovery funds to address the bark beetle kill 
mitigation.
    Finally, I would be remiss if I did not to stress the importance of 
providing the USDA Animal and Plant Health Inspection Service with the 
resources they need to update the Quarantine 37 regulations for the 
importation of plants into the US. While bark beetles are a native 
species to the west, our forests are prone to invasive species without 
these updated regulations. Updating these regulations will ensure we 
are not unnecessarily exposing our forests to destructive invasive 
plants.
    Thank you again Chairman Grijalva and Chairwoman Napolitano and 
Ranking Members Bishop and McMorris Rodgers for allowing me the 
opportunity to speak before the subcommittees this morning.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Congresswoman.
    Next, we have The Honorable Walt Minnick.

    STATEMENT OF THE HON. WALT MINNICK, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Minnick. Madame Chairman and colleagues, I was 
backpacking four summers ago with my fly rod and sleeping bag 
in Idaho's spectacular Seven Devils Wilderness Area high above 
Hells Canyon, the deepest gorge in North America. These soaring 
peaks where snow lasts well into August are the home of the 
White Bark Pine, a gnarly, slow growing Evergreen which is my 
state's highest and toughest native tree species.
    It was still summer, yet many of the Pine trees were yellow 
and dropping the needles. On closer examination, their trunks 
and limbs were riddled with tiny open holes, marks left by 
thousands of hatching bark beetles flying off to mate and lay 
their eggs on those neighboring trees still alive. In the four 
days I spent hiking over mountain passes from lake to lake 
stalking native Cutthroat Trout, I examined tree after tree and 
found that none were not dead or dying.
    At lower elevations the tree and bark species are slightly 
different but the results are the same: dead and dying forests. 
There are over 20 million acres of national forests in my 
state. They anchor a major part of Idaho's tourism economy and 
supply raw material for lumber, construction and renewable 
energy. Millions of additional acres are in state and private 
ownership. Bark beetles are currently wrecking havoc on our 
healthy forests, damaging our state's economy and increasing 
the risk and intensity of stand replacement wildfire.
    The cause of this epidemic is increasing drought and warmer 
winters, which in combination can cause a thousandfold increase 
in the intensity of bark beetle infestations. In recent years, 
climate change has brought longer, dryer summers which reduce a 
tree's ability to drown bark beetle larvae, and less extreme 
winter cold temperatures, which kill bark beetle pupa. Bark 
beetles can now produce two generations in one summer and 
overwhelm entire forests instead of isolated trees.
    Whole mountainsides that used to be full of lush trees have 
turned brown and ready to burn. I worked in the forest products 
industry for over two decades and know that outside of 
protected roadless and wilderness areas, we need proactive 
forest management to restore our forests to a more healthy 
condition and reduce the threat to communities from raging 
wildfire. Restorative forestry, including thinning of mature 
and overgrown stands and replacement of forest monocultures 
with a variety of species and maturities, will help repel 
future beetle attacks.
    Healthier ecosystems can also provide economic and social 
benefits to both urban and rural communities, including better 
hunting, increased jobs in the woods, more logs for sawmills, 
forest residue for energy cogent plants, clean water and 
improved wildlife habitat. Earlier this year I introduced an 
amendment to H.R. 1404, the Flame Act, to help protect Idahoans 
and their communities from some of the dangers caused by the 
Bark Beetle.
    The bill, with my amendment, passed unanimously and directs 
new emergency funding to address land management costs posed by 
catastrophic wildfires, including those caused by beetle 
infestation. More aggressive forest management, together with 
the Flame Act, will help protected states like mine return to 
healthier and more productive forests. It is time for the 
Forest Service to act. Thank you, Madam Chairman.
    Mrs. Napolitano. Thank you, Mr. Minnick. We now have 
Honorable Jared Polis.
    [The prepared statement of Mr. Minnick follows:]

 Statement of The Honorable Walt Minnick, a Representative in Congress 
                        from the State of Idaho

    Mr. Chairman, I appreciate the opportunity to join my colleagues in 
speaking about the danger the Mountain Bark beetle poses to the health 
of our Western forests.
    I was backpacking four summers ago with my fly rod and sleeping bag 
in Idaho's spectacular Seven Devils Wilderness high above Hells Canyon, 
the deepest gorge in North America. These soaring peaks, where snow 
lasts well into August, are the home to the Whitebark Pine, a gnarly, 
slow growing evergreen which is my state's highest and toughest native 
tree species. It was still summer, yet many of the pine trees were 
yellow and dropping their needles. On closer examination, their trunks 
and limbs were riddled with tiny open holes--marks recently left by 
thousands of hatching bark beetles flying off to mate and lay their 
eggs on those neighboring trees still alive. In the 4 days I spent 
hiking over mountain passes from lake to lake stalking native cutthroat 
trout, I examined tree after tree--and found none that were not dead or 
dying. At lower elevations the tree and bark beetle species are 
slightly different, but the results are the same. Dead and dying 
forests`
    There are over 20 million acres of national forest in my state. 
They anchor a major part of Idaho's tourism economy and supply raw 
material for lumber, construction and renewable energy. Millions of 
additional acres are in state and private ownership.
    Bark beetles are currently wreaking havoc on our healthy forests, 
damaging our state's economy, and increasing the risk and intensity of 
stand replacement wild fire. The epidemic threatens to impact Idaho's 
vital watersheds, key wildlife habitats, destroy old-growth forests and 
impact popular recreation areas. National Forest Supervisors and 
private landowners are desperately seeking solutions to an increasingly 
serious situation.
    The cause of this epidemic is increasing drought and warmer winters 
which, in combination, can cause a thousand fold increase in the 
intensity of bark beetle infestations. In recent years climate change 
has brought longer drier summers, which reduce a tree's ability to 
drown bark beetle larva and less extreme winter cold temperatures which 
kill bark beetle pupae. Bark beetles can now can produce two 
generations in one summer and overwhelm entire forests instead of 
isolated trees. Whole mountainsides that used to be full of lush trees 
have turned brown--and ready to burn.
    I worked in the forest products industry for over two decades and 
know that, outside of protected roadless and Wilderness areas, we need 
proactive forest management to restore our forests to a more healthy 
condition and reduce the threat to communities from raging wildfire. 
Restorative forestry, including thinning of mature and overgrown stands 
and replacement of forest monocultures with a variety of species and 
maturities, will help repel future beetle attacks. Healthier ecosystems 
also provide economic and social benefits to both urban and rural 
communities, including better hunting, increased jobs in the woods, 
more logs for sawmills, forest residue for green energy co-generation 
plants, clean water and improved wildlife habitat.
    Earlier this year, I introduced an amendment to H.R. 1404, the 
FLAME Act, to help protect Idahoans and their communities from some of 
the dangers caused by the bark beetle. The bill with my amendment 
passed unanimously and directs new emergency funding to address land 
management costs posed by catastrophic wildfires including those caused 
by beetle infestation. Passage of this amendment, together with the 
FLAME Act, will help forested states like mine return to healthier and 
more productive forests.
    It's time to act.
    Thank you Mr. Chairman.
                                 ______
                                 

STATEMENT OF THE HON. JARED POLIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Polis. Thank you, Chairwoman Napolitano and Chairman 
Grijalva, as well as the Ranking Members, for holding this 
important hearing and giving me the opportunity to testify 
before your Subcommittee on an issue that is of enormous 
importance to the citizens of Colorado's second congressional 
district, as well as those who visit our Alpine treasures. One 
of the primary needs in addressing this epidemic is increasing 
the awareness and understanding of how vast this problem is and 
what menu of options we have in mitigating its damage.
    This hearing will help to highlight the problems that we 
currently face and continue to bring more minds to the table 
and a better Federal partnership to join those who are working 
constantly to promote mitigation solutions and keep our 
communities and public lands safe.
    In my testimony today, I will highlight the sheer scope of 
this problem and why this outbreak demands the prompt attention 
of congressional leaders, the Administration, and our local and 
national land management officials, where we currently stand 
and what solutions currently exist, as well as what innovations 
are on the horizon, and finally, the challenges we face in 
developing and implementing these solutions responsively and 
effectively.
    Colorado's second congressional district relies on visitors 
who come to our state to ski, camp, climb, bike, boat and visit 
the incredible landscapes that define Colorado's second 
congressional district. In Colorado, the tourism industry 
provides nearly $10 billion of in state spending annually. In 
addition to those who come to visit, those who call our 
district home are always outside enjoying the natural 
cornucopia of entertainment and adventure day in and day out, 
part of the fabric of our quality of life.
    However, the Mountain Pine Beetle epidemic is fundamentally 
changing our landscape and with it, both our culture and our 
economy. We have seen outbreaks in the past, most recently in 
1970s and early 1980s, but the combined forces of the current 
outbreaks make this epidemic the biggest in recorded history by 
far. For this reason, it demands our proactive attention. The 
current outbreaks are killing trees in large numbers, at faster 
rates and over longer periods of time than previous outbreaks.
    This outbreak has yet to get natural help that has stopped 
the past outbreaks from reaching the scale of devastation we 
see today. It was a severe cold period that was credited with 
stopping a rapidly growing outbreak in my district in Grand 
County, Colorado, in the 1980s. Today, temperature trends are 
pushing us in the opposite direction. In discussing the scope 
of this problem, the first and foremost concern is the safety 
of visitors and residents who live and play in the mountains 
that are being hardest hit.
    Fire is, of course, the danger that comes to mind. Research 
has suggested that large beetle outbreaks tend to happen on a 
50 year cycle. Wildfires frequently follow 10 years to 15 years 
after, and there has been a strong correlation between 
catastrophic fire events and beetle kills 15 years later. This 
outbreak has been present in my district for just about 10 
years now, and it is growing closer and closer to the time when 
evidence suggests a strong correlation between beetle kill and 
wildfire events.
    In addition to fire, this outbreak has significant safety 
repercussions from falling, dead and dying trees. Falling trees 
pose a hazard to power lines, trails, roads, campgrounds, 
rivers, ski lodges, infrastructure, as well as the patrons and 
workers who use them. Our economy also stands to suffer. The 
communities of Colorado's second congressional district are 
blessed to have economies directly tied to our landscape and 
natural resources.
    As we move further into this summer, an ominous annual 
cycle dominates our mind, that of the growing wildfire danger. 
While there are mitigation efforts underway and programs and 
services are helping, our current resources are not enough. 
Trees do not cut down themselves. Broadly put, funding is one 
of the primary keys to quick mitigation. We are all aware that 
overwhelming firefighter costs have stifled our Federal land 
management budget.
    I hope that the Senate will act quickly to pass the Flame 
Act, following the House's lead, and the excellent work of this 
Committee on passing that legislation. The Flame Act will have 
a drastic and immediate benefit for our communities and the 
effective and efficient use of our tax dollars. Our public land 
managers have project after project of fuel reduction efforts 
which have passed environmental assessment but are still 
waiting for funding to move forward.
    Reducing fuels in the wildland urban interface and around 
the critical infrastructure is critical to solving the safety 
concerns posed by the Mountain Pine Beetle outbreak. With 
budget shortfalls and the growing need for funding of hazardous 
tree removal, we are also looking at creative ways to decrease 
the cost of thinning responsibly bringing increased value to 
the wood products removed. Wood products, wood pellets, small 
scale energy products and other businesses can play a key role 
in mitigating the damage.
    Today you will hear from Mark Mathis, a wood pellet 
producer in my district, who will talk about the need to help 
local businesses to reduce the outbreak's impact. I was also 
able to recently attend a blue stain showroom opening. We think 
that blue stain is a better name than Pine Beetle kill to 
market the wood. The Mountain Pine Beetle leaves a fungus that 
stains the dead trees blue without compromising the integrity 
of the wood that can be reduced by these trees.
    I recently purchased a coffee table that is a blue stained 
coffee table. The blue stain products and industry and small 
scale renewable energy are only a couple of examples of 
community businesses that can play a central role in creating 
private incentives to reduce fuels and remove hazardous trees 
in high risk areas. As Congress debates and moves closer to 
passing a wide sweeping overhaul of our nation's energy policy, 
new resources of energy--thank you, Madam Chair.
    Mrs. Napolitano. That is quite a response. You may wrap it 
up.
    Mr. Polis. Thank you. I was just going to refer to a woody 
biomass within a renewable energy standard has additional 
potential to provide incentives for taking the trees, and there 
are efforts to work on the upcoming energy bill to include 
those elements. Thank you.
    [The prepared statement of Mr. Polis follows:]

 Statement of The Honorable Jared Polis, a Representative in Congress 
                       from the State of Colorado

    Chairman Grijalva and Chairwoman Napolitano and Ranking Members 
Bishop and McMorris Rodgers,
    Thank you very much for holding this hearing, and particularly the 
opportunity to testify before your subcommittee on an issue that is of 
chief importance to the citizens of Colorado's second district and 
those who visit its alpine treasures. The mountain pine beetle outbreak 
that is currently expanding throughout the Rocky Mountains, and 
particularly the Lodgepole pine ecosystems of my district, and 
Whitebark pine of the Northern Rockies, is a critically important 
topic. One of the primary needs in addressing this epidemic is 
increasing the awareness and understanding of how vast this problem is, 
and what menu of options we have in mitigating its damage. This hearing 
will help to highlight the problems that we currently face, and 
continue to bring more minds to the table, joining those of us who are 
working constantly to promote mitigation solutions and keep our 
communities and public land's patrons safe.
    In my testimony today I hope to highlight: 1) The scope of this 
problem and why this outbreak demands the prompt attention of 
congressional leaders, the administration and our local and national 
lands management officials. 2) Where we currently stand, what solutions 
exist and what innovations are on the horizon that will mitigate the 
damages of this outbreak responsibly and effectively 3) The challenges 
we face in developing and implementing those solutions responsibly and 
effectively.
How big of a problem is this?
    Colorado's Second District relies heavily on those visitors who 
come to our state to ski, camp, climb, bike and boat the incredible 
landscapes that define Colorado's Second Congressional District. In 
Colorado, the tourism industry provides nearly $10 billion dollars of 
in state spending annually. In addition to those who come to visit, 
those who call the second district home are outside enjoying this 
natural cornucopia of entertainment and adventure day in and day out. 
My district is home to world class ski areas, dozens of fourteen 
thousand foot peaks, and countless trails, campgrounds and rivers that 
define our economy and culture as much as they define our landscapes. 
However, the mountain pine beetle epidemic is fundamentally changing 
this landscape, and with it our culture and economy.
    In the last ten years, more than 150 million acres of trees, from 
New Mexico to British Columbia, have died as a result of beetle 
infestation. While my district is most heavily affected by the mountain 
pine beetle in its Lodgepole pine forests, other states are seeing 
similar outbreaks involving other species of trees and beetles.
    We have seen outbreaks in the past, most recently in the late 
1970's and early 80's, but the combined force of the current outbreaks 
make this epidemic the biggest in recorded history and for this reason 
it demands our proactive attention. The current outbreaks are killing 
trees in larger numbers, at faster rates, and over longer time periods; 
they are happening in numerous ecosystems across the western U.S. and 
are occurring at the same time.
    The scope of this outbreak demands our attention because it has yet 
to get the natural help that has stopped past outbreaks from reaching 
the scale of devastation we see today. Beetles are a temperature 
dependant being, limited by colder temperatures and colder climates. It 
was a severe cold period that was credited with stopping a rapidly 
growing outbreak in my district in Grand County, Colorado in the 
1980's. Today, temperature trends and drought conditions are pushing us 
in the opposite direction.
    The beetle's life cycles are also greatly determined by 
temperature. Generally, species that live in colder climates have a two 
year life cycle, but we're starting to see the beetles at higher 
elevations reproducing more like beetles in warmer and lower 
elevations, once every year to even twice a year, greatly expanding the 
speed with which this outbreak spreads. Regionally, the mountain pine 
beetle hasn't been found in British Columbia, the Yukon or the 
Northwest Territories. Now, British Columbia is one of the areas hit 
hardest by the current epidemic.
    In discussing the scope of this problem, the first and foremost 
concern is the safety of the visitors and residents who live and play 
in the mountains that are being hit hardest. Fire is, of course, the 
danger that comes to mind first. Research is still being conducted on 
the direct influence between beetle kill and wildfires, and I know I 
speak for everyone here when I say that I hope the links are minimal. I 
say this because if beetle-killed forests are at greater risk of 
burning, or fuel more intense fires, then many communities in my 
district are getting closer to catastrophe every year.
    Some research has suggested that larger beetle outbreaks tend to 
happen on a 50 year cycle, while large wildfire events don't 
necessarily follow those same trends. However, additional research has 
suggested that 5 to 10 years after a beetle outbreak there is little 
correlation between wildfires and beetle kill, while 15 years out the 
correlation is much stronger. This outbreak has been present in my 
district for over ten years and is growing closer and closer to the 
time when evidence suggests a stronger correlation between beetle kill 
and wildfire events. Our communities, homeowners, ski areas, towns and 
businesses know all too well the personal effects of major wildfire 
events, but the sheer scale of dead and dying timber in our surrounding 
forests speaks to a greater catastrophic potential, and that is truly 
worrying.
    In addition to fire, this outbreak has significant safety 
repercussions from falling dead and dying trees. Mountain pine beetles 
attack larger trees more often, as these trees serve as better hosts 
for the beetle's larvae. When these trees die, the root systems die as 
well, and the trees and soil around them become less stable leading to 
larger falling trees. These falling trees pose significant hazards to 
trails, roads, campgrounds, rivers, ski lodges, vital infrastructure, 
and the patrons and workers who use them.
    Our economies also stand to suffer. The communities of Colorado's 
second district are blessed to have economies directly tied to our 
landscapes and natural resources. However, for the many communities who 
share this trait throughout the region, the mountain pine beetle 
epidemic poses a threat of disastrous proportions. The visitors that 
come to Colorado for recreation and tourism drive our economies and 
sustain our communities. The damage to our tourism industry through 
threat of fire, damage to infrastructure from falling trees or the 
damage to our landscape's beauty, give rise to severe concerns about 
our community's economic and cultural future.
Where are we now and what's on the horizon?
    As I'm giving this testimony, Colorado's mountains are drying out 
from a muddy spring, with snow melting, runoff filling our rivers and 
creeks and wildflowers dominating the high alpine meadows. However, as 
our mountains and forests move further into the summer, a more ominous 
annual cycle dominates our minds...that of the growing wildfire danger. 
Now more than ever, the pine beetle epidemic has concerns running high 
about a wildfire season of catastrophic possibilities. Our communities 
are not as prepared as they could be, and they need federal help to 
ensure the highest level of safety is achieved.
    While there are mitigation efforts underway and programs and 
services helping a great deal on the ground...broadly put, funding, 
funding, funding is one of the primary keys to quick mitigation.
    We are all aware that overwhelming firefighting costs have stifled 
our federal lands management budget. I hope that the Senate will act 
quickly to pass the FLAME Act, following the House's lead, and the 
excellent work of this committee in passing that legislation. The FLAME 
Act will have drastic and immediate benefits for our communities and 
the effective and efficient use of our tax dollars.
    When it comes to spending the limited mitigation money we do have, 
the Wildland Urban Interface and areas around critical infrastructure, 
where civilization and wildlands come face to face, are the areas where 
expended funding should be focused to ensure the most effective, 
efficient and responsible use of our tax dollars. Thinning projects 
done in the Wildland Urban Interface (or woo-ee) and around critical 
infrastructure, creates fire breaks between less accessible wildlands 
and the population centers and infrastructure that we hope to protect 
when a fire occurs. Additionally, it allows fires away from 
civilization to run their course naturally, benefiting those 
ecosystems, without concern of a fire quickly spreading to threaten 
homes or communities. By maintaining a healthy WUI, we can cut 
firefighting costs, better protect our communities, and give our 
agencies the freedom to focus on a mission of lands management and 
stewardship, instead of constant attention to local and residential 
firefighting.
    Our public lands managers have project after project of fuel 
reduction efforts, which have passed environmental assessment but are 
still waiting on funding to move forward. Reducing fuels in the 
Wildland Urban Interface is absolutely critical to solving the safety 
concerns posed by the mountain pine beetle outbreak quickly and 
efficiently. Funding these waiting projects will have a significant and 
immediate impact on reducing our wildfire risks, reducing the costs of 
wildfire suppression activities...it is truly the low hanging fruit in 
addressing the mountain pine beetle problem.
    With budget shortfalls, and the growing need for funding of 
hazardous tree removal and fuel reduction efforts, we are looking at 
other creative ways to decrease the costs of thinning responsibly, 
bringing increased value to the wood we need removed. When weighing 
policy approaches and concepts new and old, we must ensure that in 
creating value and new markets for this wood, we don't create too great 
an incentive to where the harvesting of this resource becomes 
unsustainable in its own right.
    Whether including woody biomass in the definition of Renewable 
Energy and thus allowing for incentives under a Renewable Energy 
Portfolio Standard (RPS or RES), or through the growing prevalence of 
``bluestain'' wood products as a decorative building 
material...creating new market demand for the dead and dying trees 
provides hope to the communities who want to see fuel reduction efforts 
moving forward.
    Wood products, wood pellets, small scale energy projects and other 
local businesses can play a key role in mitigating the damage and 
lessening the danger from this outbreak's effects. Today you will hear 
from Mark Mathis, a wood pellet producer in my district on this subject 
who can speak to the help that local businesses can provide in reducing 
this outbreak's impacts. By adding value to beetle kill, we create a 
new demand for this wood and decrease the cost to our federal land 
management agencies to remove these fuels from our federal lands.
    I was recently able to attend a bluestain showroom grand opening, 
where more and more individuals are leaning about the bluestain wood 
products industry, buying bluestain products and bringing value to the 
trees that we need to have removed. The mountain pine beetle leaves in 
its wake a fungus that stains the dead trees blue without compromising 
the integrity of the wood that can be produced from these dead trees. 
The Bluestain products industry and small scale renewable energy 
development are only a couple examples of community businesses that 
should play a central role in creating private incentives to reduce 
fuels and remove hazardous trees high risk areas.
The Challenges We Still Face
    I've discussed several of the options and needs that we know of 
with regard to the mountain pine beetle epidemic in the West. However, 
there are a multitude of unanswered questions, challenges, and bridges 
that we still must cross.
    While funding will go a long way to lessening the risk immediately, 
we face the need for additional and expanded programs that assist fuels 
reduction efforts on state and private lands. Nearly 70% of the 
Wildland Urban Interface exists on private lands, and private property 
owners must have the knowledge and incentives to maintain a healthy WUI 
for the benefit of public safety. Programs like the State and Private 
Forestry program, good neighbor authority, and the community fire 
planning provisions of the FLAME Act, along with the ability for local 
community companies to carry out this work are excellent examples of 
what we need to be promoting.
    However, much is left to be done as the public safety is put at 
risk and more and more federal dollars are spent fighting fires or 
repairing damage that could have been lessened or avoided all together. 
Whether on public or private land, we need to promote safety and 
responsibility first and foremost.
    We also want to ensure that the measures we do take to mitigate the 
effects of this problem don't create other or longer lasting problems. 
Specifically, we need to maintain a focus on environmental 
responsibility, particularly when discussing thinning outside the WUI 
and / or creating a new form of value and increased demand for the dead 
and dying timber that is produced.
    As Congress debates and moves closer to passing a wide sweeping 
overhaul of our nation's energy policy, new sources of energy will 
become greatly valued and heavily sought after. A properly crafted, 
specific and responsible definition for woody biomass within a 
Renewable Energy Standard has a significant and positive role to play 
in helping fund wildfire mitigation projects, and relieve the backlog 
of projects that the Forest Service is waiting to have funded. This 
definition can also mean that we see an expansion of cleaner and less 
carbon intensive energy sources, like wood pellet heating, that will 
help combat one of the primary causes of the beetle epidemic: climate 
change.
    However, it is essential that this definition and the resulting 
technology and markets are constructed with sustainability as a first 
priority. Any industry, technology or practice we support must use 
resources in a manner that will conserve those resources for future 
generations and will create careers that can sustain communities, not 
short term jobs that will disappear along with our resources.
Closing Statements
    The current beetle outbreak in the west is reaching a scale of epic 
and catastrophic proportions; it is truly a perfect storm of forest age 
and health, climate change and drought paired with combined regional 
outbreaks spreading rapidly throughout the Rocky Mountains. The 
residents, visitors, communities and economies of my district in 
Colorado are facing new questions and a more uncertain future because 
of this epidemic. To address it we will need to employ new policies, 
provide better funding practices and be sure that as we're addressing 
this problem we don't create new problems or systems that can't sustain 
themselves in the long term.
    This outbreak will leave a lasting scar on the land for years, but 
I am confident that the forests will rebound and regenerate. It is our 
responsibility to be knowledgeable and conscientious of our natural 
world, ensuring that our wild areas can undergo their process of 
healing, and ensuring that our communities and visitors aren't put in 
harm's way during that process.
    Thank you again to the members of this subcommittee, and to 
Chairman Rahall, Congressman Grijalva, Congresswoman Napolitano, 
Congressman Bishop and Congresswoman McMorris Rodgers for giving your 
committee's time to the challenges that my constituents face on a daily 
basis. I also thank you for the opportunity to testify in front of your 
committee and the opportunity to participate in this hearing.
                                 ______
                                 
    Mrs. Napolitano. Thank you for your testimony. All of the 
panel, you are very passionate about the issues in your 
district and I am very glad that you are joining together. I 
hope that of this we will continue to not only work on this 
issue, but look at the solutions to the problem. May I ask that 
you turn over your testimony since it wasn't submitted for the 
record, if you would not mind? Members, do you have questions 
of the panel?
    Mr. Chaffetz. Thank you, Madam Chair. Quick question. Maybe 
we can start with Mr. Polis and work our way down the panel. Do 
you believe that biomass is renewable, and why isn't biomass 
considered renewable in the Waxman-Markey Climate Bill in your 
opinion?
    Mr. Polis. Well, we are working for a properly crafted and 
specific definition for woody biomass within a renewable energy 
standard and that can have a significant and positive role to 
play in helping fund wildfire mitigation projects in this case, 
as well as potentially other cases, and also help relieve the 
backlog of projects that the Forest Service is waiting to have 
funding.
    By getting the definition right it can also mean that we 
can have an expansion of cleaner and less carbon intensive 
energy sources, like wood pellet heating, that will also help 
combat one of the primary causes of the Pine Beetle epidemic, 
global climate change.
    Mr. Minnick. The short answer, Congressman Chaffetz, is 
when we get through with it, it will be. I have been 
encouraged. I have been working with some members of your 
panel, Congresswoman Herseth Sandlin and others of us from the 
northwest, to get that modification made in the bill, and 
committee staff and the Congressmen have been quite 
forthcoming, so I am encouraged that by the time the bill is 
passed we will have that corrected.
    Ms. Markey. I will echo that as well. As a member of the 
Committee on Agriculture, we have been discussing this quite a 
bit and making sure that woody biomass is included in renewable 
standard definition.
    Mr. Salazar. I could agree with all my colleagues here. I 
know that we have been working on it, I know that Stephanie 
Herseth Sandlin has been working on it in the Ag Committee for 
several years. If you look at northwestern Colorado and you see 
all the dead trees, can you imagine what an incredible resource 
that would be? There are some pellet mills that are going up, 
there is one pellet mill that is actually working with trying 
to create an ethanol production facility so that we can use 
that wood twice, to make ethanol, and then the residue then 
becomes pellets.
    I just want to thank the Chairwoman for flying over the 
areas in Colorado that she saw the devastation that is 
happening there. Woody biomass, I think, should be within the 
climate change bill.
    Mr. Rehberg. It is renewable. Cap in tax is not the 
solution. An all of the above energy policy is the solution. 
However, if we don't address the litigation, it doesn't matter 
how much legislation or how much language you include in any 
comprehensive energy policy, litigation is going to keep you 
from having access. We can give you example after example in 
Montana where we have cogeneration facilities attached to 
schools, hospitals and nursing homes that cannot get access to 
put their public lands because of excessive litigation.
    Mr. Chaffetz. Thank you. Thank you, Madam Chairwoman. 
Appreciate it. Yield back the balance of my time.
    Mrs. Napolitano. Wonderful. Thank you.
    Ms. DeGette. Madam Chair, move to strike the last word.
    Mrs. Napolitano. So moved.
    Ms. DeGette. Madam Chair, as a member of the Energy and 
Commerce Committee let me take a stab at Congressman Chaffetz's 
question. In fact, in the current draft of the Waxman-Markey 
Climate Change Bill woody biomass is included in the renewable 
electricity standard. However, as I noted in my opening 
remarks, there are some definitional issues with the way it is 
defined in there. Mr. Walden and I are trying to expand this 
standard so that we can get these downed trees out of the 
forests.
    In the current draft of the bill, it talks about old growth 
forests or established forests and that is the problem that we 
have in a lot of these forests in the West--in Colorado, 
Wyoming, Idaho, and other states. Some of this downed wood from 
pine beetle kill that is in our national forests and our other 
public lands may not be included. So we are trying to work on 
language before that bill gets to the Floor.
    I am working with every single one of my colleagues here, 
plus Mr. Inslee, Ms. Herseth Sandlin and others, to make sure 
that we get a definition of woody biomass that is going to give 
incentives so that we can get these downed trees out of these 
forests. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Ms. DeGette. Mr. McClintock?
    Mr. McClintock. Thank you, Madam Chairman. Question I would 
have is how important is tree thinning to combating the Pine 
Beetle infestation? Yes, Mr. Salazar.
    Mr. Salazar. Let me just answer by could you put that 
photograph up, my number seven, the hand? That is the one. That 
is it. I was accused by Mr. Rehberg, he thought that maybe 
aliens did this. This is a primary example of how managed 
versus unmanaged areas. The trees in the darker green areas had 
been thinned and there is no devastation, there are no dead 
trees. The brown areas are the ones that have not been managed. 
So we do have to give our Federal agencies the authority and 
the ability to be able to manage our forests better.
    Mr. McClintock. Well, they certainly have the 
responsibility to manage the forests. What is keeping them from 
doing so?
    Mr. Salazar. Well, as Mr. Rehberg stated prior to this, it 
is lawsuit after lawsuit and then it is very difficult.
    Mr. Rehberg. Tree thinning is very important but is just 
one aspect. If you are going to holistically manage your 
forests you need to have a grazing policy because undergrazing 
grass kills it as dead as overgrazing it. Underthinning kills 
it every bit as much as overlogging it. Fire can be used as a 
tool. I don't know why we are afraid of using the word logging 
because logging is nothing more than a tool to help us manage 
the forests the way we want it to look, and the interesting 
thing is we use their labor, their capital, their equipment, we 
tell them what tree to take, when to take it and how to take 
it.
    Mr. McClintock. Well, this seems to be a recurring theme 
before this Committee: litigation stopping vitally needed 
forest management practices. The absence of those forest 
management practices are killing our forests. I can't imagine 
anything more devastating to a forest, environmentally 
devastating to a forest, than a forest fire.
    The pictures that you have presented of beetle-killed trees 
paints another environmentally devastating picture. According 
to the testimony here and testimony we have had before other 
committees on other aspects of this, it is litigation from 
environmental groups that is impeding the Forest Service from 
doing its job. What do we do about that, Mr. Salazar?
    Mr. Salazar. All I can tell you is that the findings of 
what--I mean, that is what this hearing is all about, and I 
think we need to present these to our agencies, the Department 
of the Interior, USDA, and try to figure out what we do. We 
have a judicial system. We are just the Legislative Branch. We 
are working together, in fact, with some of the Members from 
western states, to try to put together and craft a bipartisan 
bill that will address this issue.
    Mr. McClintock. I don't recall the exact figures but we had 
received testimony in another hearing that the commercial value 
of thinning these forests is rather substantial. We own that 
timber. We actually sell it to the timber companies. They buy 
it from us and pay quite a bit for it. On top of that, I assume 
that the beetle-killed timber also has considerable commercial 
value and that if we could sell it immediately that it would 
produce additional revenues which we could then use to better 
manage our forests. Why aren't we?
    Mr. Rehberg. Mr. McClintock, maybe I can put it into 
perspective. You have used the word immediately and therein 
lies the difficulty. If we don't get in and get it before there 
is a period of time where it is destroyed and cannot be 
commercially viable, then the agency has to make the decision 
whether it is worth it or not. I might go back to the year 
2001. There were fires in 2000.
    Dale Bosworth was the head of the Forest Service. He had to 
make a determination after a Court case said that he could in 
fact go in, but he had to appeal a part of it. He had to make 
the decision to settle the lawsuit rather than carry it forward 
because time is of the essence.
    Mr. McClintock. And they don't even need to win the 
lawsuit. All they need to do is delay it substantially----
    Mr. Rehberg. That is correct. He would have probably won 
the lawsuit.
    Mr. McClintock. We are watching the same tactics in my 
area, and again, a recurrent theme. The litigation is a 
creature of this Congress. Perhaps we ought to reign it in.
    Mrs. Napolitano. Thank you. Mr. Inslee?
    Mr. Inslee. Thank you. I just want to express the hope that 
when we get in the next few weeks dealing with a way to really 
solve this problem that all my colleagues will help to really 
solve the problem because there is not enough thinning money, 
or treatment money, or tea to spread in the globe to solve this 
problem once we get a hand on climate change.
    Does everybody on the panel agree? Does anybody disagree 
with that? Anybody disagree that climate change caused by 
humans putting CO<INF>2</INF> in the atmosphere is one of the 
factors for the problem we are suffering here? Does anybody 
disagree with that? Guess everybody agrees with it. Mr. 
Rehberg, are you going to support a cap on carbon dioxide 
emissions so we can save our forests?
    Mr. Rehberg. The Devil is always in the details, Mr. 
Inslee. What is your definition of human impact on global 
warming? If you are going to suggest that the forests are 
turning the colors that they are because of CO<INF>2</INF> 
emissions, I guess I have a problem with that premise.
    Mr. Inslee. Well, that is what I thought I was asking you. 
Do you disagree that one of the reasons that our forests have 
such----
    Mr. Rehberg. You phrased your question in such a way as you 
asked if I thought there was a human element of CO<INF>2</INF> 
and whether it had an impact on our temperature. I cannot 
either agree or disagree, but if it is the factor that has 
created the problem that we are discussing today, I would 
suggest not.
    Mr. Inslee. Well, the reason I asked you that is when I 
listened to your testimony, it was like the environmentalists 
are killing the forests. I just want to ask you, do you agree 
with the proposition that humans' contribution of 
CO<INF>2</INF> loads in the atmosphere are one of the factors 
that are causing climate change that are causing one of the 
factors in the devastation of the forests that we are talking 
about here? Do you agree with that?
    Mr. Rehberg. Why don't we go back to your initial 
statement, do I think environmentalists are killing our 
forests? I think they are loving it to death.
    Mr. Inslee. Well, let me just ask you a question. Do you 
think that human-caused CO<INF>2</INF> concentrations in the 
atmosphere are one of the reasons these forests are in such 
terrible shape?
    Mr. Rehberg. I would suggest the forests are in such 
terrible shape because of the lack of management on the part of 
the humans that are in the agencies that are not given the 
ability to use their brains to in fact manage it the way it 
needs to be managed, whether it is selective logging, whether 
it is grazing management, whether it is prescribed burns. The 
continuation of the extreme environmental community in the 
tying up in litigation--and you cannot deny that excessive 
litigation has in fact kept us from actively managing our 
forests the way they deserve to be managed.
    Mr. Inslee. What I want to know is--and you can take a stab 
at a ``Yes'' or ``No'' answer because I think this is an 
important issue in our ability to fashion some bipartisan 
response to what is really killing our forests. 
Environmentalists aren't there planting bark beetles in the 
forests. This problem is caused by climate change where the 
winters are not cold enough to kill the beetles and causing the 
drought which is making the trees less healthy and more 
susceptible to beetle infestations, and until we get a cap on 
carbon dioxide, this problem is going to worsen.
    Mr. Rehberg. I would suggest----
    Mr. Inslee. Let me finish my question. Just let me finish 
my question. Do you agree that we ought to limit carbon dioxide 
emissions so that we can hopefully reduce the climate change 
that is making these forests susceptible to beetle kills?
    Mr. Rehberg. I don't think anybody is going to disagree 
that to the extent possible we, as humans, should eliminate as 
much pollution as we possibly can, whether it is our air, our 
water, our ground and such. Nobody is going to deny that. If 
you are asking whether I think that our forests are mismanaged, 
I do believe that to be the case. Nobody asks for cancer, and 
yet, nobody stands in the way of a doctor trying to go in and 
take that cancer out.
    When you talk about the cancer of a forest, there are 
people that are litigating their way through the Court system 
keeping us from going in, cleaning out the dead and dying trees 
and trying to eliminate the beetle infested trees. That is what 
the hearing is about today.
    Mr. Inslee. So would you support some cap on carbon dioxide 
to try to reduce the threat that these forests are having?
    Mr. Rehberg. Once again, I am doing everything I possibly 
can on the Energy and Water Appropriations Committee, as one of 
the members of that Committee, to fund through the Department 
of Energy everything we possibly can with sequestration, with 
biomass. We want a comprehensive energy policy.
    I think this Congress ought to spend its time on getting 
something that clearly understands nuclear, wind, solar, 
geothermal, oil, gas, coal, conservation and grants the loans 
to help us invent our way into the next generation rather than 
spending as much time on a cap and tax policy that frankly 
isn't bipartisan because a lot of us have not been invited to 
the table.
    Mr. Inslee. So that was sort of a no. Thank you.
    Mrs. Napolitano. Mr. Inslee, thank you. Ms. Lummis?
    Mrs. Lummis. Thank you, Madam Chairman. My questions are 
primarily for Mr. Rehberg and Mr. Salazar. Has this Congress, 
to your knowledge, ever invoked sovereign immunity for a 
specific purpose, for a specific period of time, to suspend the 
ability to sue the United States in order to resolve a specific 
issue?
    The purpose of my question, of course, being I would like 
to see us explore the idea of invoking sovereign immunity, 
preventing the United States from being susceptible to lawsuits 
for the purposes of saving our forests for a period of time in 
a certain geographic area with regard to bark beetle. Your 
response, your thoughts, please.
    Mr. Rehberg. I cannot answer whether that has occurred in 
any other area--natural resources or others. I am not 
proposing, nor would I ever suggest, limiting access to the 
Courts. Everybody has an opportunity to avail themselves 
through the Court system when they feel they have been wronged. 
That is just part of our system.
    What we have attempted to do, both on this Committee when I 
served on the Committee and other committees, is try and 
provide some kind of reasonableness or common sense, whether it 
is a bond to suggest that you have to have a dog in the fight, 
a financial interest, it can't just use a stamp and an envelope 
to stop something that in fact does do damage to our 
environment, and so it would be a limited access, but not an 
elimination of access, to our Court system. I would suggest it 
would probably not be possible, and I am not sure I would 
support an entire elimination of the judiciary in this process.
    Mrs. Lummis. Your thoughts, Mr. Salazar?
    Mr. Salazar. Well, I tend to agree with Mr. Rehberg. I know 
that we do have a major problem. We have to address it. I tend 
to also agree with Mr. Inslee. I know all of us have some kind 
of impact on what is happening through climate change. However, 
I can't say that that is the entire reason for this happening. 
I mean, when Mr. Polis gave his testimony he talked about this 
cycle happening like every 50 years or so when we have 
droughts.
    We suffered a major drought in Colorado and across the 
western United States in 2000, 2001, a massive drought, and 
that is what made these trees more vulnerable, but we do have a 
problem. I wouldn't support stopping anyone from using our 
legal system to protect our forests, but at the same time, we 
need to have some kind of a common sense attitude and figure 
out what resources we can give our departments to handle this.
    The question before was asked, I can't remember by which 
Member, can we address this issue? I mean, it is such a massive 
issue right now. We can't just go and clearcut all this wood, 
take it out. I think it would be devastating to our watershed. 
We have to figure out some way to manage it and look forward 
into the future, and, looking at these photographs, how we 
manage our forests in the future.
    Mrs. Lummis. Thank you, Madam Chairman.
    Mrs. Napolitano. OK.
    Mrs. Lummis. Madam Chair, Mr. Polis wanted to answer that 
question.
    Mr. Polis. May I just address something you said in the 
latter part of the question? You put these out as a way of 
saving the forest. I just wanted to make a point that in large 
parts of my district in Colorado it is no longer a discussion 
of saving the forest. Our forest has died off. Nearly every 
Lodgepole Pine is dead. It is an issue of dealing with the 
mitigation, reducing the forest fire impact.
    Several of the questions have dealt or people have been 
thinking about how perhaps to do better forest management and 
prevent this type of crisis from happening again, but I would 
just like to remind the Committee that the sheer magnitude of 
where we are today and the urgent need to deal with that.
    Mrs. Napolitano. Thank you very much for that statement. 
Now we have Ms. Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Madam Chair. I want to 
thank you and Chairman Grijalva for having today's hearing. 
Unfortunately, I am very familiar with this problem as well. 
Black Hills National Forest in western South Dakota and parts 
of Wyoming has about a million and a half acres. 340,000 of 
those acres have been infested with Mountain Pine Beetles 
contributing to the wildfire risk because much of the Black 
Hills National Forest is typical of wildland urban interface.
    It is the most heavily roaded forests in the country. Since 
2000, the wildfires have burned 180,000 acres of land. In the 
Black Hills, going to Mr. McClintock's point and others that 
the panelists have addressed, thinning has been a key tool. We 
have been able to use it maybe a little bit more effectively in 
the Black Hills because of how well our regional advisory board 
has worked to reduce some of the litigation that we have seen 
previously in the 1990s and the first part of this decade.
    It is a key tool, as I think we all agree, to keep the 
problems in check, to deal with mitigation, as well as trying 
to preserve the forests that can be preserved. As Mr. Inslee 
stated, the funding for thinning and for commercial timber 
sales hasn't met the demand for the treatments. Now, the 
partnership that we have between the timber industry, because 
we still have one in South Dakota, and the Forest Service has 
been invaluable to address this problem.
    We need to do more and find the strategies, which is the 
purpose of today's hearing, to address some of the other 
problems that have come out of my colleagues' testimony. I do 
want to point out, though, and I respect where Mr. Inslee is 
coming from, but the line of questioning I felt with Mr. 
Rehberg assumes that climate change alone is the only factor 
contributing to this problem. There are several other 
contributing factors. Mr. Salazar and Mr. Polis both said 
different cycles who have experienced drought. Those of us in 
the Great Plains have experienced these droughts before.
    We just got out of one in South Dakota. I don't think that 
we are climate change deniers, but we simply have to look at 
the other factors, whether it is the fact that with declining 
timber sales with a declining harvest, particularly when you 
look at the rate of growth in the forest and what is being 
taken out, that is contributing to unhealthy forests. You have 
more trees and overgrown stands that are competing for water 
resources that are scarce, that are then contributing to the 
hazardous fuel situation and making them more susceptible to 
the beetle infestation.
    So I hope that as we move forward, whether it is the next 
week to 10 days or the next many weeks to months as it relates 
to an energy policy and a climate policy, that we do come to 
some conclusion on the woody biomass issue because I think that 
that is a key mitigation issue. Going to Mr. Polis' point, as 
well as a key to rural economies that can contribute to the 
solution of renewable energy--whether it is electricity and 
cogeneration or fuels and cellulosic ethanol--to meet our 
energy independence goals, as well as through thinning and 
using wood biomass and making our forests--those that can be 
saved--better carbon sinks to help address the issue that ag 
and forestry lands can be utilized to help reduce the carbon in 
the atmosphere while we develop and deploy new technologies to 
help sequester carbon more effectively.
    So I guess the only question I would have for the panel--
given the relative success I think we have had in South Dakota 
with the regional advisory committee--have any of you had 
experience with those regional advisory boards? Is that one 
way, in addition to some of the others that have been 
suggested, that we can work through this issue in a more local 
and forest-specific manner to reduce litigation? Mr. Minnick, 
you have a response I presume?
    Mr. Minnick. From Ms. Sandlin on her side, I think that is 
the key, and we are currently doing that in my district. In 
fact, I am starting one in North Idaho in the Panhandle 
Forrest. We are also doing it in the Clearwater Forrest.
    It is the key to bring the interest groups together. We all 
have an interest in healthy forests. We all love our forests, 
regardless of our party or ideology; and if we can get people 
to sit down together and agree on a forest plan, that makes a 
lot of sense.
    I would add, though, a couple of things to what you 
suggested, based on my 20 years in the forest products 
industry. It is not just thinning. Beetles attack weak trees, 
unhealthy trees. So the key is to have a healthy forest. That 
involves not just thinning. But it also involves getting to a 
variety of species. Monocultures tend to be weaker and more 
susceptible to beetles and other pests.
    So if you can get a variety of species, if you can get a 
variety of ages, uniform age forests are also weaker and more 
susceptible, and then have proper thinning--all of that in 
combination, which modern forestry has learned a lot about, 
delivered through a collaborative process, with adequate 
funding, is the way, I think, we can collectively move forward.
    Mrs. Napolitano. Thank you; your time is expired. With 
that, I believe everybody has spoken to the issue. I do ask 
unanimous consent that Congressman Gallegly's testimony be 
allowed to be entered into the record; and without objection, 
so ordered.
    I would also ask unanimous consent that the Members who 
have testified before us today be allowed to sit on the dias 
and participate in the Subcommittee's proceedings today; and 
without objection, so ordered. Any of you are welcome to please 
sit with us for the rest of the three other panels; thank you 
very much.
    [Laughter.]
    Mrs. Napolitano. So we will move on to our second panel; 
thank you very much. You are now dismissed, and we appreciate 
your being with us for about an hour and 15 minutes.
    Mrs. Lummis. Madam Chairman?
    Mrs. Napolitano. Yes.
    Mrs. Lummis. While they are leaving, I would like to 
suggest that President Obama has appointed a number of czar-
type positions.
    Mrs. Napolitano. Yes, before you do, can we get the other 
panels to start coming up, so we do not lose time then.
    Mrs. Lummis. And I would encourage President Obama to make 
Representative Minnick the Forest Czar, to address bark beetle 
issues.
    Mrs. Napolitano. Thank you for your comments, Mrs. Lummis.
    We now will hear from Barbara Bentz, Research Entomologist 
for the Rocky Mountain Research Station and the Bureau of 
Forestry in the Department of Agriculture in Ft. Collins, 
Colorado; Mr. Rick Cables, Regional Forester for the Rocky 
Mountain Region, Bureau of Forestry, Department of Agriculture 
from Golden, Colorado; Dr. Herbert Frost, Associate Director 
for the National Resources Stewardship and Science from the 
National Park Service in the Department of the Interior in 
Washington, D.C.; and Mr. Ronald Turley, Special Programs 
Manager for the Western Area Power Administration from the 
Department of Energy in Montrose, Colorado--welcome panel, and 
we will begin with testimony from Dr. Barbara Bentz; yes, Dr. 
Bentz?
    Mr. Cables. If I may, Madam Chair----
    Mrs. Napolitano. Right; both of you have a joint statement, 
certainly. You have nine minutes.
    Mr. Cables. Thank you; and thank you, Madam Chairwoman and 
Chairman Grijalva and Members of the Committee. My name is Rick 
Cables. I am the Regional Forester for the Rocky Mountain 
Region, which is five states in the Inner Mountain West. We 
really appreciate you inviting us here today. I have submitted 
our written testimony for the record.
    With me is Dr. Barbara Bentz from the Rocky Mountain 
Research Station, who is one of the foremost authorities on 
bark beetle ecology. She has over 30 years' experience studying 
bark beetles; Dr. Bentz?

   STATEMENT OF BARBARA BENTZ, RESEARCH ENTOMOLOGIST, ROCKY 
 MOUNTAIN RESEARCH STATION, FOREST SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Ms. Bentz. Good morning; as Rick mentioned, I am an 
entomologist with the Research Branch of the U.S. Forest 
Service, and it is my job to study and help us better 
understand the many native bark beetle species that are 
severely impacting our western forest ecosystems. Forest Health 
Protection estimates that in 2008 alone, eight million acres 
have been affected by these native insects.
    These native species have historically played very 
important roles in our forest ecosystems; but with both 
changing climate and forest conditions, we feel that some of 
them might be a little bit out of balance.
    The mountain pine beetle is the main species affecting the 
majority of both low elevation pine, as well as high elevation 
pine systems that are very critical for maintaining the health 
of high elevation watersheds. They are tiny. They attack trees 
in mass, and that way they can overcome the defenses of the 
tree.
    Temperature is the driving factor behind mountain pine 
beetle life cycle survival and timing. They use a very powerful 
pheromone communication system to attack trees in the summer. 
They stay under the bark the entire year, and come out and exit 
the next summer, to go and fly, attack a tree, and kill it.
    Trees are not passive, though. Healthy trees have very 
vigorous resonance defense systems that allow them to, when 
possible, expel beetles that are attacking them.
    However, if you can imagine millions of beetles flying 
through a forest with all those aggregating pheromones that 
they are responding to, even a healthy tree is oftentimes 
unable to fend off the beetles.
    After the adults attack the tree, the larvae mine 
horizontally through the forum around the circumstance of the 
bowl; and it is that that cuts off the nutrients and water 
flowing up and down that basically kills the tree.
    So we believe that the severity, duration, and extent of 
these recent outbreaks is heavily influenced by two factors 
that have to deal with the food supply and warming temperatures 
associated with climate change.
    Those extensive landscapes across the West of healthy 
lodgepole pine--large healthy pole pine--while stressed trees 
provide a jumping board for these outbreaks to start, it is 
these large healthy trees that have the really fat, juicy food 
that the beetles need to sustain their long-term population 
growth.
    Second, warming temperatures associated with climate change 
is reducing winter mortality; like everybody said. They have 
the research to show that. But it is also increasing summer 
population growth.
    So I would just like to end by saying that the research 
branch of the Forest Service is very well poised, and we have 
the expertise to really look at these problems. I would be 
happy to answer any questions, following the panel.

  STATEMENT OF RICK CABLES, REGIONAL FORESTER, ROCKY MOUNTAIN 
     REGION, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Cables. Thank you, Dr. Bentz; we are really privileged 
in the Forest Service to have a world class research 
organization within our agency.
    The story I am going to tell here, really quickly, tells 
the story about how valuable forests are to so many people. I 
have been Regional Forester since 2001 in the Rocky Mountain 
Region; so basically through the whole duration of this 
episode. I will tell you that it is one of the most profound 
issues I have ever dealt with in my 30-plus years in the 
agency.
    If you will cycle through this series of slides, it will 
show the growth. Just watch this picture; watch the explosion 
of red and blue--red being lodgepole pine and blue being spruce 
beetle. This has occurred in the last dozen years. That is how 
fast the bark beetle has consumed nearly two and-a-half million 
acres in northern Colorado and southern Wyoming.
    There are two major public hazards associated with this. 
One is wildfire. Wildfire peaks--it is a bimodal situation with 
fire hazard--when the needles are still on the trees. The trees 
turn red. The needles are the fine fuels which will allow fire 
to carry from crowns of the trees, from tree to tree.
    Then the needles fall off. The fire hazard is reduced for a 
period of time, until the trees start falling over, which is 
somewhere between six and twenty years. We are already starting 
to see trees fall in the forest right now. When the trees get 
on the forest floor, it is a continuous bed of fuel that 
carries fire, and particularly potentially high intensity fire.
    The picture here shows a sea of black sticks, a sea of dead 
trees. Most of the public that I talked to really do not like 
what that looks like. They do not appreciate the effect on 
wildlife habitat, recreational opportunities, forest products, 
carbon. And as we get to understand that more, by far the 
profound, and in my opinion, the most profound influence 
potentially on these forested watersheds in Colorado and 
southern Wyoming is on water.
    This is a picture of the Hayman fire after it burned in 
2002. You can just see the sedimentation and the issues 
associated with that; and then the Strontia Springs Reservoir, 
which is a reservoir maintained by Denver water, which has over 
a million customers, filled up with sediment after the Buffalo 
Creek fire in 1997. The water literally ran dark and brown in 
people's taps in Denver, and really got people's attention.
    National forests in the West, in particular, are the water 
towers of the West. These forested headwaters play a huge role 
in water; and it is an issue of national significance, because 
as I said, in the nine inland western states, 62 percent of the 
water comes from these forests.
    And the reach, if you wonder whose headwaters we are 
talking about, both Chairwoman Napolitano and Chairman 
Grijalva--both of your states' watershed are these lands we are 
talking about, with that lodgepole.
    So there are 13 western states, 177 counties, and 33 
million people served by the water that starts in the national 
forests of Colorado and southern Wyoming.
    The second hazard I want to talk about, in addition to 
fire, is falling trees; and this is a real and present danger. 
As I said, the trees are already starting to fall.
    Can you imagine two and-a-half million acres of flat trees, 
and the effects on infrastructure, roads, trails, and so on and 
so forth? Just yesterday, we had a near miss on the Holy Cross 
Ranger District, where a tree almost landed on a citizen.
    If you look at what we are working on, in terms of 
clearing, this is 25 years of a trail, and look how labor-
intensive that is to clear one area where the trees have fallen 
down. So it is a massive project for us to work on.
    The other issue I want to talk about with relations to both 
fallen trees and fires is energy security in the form of power 
lines. One tree falling on a power line means the power is out; 
and in this particular area, we have distribution lines. We 
have large corridors with major transmission lines crossing 
through this area; over 1,300 miles of power lines that are at 
risk to either fallen trees or fire, if we have a catastrophic 
burn, which could potentially either burn the poles or melt the 
infrastructure associated.
    We do have plan. We have an incident management covering 
the three forests in this area. Our focus is on community 
protection and infrastructure. We are shifting regional funding 
toward these areas. We have collaborative groups working 
together. We need a stable forest products industry that is 
diverse. We need stable markets for this renewable material.
    You are going to hear from some folks later on, on the 
panel, that are going to talk about that. I am really worried 
about our timber industry today. The situation is dire. They 
cannot borrow money. They are on the risk of actually going out 
of business, which is really going to hurt us.
    Last, I would say that restoring this two and-a-half 
million acres in our area, or working toward restoration will 
take all of us. It will take all of our resources. It will take 
multiple states bonding together, because multiple states are 
affected.
    The situation is urgent. It is going to cost more later 
than it will today, and we need to get after it. We are getting 
after it; but more help would be appreciated. So thank you very 
much, and we look forward to your questions.
    [The prepared joint statement of Dr. Bentz and Mr. Cables 
follows:]

Statement of Rick Cables, Regional Forester, Rocky Mountain Region, and 
   Dr. Barbara Bentz, Research Entomologist, Rocky Mountain Research 
      Station, U.S. Forest Service, U.S. Department of Agriculture

    Madam Chairwoman and Mr. Chairman, thank you for the opportunity to 
come before these subcommittees and to discuss the impacts of mountain 
pine beetles on national forests in the West, and strategies for 
protecting infrastructure and resources from the hazards resulting from 
millions of acres of dead trees. I am the Regional Forester for the 
Rocky Mountain Region (Colorado, Wyoming, South Dakota, Nebraska, and 
Kansas) and with me is Dr. Barbara Bentz, Research Entomologist with 
the Rocky Mountain Research Station. Thank you for inviting us here 
today.
The Big Picture
    Outbreaks of bark beetles, which are occurring in numerous forest 
ecosystems across western North America, are the biggest in recorded 
history. <SUP>1</SUP> Although western forests have experienced regular 
infestations throughout their history, the current outbreaks are 
notable for their intensity, extensive range, and simultaneous 
occurrence in multiple ecosystems. These beetles are not only attacking 
forests where they have traditionally been found, but are thriving in 
some places where widespread infestations have not previously been 
recorded. <SUP>2</SUP> The unusual extent of the outbreaks has prompted 
concern that this loss of trees may impair ecosystem functioning and 
reduce the ability of our forests to provide future wildlife habitat, 
to protect watershed quality, to store carbon and to be a source of 
timber and recreational opportunities. In the western United States, 
beetle-killed trees cover nearly 8 million acres of the Northern 
Rockies, the Southwest, and dry forests in the Northwest. <SUP>3</SUP>
---------------------------------------------------------------------------
    \1\ Bentz, et. al. (2009)Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \2\ Bentz, et. al. (2009)Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \3\ USDA-APHIS. 2008; Western Forestry Leadership Coalition, 2009
---------------------------------------------------------------------------
The Bark Beetle
    Mountain pine beetles (Dendroctonus ponderosae), a native insect to 
North America, have co-evolved over thousands of years with their host 
trees in western North American forest ecosystems and have been a 
regular force of change in western North America forest ecosystems. 
Native insects, including bark beetles, are among the greatest forces 
of natural change in forested ecosystems of North America. Every few 
decades, depending on weather and local forest conditions, bark beetle 
populations increase and infest large areas of conifer forest. In doing 
so, they play an essential role in forest's natural cycle of growth and 
regeneration. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Bentz, et. al. (2009)Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
---------------------------------------------------------------------------
    In a one-year life cycle, bark beetles bore through the bark of 
pine trees and chew galleries in the inner bark, where they lay their 
eggs. The beetles carry the spores of blue-staining fungi. As the fungi 
develop and spread into the tree sapwood, they interrupt the flow of 
water to the tree crown--and the hatched larvae feed on the tree 
sapwood. The combined effects of the larvae and the fungi kill the 
tree. When the larvae grow into adult beetles, they emerge from the 
bark to attack more trees. <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ USDA Forest and Disease Leaflet 2, Mountain Pine Beetle, 1989, 
reprinted 1990
---------------------------------------------------------------------------
    Bark beetle epidemics resulting in acreages of dead trees are 
natural, cyclic events. Historically, bark beetles have not destroyed 
entire forests, and can serve as positive forces of change that 
redistribute nutrients and growing space. <SUP>6</SUP> Since 2000, the 
mountain pine beetle affected millions of acres across the Western 
United States. In 2007, aerial surveys detected about 4 million acres 
where mountain pine beetles were actively killing trees. (In 2008, 
aerial surveys detected 6.42 million acres of forests affected--data is 
as yet unpublished, but has been gathered by the Forest Service Health 
and Technology Enterprise team) The mountain pine beetle epidemic in 
the central Rocky Mountains is larger than any previously recorded in 
the area and is expanding rapidly. <SUP>7</SUP> However, in the absence 
of tree ring reconstructions or other spatially detailed information on 
historical mountain pine beetle outbreaks in Colorado, we do not know 
if similar outbreaks occurred in the same locations or habitats prior 
to the past 150 years. <SUP>8</SUP>
---------------------------------------------------------------------------
    \6\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \7\ Major Forest Insect and Disease Conditions in the United States 
2007. USDA Forest Service, FS-919. March 2009.
    \8\ W.H. Romme, J. Clement, J. Hicke, D. Kulakowski, L.H. 
MacDonald, T.L. Schoennagel, and T.T. Veblen, Recent Forest Insect 
Outbreaks and Fire Risk in Colorado Forests: A Brief Synthesis of 
Relevant Research, p. 3.
---------------------------------------------------------------------------
    A panel of experts at a recent symposium, ``Bark Beetle Outbreaks 
in Western North America: Causes and Consequences,'' suggested that two 
major factors appear to be driving the current outbreaks: 1) forest 
history and host susceptibility, and 2) changing climatic conditions, 
especially elevated temperatures and drought.
A ``Perfect Storm''
    At the landscape scale including lodgepole forests, a mosaic of 
stand ages and types helps reduce the susceptibility to mountain pine 
beetles at one time. <SUP>9</SUP> Over the past couple of centuries, 
fire exclusion and natural and human caused disturbances such as stand-
replacing fires and mining-era timber cutting have contributed to the 
existence of large areas of old trees that are very similar in age and 
size. <SUP>10</SUP> Many lodgepole pine forests are greater than 80 
years-old and thus are relatively even-aged, and are therefore highly 
susceptible to bark beetles and fire. The size of these old trees makes 
them an ideal food source for the bark beetles. Increasing winter 
temperatures associated with climate change are fostering increased 
survival of bark beetle populations. (Sustained cold winter 
temperatures are needed to kill bark beetles.) <SUP>11</SUP> The West's 
changing climate--rising temperatures and decreasing precipitation--has 
created weather conditions that are ideal for bark beetle outbreaks. 
Beetles are extremely sensitive to changes in temperature. 
<SUP>12</SUP> Longer, warmer summers have extended reproductive and 
growth periods, and fewer cold snaps and higher winter temperatures 
have allowed bark beetles to survive in winter spring and fall. 
<SUP>13</SUP> The prolonged drought across the West has also weakened 
trees and made them more susceptible to bark beetle attacks. Entire 
forests full of drought stressed trees, combined with a rapidly 
expanding bark beetle population combine to fuel exponential beetle 
population growth. <SUP>14</SUP>
---------------------------------------------------------------------------
    \9\ Koch, Peter (1996) Lodgepole Pine in North America. Forest 
Products society, volume 1, P 314.
    \10\ 2006 Report on the Health of Colorado's Forests, available at 
http://csfs.colostate.edu/pdfs/06fhr.pdf
    \11\ Bentz BJ, Regniere J, Fettig CJ, Hansen EM, Hayes, JL, Hicke 
JA, Kelsey RG, Lundquist J, Negron J, Progar R, Seybold SJ, Vandygriff 
JC (2008) Climate Change and Western U.S. Bark Beetles: Rapid Threat 
Assessment. Prepared for the Western Wildland Environmental Threat 
Assessment Center; http://www.fs.fed.us/wwetac/projects/PDFs/
RTA_Bark_Beetle.pdf
    \12\ Bentz, B.J., J.A. Logan, and G.D. Amman. 1991. Temperature 
dependent development of the mountain pine beetle (Coleopter: 
Scolytidae), and simulation of its phenology. The Canadian Entomologist 
123: 1083-1094.
    \13\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \14\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
---------------------------------------------------------------------------
    The primary difference between previous beetle outbreaks and the 
current epidemic is people now live, work and recreate throughout the 
lodgepole pine ecosystem. Dozens of communities surrounded by dead 
trees are at risk of wildfire. This area includes world-class ski 
resorts such as Vail, Breckenridge, and Winter Park. In addition, the 
forest products industry infrastructure needed to help address some of 
the potential public health and safety impacts is nearly nonexistent 
within Colorado. These important differences along with the scale of 
infestations, requires approaches to reduce the safety threats to 
people while ensuring that the forests that replace these dying forests 
are diverse and resilient to change across the landscape.
    I'll use the outbreak in northern Colorado and southern Wyoming as 
a case study of what the Forest Service is facing with large bark 
beetle infestations throughout the West. The beetle infestation has 
spread at a rapid rate over the last ten years. Forest Service 
entomologists forecast that in the next two to five years, if the 
infestation continues at this intensity and rate of spread, as much as 
90 percent of the mature lodgepole will die. The results of our forest 
health and protection 2008 aerial survey show that we have some level 
of infestation in most of the lodgepole in the Rocky Mountain Region, 
coupled with heavy mortality. It is clear that we can't stop this 
current infestation. Thinning stands has proved ineffective. Spraying 
carbaryl, an insecticide, is environmentally safe when properly 
applied, and can be effective in small, high-value areas such as 
campgrounds, but is far too expensive to use at the forest scale. 
Pheromone traps are similarly ineffective in reducing the rate of the 
spread of such a large infestation. Verbenone, a repelling pheromone, 
failed in the presence of large beetle populations. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ Pogar, R.A. (2005) Five-Year Operational Trial of Verbenone to 
Deter Mountain Pine Beetle (Dendroctonus ponderosae; Coleoptera: 
Scolytidae) Attack of Lodgepole Pine (Pinus contorta) Environmental 
Entomology 34(6):1402-1407. 2005
---------------------------------------------------------------------------
    When it became apparent that we could not suppress the infestation, 
we changed our focus from prevention to reducing risks to public safety 
and infrastructure to restoration of the forest to include a mosaic of 
tree species and ages classes that may be more resilient to the 
stresses of climate change into the future.
Public Hazards
    Several critical hazards to public safety are posed by dead trees: 
local fire hazards in times of drought, threats to water supplies, and 
falling dead trees along utility corridors, roads, trails, and other 
infrastructure.
Wildfire Implications
    The relationship between bark beetle outbreaks and subsequent fire 
at the larger landscape scale is not yet fully understood. 
<SUP>16</SUP> Outbreaks in the recent years have provided scientists 
with excellent opportunities to conduct studies and gather new 
information about the role of bark beetles in western forests, but much 
research remains to be done.
---------------------------------------------------------------------------
    \16\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
---------------------------------------------------------------------------
    At the stand level, both crown and surface-fire hazards 
<SUP>17</SUP> change through time after a bark beetle outbreak in a 
stand of living trees. <SUP>18</SUP> The fire hazard is high in the 
period one to two years after pine trees die since the dead needles are 
retained in the tree's crown, stocking the canopy with dry, fine fuels 
that can ignite quickly during weather conditions conducive to fire. 
<SUP>19</SUP> As the trees lose their needles, the fire risk in the 
crowns of the trees decreases as fire doesn't spread through standing 
dead trees with no needles very quickly. Surface fire hazard increases 
again as dead trees begin to fall and create a heavy fuel bed with 
young trees growing up through the tangle of down logs. <SUP>20</SUP> 
In dry, hot, windy weather conditions, fires burning in heavy surface 
fuels can move fast, burn extremely hot, and be very resistant to 
control. <SUP>21</SUP> An additional significant concern is the safety 
of our firefighters. Large areas of fallen trees limit escape routes 
for crews, severely limiting our ability to deploy firefighters in 
these areas. <SUP>22</SUP>
---------------------------------------------------------------------------
    \17\ The term Fire hazard as used here refers specifically to the 
state of fuels in a given stand--independent of variables such as 
temperature, wind, and precipitation that influence fuel moisture 
content and fire occurrence.
    \18\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \19\ Page, W.; Jenkins, M. 2007. Mountain pine beetle-induced 
changes to selected lodgepole pine fuel complexes within the 
intermountain region. Forest Science 53(4):507-518.
    Page, W.; Jenkins, M. 2007. Predicted Fire Behavior in Selected 
Mountain Pine Beetle-Infested Lodgepole Pine. Forest Science 53(6):662-
674
    Hawkes, B. 2008. Effects of the mountain pine beetle on fuels and 
fire behaviour. In Mountain Pine Beetle: From Lessons Learned to 
Community-based Solutions Conference Proceedings, June 10-11, 2008. BC 
Journal of Ecosystems and Management 9(3):77-83. http://www.forrex.org/
publications/jem/ISS49/vol9_no3_MPBconference.pdf
    Jenkins, M., Hebertson E., Page, W. and Jorgensen C. 2008 Bark 
beetles, fuels, fires and implications for forest management in the 
Intermountain West. Forest Ecology and Management 254 (2008) 16-34
    \20\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \21\ Barrows, J. 1951. Fire Behavior in the Northern Rocky 
Mountains. Station Paper No. 29. USDA Forest Service, Northern Rocky 
Mountain Forest and Range Experiment Station, Missoula MT. 133 pages
    \22\ Alexander, M and Stam, J. 2003. Safety Alert for Wildland 
Firefighters: Fuel Conditions in Spruce Beetle-Killed Forest of Alaska. 
Fire Management Today 63 (2) 25.
---------------------------------------------------------------------------
Water
    The value of water flowing from our public forests is enormous and 
is a matter of national significance. Forest Service Hydrologists 
estimate that the forests of the Rocky Mountain Region contain the 
headwaters for much of the western United States; people in 177 
counties in 13 states rely on water from the National Forests of the 
Rocky Mountain Region. Thirty-three million people live in these 
counties. <SUP>23</SUP> Forest Service management analysis indicates 
that people in Phoenix, Tucson, San Diego and Los Angeles who get their 
tap water from the Colorado River get one quart of every gallon from 
the National Forests of the Rocky Mountain Region. <SUP>24</SUP> The 
economic value of water flowing from the National Forests of this 
region numbers in the billions of dollars. <SUP>25</SUP>
---------------------------------------------------------------------------
    \23\ US Census 2000
    \24\ 
    \25\ Brown, T.C.; Hobbins, M.T.; Ramirez, J.A. 2008. Spatial 
distribution of water supply in the coterminous United States. Jour. 
Amer. Water Resource. Assn. 44(6):1-14. Dec. 2008.
---------------------------------------------------------------------------
    By themselves, insect outbreaks are unlikely to cause erosion or 
degrade water quality because they do not disturb the forest soil. 
Unpaved roads and high-severity wildfires can cause much greater 
effects on runoff, erosion, and water quality. Regardless of whether or 
not caused by beetle infestations, massive tree mortality can affect 
watershed quality and quantity. <SUP>26</SUP> Live trees in high-
elevation watersheds provide shade and shelter that help to maintain 
the winter snow pack and prevent quick runoff during the spring melt 
and summer storms. While beetle-killed trees do not produce the same 
level of erosion as a wildfire, large numbers of bark beetle-killed 
trees within a watershed increase the risk of rapid snow loss and can 
enhance annual stream flow. <SUP>27</SUP>
---------------------------------------------------------------------------
    \26\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
    \27\ Bentz, et. al. (2009) Bark Beetle Outbreaks in Western North 
America: Causes and Consequences, Bark Beetle Symposium, Snowbird, 
Utah.
---------------------------------------------------------------------------
    A wildfire burning in the heavy fuels close to the soil that result 
from a large-scale infestation can literally bake the soil, sterilizing 
the soil and sometimes leaving a water-repellent surface that sheds 
rain, leading to severe gully erosion, debris flows into reservoirs and 
streams, and flood damage. We experienced these effects after the 
Hayman Fire in central Colorado in 2002. After the Buffalo Creek Fire 
in 1996, Strontia Springs Reservoir filled with sediment that washed 
off burned areas after heavy rains, and the South Platte River was 
running brown with mud.
Falling Dead Trees
    Falling dead trees are an immediate hazard. In the beetle-infested 
area of northern Colorado and southern Wyoming, over 900 miles of 
trails and 3500 miles of roads are lined with dead trees that will 
fall. More than 21,000 acres of developed recreation sites--such as 
campgrounds and picnic areas--have hazard trees.
    Powerlines and communication sites are also threatened by hazard 
trees. There are more than six thousand acres of right-of way corridors 
for authorized transmission and distribution lines in the area affected 
by bark beetle infestation in northern Colorado and southern Wyoming. 
<SUP>28</SUP> Forest Service resource specialists have estimated this 
represents over 1000 miles of transmission lines. Dead trees lining 
transmission corridors can fall on lines, starting wildfires and 
disrupting power supplies to cities and towns--potentially for days.
---------------------------------------------------------------------------
    \28\ Figure derived from data in the Forest Service Special-Use 
Database System, Region 2.
---------------------------------------------------------------------------
Strategies to Protect the West
    The scale of the bark beetle infestation and its threats to public 
safety and infrastructure requires a concentrated response. We 
established the Bark Beetle Incident Management Team in 2007 to plan 
and coordinate mitigation work on the National Forests in Colorado and 
Wyoming most affected by the outbreak--the Medicine Bow-Routt, Arapaho-
Roosevelt and White River.
    The team produced a five-year strategic plan in 2007, developed in 
coordination with collaborative groups such as the Colorado Bark Beetle 
Cooperative--a group comprising federal, state, local, and non-profit 
members. The plan identifies over 240 projects over the next six 
years--over 100 thousand acres of treatments involving timber removal 
of dead or beetle-infested trees, stewardship projects to remove low-
value trees, fuel treatments to reduce wildfire hazard, preventive 
spraying in high-value developed areas, and removal of hazard trees 
that can fall on infrastructure and people. <SUP>29</SUP> Regional 
funding was refocused to enable a sharp ramp-up in work on the national 
forests affected by the infestation.
---------------------------------------------------------------------------
    \29\ 2007 Bark Beetle Incident Implementation Plan (updated in 
2009), http://www.fs.fed.us/r2/bark-beetle/index.html .
---------------------------------------------------------------------------
    The three forests treated more than 24,000 acres in 2008. Fourteen 
thousand of these acres were fuel reduction in the wildland urban 
interface. Ten thousand acres included fuels treatment outside the 
wildland urban interface, hazard tree removal for public safety and 
infrastructure protection, spraying some trees in high-value areas such 
as campgrounds to keep some green trees on the landscape, and timber 
sales to capture economic value. The forests removed hazard trees from 
31 recreation sites, and this year the forests are removing hazard 
trees from an additional 40 sites.
    On May 18, 2009 I met with regional utility companies to discuss 
steps needed to facilitate extensive removal of hazard trees within and 
outside of the authorized right-of-way of power line corridors. Current 
permits, easements, memorandums of understanding, and other types of 
authorizations allow utilities to remove trees that pose an imminent 
hazard to the safe operation of power line facilities, and I have 
notified the companies in writing that they may immediately remove 
them. However, cutting and removal of dead trees in a wider corridor 
than the currently authorized right-of-way width to provide long-term 
protection of power lines will require environmental analysis under the 
National Environmental Policy Act. We have formed an interdisciplinary 
team, selected a team leader, and started this analysis. We anticipate 
it will be completed by fall.
    We're making significant strides in protecting infrastructure, 
using the Colorado Good Neighbor Authority, the Wyden Authority, and 
the authorities provided by the Healthy Forest Restoration Act to the 
extent possible. There is much still to do to restore a forested 
landscape after this infestation of beetles runs its course. This work 
will encompass engagement with the public to plan for and implement 
forest restoration projects that may result in a more diverse mosaic of 
tree species and ages.
The Next Forest
    Future forests in the Rocky Mountain West will likely look very 
different from the vast landscapes of old lodge-pole pine one sees 
today. We're thinning some stands and conducting salvage harvest of 
dead lodgepole while leaving understory spruce and fir to grow. 
(Lodgepole will regenerate naturally--it doesn't have to be planted in 
most areas.) We're also conducting aspen regeneration cuts to stimulate 
aspen clones to produce new, vigorous growth, and we're removing 
conifers from aspen stands to prevent conversion to conifer type.
    The effects of climate change are becoming apparent on the forests 
and grasslands, <SUP>30</SUP> and must be factored into our planning. 
The changing dynamics of current outbreaks make management decisions 
even more difficult. One important aspect of future forest management 
will be an evaluation of multiple approaches across a range of spatial 
scales and outbreak severity levels. Many areas will regenerate 
naturally following a bark beetle outbreak and require no action. In 
some areas land managers may want to consider the creation of a diverse 
forest through modifications to species and age classes at a regional 
scale. Some ecosystems that have highly susceptible forest conditions 
may benefit from actions to reduce stand density. This is particularly 
true in lodgepole and ponderosa pine stands where research has shown 
that thinning can reduce susceptibility. <SUP>31</SUP>
---------------------------------------------------------------------------
    \30\ CCSP. May 2008. Executive Summary in Synthesis and Assessment 
Product 4.3 (SAP 4.3): The Effects of Climate Change on Agriculture, 
Land Resources, Water Resources, and Biodiversity in the United States, 
p. 3, P. Backlund, A. Janetos, and D. Schimel, lead authors. A report 
by the U.S. Climate Change Science Program (CCSP).
    \31\ Fettig, Christopher J.; Klepzig, Kier D.; Billings, Ronald f.; 
Munson, A. Steven; Nebeker, T. Evan; Negron, Jose F.; Nowak, John T. 
(2007) The effectiveness of vegetation management practices for 
prevention and control of bark beetle infestations in coniferous 
forests of the western and southern United States. Forest ecology and 
management. 238(1-3): 24-53
---------------------------------------------------------------------------
    There are many areas where we are not removing dead trees due to 
the following: steep slopes, the area is congressionally designated 
Wilderness, economic feasibility, or for other reasons. In some areas 
where we don't undertake active management, spruce and fir are already 
present as understory saplings and will be released to grow as 
overstory lodgepole pines fall. Where appropriate, fire may play a more 
active role on the landscape creating a diverse landscape of openings 
and ages. In the longer term, a bark beetle outbreak that kills many of 
the conifers may be beneficial to aspen stands, if aspen clones were 
present before the beetle outbreak. If aspen is not present, then 
composition of the forest will not change and the conifers that 
survive--including smaller trees and less susceptible species--will 
increase their growth rates and replace the large conifer trees that 
were killed by beetles. <SUP>32</SUP>
---------------------------------------------------------------------------
    \32\ W.H. Romme, J. Clement, J. Hicke, D. Kulakowski, L.H. 
MacDonald, T.L. Schoennagel, and T.T. Veblen, Recent Forest Insect 
Outbreaks and Fire Risk in Colorado Forests: A Brief Synthesis of 
Relevant Research, p. 12.
---------------------------------------------------------------------------
The Challenge: Timber Industry in Decline
    The forest products industry is a primary partner in accomplishing 
work integral to sustaining the health, diversity, and productivity of 
the National Forest System, and can help us in our work to mitigate the 
risks of the bark beetle infestation and moving beyond it to restore 
our forests. The Forest Service recognizes the impact a depressed 
market is having on the forest products industry in Colorado and 
Wyoming, and much of the West. We are working to modify down payment 
and periodic payment requirements, as well as taking other actions to 
free up capital for purchasers. We are carefully reviewing timber sale 
design criteria to ensure that projects are economically viable. New 
forest products businesses are starting up. Two new pellet mills in 
northern Colorado are using beetle-killed trees to produce pellets for 
wood stoves. Some dead trees are being used for house logs, furniture, 
and decorative items. These businesses and others that constitute a 
viable and diverse forest industry complete with a skilled workforce 
are important in assisting the Forest Service conduct active forest 
management in an efficient and cost-effective manner.
    That concludes my prepared statement. I'll be happy to take any 
questions you may have.
                                 ______
                                 
    Mrs. Napolitano. Thank you, sir; and now we will hear from 
Dr. Herbert Frost.

  STATEMENT OF HERBERT C. FROST, ASSOCIATE DIRECTOR, NATURAL 
 RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Frost. Chairwoman Napolitano and Chairman Grijalva and 
Members of the Subcommittees, thank you for the opportunity to 
appear before you today and discuss mountain pine beetles, and 
the devastating impacts to our western forests.
    I am joined today by representatives of other bureaus 
within the Department of the Interior, who share in the 
management of public lands affected by the mountain pine 
beetle.
    The Department of the Interior is extremely concerned about 
escalating mountain pine beetle populations, and the associated 
disastrous impacts to public and private lands. This testimony 
highlights the collaborative efforts of the bureaus within the 
department to combat the immediate threat of the mountain pine 
beetle, while also promoting the long-term stewardship and 
sustainability of healthy and resilient forests, which would be 
better able to endure cyclic mountain pine beetle epidemics and 
their potential impacts.
    Since the Forest Service has already covered many of the 
facts related to the biology of the pine beetle, I will focus 
on specific impacts to public lands managed by the Department 
of the Interior, and the strategies we have undertaken in 
response to this threat.
    Under typical conditions, bark beetles play an important 
role in forest ecosystems, providing the periodic forest 
renewal, re-shaping our forest landscapes, and resulting in 
healthy forest succession.
    When trees are killed by the beetle, the resulting impacts 
are significant. Dead trees produce additional fuel for 
wildfires that can lead to the destruction of large numbers of 
natural and cultural resources, including tribal values on 
Indian reservations, archeological sites in park units, view 
sheds, and economically valuable timber.
    Large scale fires can also destroy high value resources, 
such as campgrounds and visitor centers, that can quickly 
spread from our public lands to surrounding communities.
    Mortality of these tree stands also negatively affects 
wildlife. Pine forests offer critical habitat for many wildlife 
species, providing vital sources of food, protection, and 
breeding sites. For example, white bark pine produced seeds 
that are a major source of grisly bears in the late summer and 
early fall.
    No effective treatment for suppression of large scale pine 
beetle outbreaks currently exists. But many bureaus within the 
department area approaching this problem in a variety of ways.
    Approximately 40 percent of the National Park Service lands 
in the West are forested; and a significant percentage of those 
lands are occupied by valorous species or by human settlement.
    The National Park Service is approaching this problem by 
mapping the outbreaks of pine beetles within the park units, 
which at this time is now occurring in all western states 
except North Dakota. Within these states, 57 national parks 
have reported elevated populations of beetle infestations.
    The NPS is also responding to escalated pine beetle 
epidemics by providing for visitor safety, minimizing fire 
danger to visitors in neighboring communities; protecting 
dependent wildlife species, habitats, and watersheds; and 
providing for long-term sustained healthy forest eco-systems.
    In campgrounds, in visitor centers and other high use 
areas, a combination of actions are being employed to ensure 
these goals and objectives are met with highly susceptible 
trees and hazard trees being removed.
    Specifically, with respect to the Rocky Mountain National 
Park in Colorado, pine beetles are rapidly expanding--with 
mortality in lodgepole pine approaching nearly 100 percent.
    The park has identified more than 350 locations in the 
park, where life and property are at risk. Current projections 
indicate the park will need to remove more than one million 
hazard trees, costing more than $7 million during the upcoming 
years. In areas where heavy tree mortality is occurring 
adjacent to towns and communities, fire reduction treatments 
are planned.
    For all parks, much of the beetle-killed trees will remain 
standing in accordance with NPS Organic Act and management 
policies, which allow for national recovery of areas, following 
disturbances such as fires. Less additional action is needed to 
protect cultural historic resources for park development, or to 
ensure human safety.
    The Bureau of Land Management estimates that up to 800,000 
of BLM managed forest land in Colorado, Wyoming, Montana, and 
Idaho, are infested by the pine beetle and, therefore, at risk 
of wide spread mortality.
    Warm winters, drought, stress, and a prevalence of large 
amounts of overstock, even age, single species forest present 
an idea condition for such a severe outbreak. The unhealthy 
condition of the forest makes it susceptible to a fatal insect 
attack.
    Harmful impacts to BLM are numerous, including tree 
mortality; which leads to increased fire hazards, degraded 
conditions for wildlife impact; cultural resources; and 
negative effects on wood products and declining tourism.
    Approximately 50 percent of the 32 million acres of public 
domain, that BLM manages; and the lower 48 states are 
vulnerable to over-stock.
    Where devastated areas of pine stands occur on reservation 
lands, under the Bureau of Indian Affairs--for example large 
pulled pine stances have nearly wiped out the Yakima 
reservation in Washington.
    Tribal, agency, and regional staff at these locations are 
concerned that the high beetle populations may significantly 
alter the ecosystem by effectively removing lodgepole pine as a 
component.
    In response to the devastation of Indian lands, BIA and 
others assisted Reservations in taking steps to protect the 
remaining stands.
    There are also severe issues in Fish & Wildlife Service; 
and I will conclude my testimony, thank you.
    [The prepared statement of Mr. Frost follows:]

  Statement of Herbert C. Frost, Associate Director, Natural Resource 
Stewardship and Science, National Park Service, U.S. Department of the 
                                Interior

    Chairwoman Napolitano, Chairman Grijalva, and members of the 
subcommittees, thank you for the opportunity to appear before you today 
to discuss mountain pine beetles and the devastating impacts to our 
western pine forests.
    I am Dr. Herbert C. Frost, Associate Director for Science and 
Stewardship in the National Park Service. I am joined today by 
representatives of other bureaus within the Department of the Interior 
who share in the management of public lands affected by the mountain 
pine beetle, including the Bureau of Land Management, the Bureau of 
Indian Affairs, and the U.S. Fish and Wildlife Service.
    The Department is extremely concerned about escalating mountain 
pine beetle populations and the associated disastrous impacts to public 
and private lands including the increased risk of wildfires from dead 
or dying trees, loss of wildlife habitat, impacts to natural and 
cultural resources, and threats to surrounding communities. This 
spread, and the related impacts that are currently being experienced, 
are at epidemic proportions throughout the west, and appear to be the 
result of a number of factors including natural beetle population 
cycles, continuous mild winters, and an abundance of uniformly mature 
pine forest stands.
    This testimony highlights the collaborative efforts of bureaus 
within the Department to combat the immediate threat of the mountain 
pine beetle while also promoting the long-term stewardship and 
sustainability of healthy, resilient forests that will be better able 
to endure cyclic mountain pine beetle epidemics and their potential 
impacts.
Background
    The mountain pine beetle (Dendroctonus ponderosae) ranks first in 
destructiveness among the tree-killing bark beetles that are native to 
the west, although there are many native beetle species affecting a 
host of other pine tree species nationally. The mountain pine beetle 
affects numerous species of western pine, including ponderosa, 
lodgepole, and the five-needle white pine species. In recent years, 
outbreaks have increased mortality rates well above ambient levels 
within forestlands in the Northern and Central Rockies, in Eastern 
Oregon and Washington, and as far north as Canada. A current and very 
visible outbreak is affecting virtually all mature lodgepole pine in 
Colorado, along with large areas of lodgepole and limber pine in 
Wyoming. Affected lodgepole pine trees are as young as sixty years old 
and as small as six inches in diameter at breast height. Tree mortality 
from this outbreak is estimated to have now occurred on nearly 8 
million acres nationwide. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ USDA-APHIS. 2008; Western Forestry Leadership Coalition, 2009.
---------------------------------------------------------------------------
    Bark beetles infest pine trees by laying eggs under the bark. When 
the eggs hatch, the larvae mine the area beneath the bark and 
eventually cut off the tree's supply of nutrients. The beetles also 
carry a fungus that causes dehydration and inhibits a tree's natural 
defenses against beetle attacks.
    Under typical conditions, bark beetles play an important role in 
forest ecosystems, providing for periodic forest renewal. Periodic 
outbreaks help shape our forested landscapes, resulting in forest 
succession. The dead trees also provide critical habitat for birds, 
bats, and other cavity-dependent species. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Shrimpton, D.M. 1994. A report for Forest Health. DC Ministry 
of Forests, December 1994; Davis and Johnson. 1987. Forest Management 
3rd Edition, McGraw Hill; Bentz, et al. (2005) Bark Beetle Outbreaks in 
Western North America: Causes and Consequences, Bark Beetle Symposium, 
Snowbird, Utah.
---------------------------------------------------------------------------
    Although mountain pine beetle outbreaks and associated pine tree 
die-offs are a natural cyclic phenomenon, the current outbreak is 
epidemic due to several variables. <SUP>3</SUP> One variable is that 
the northern part of the beetle's geographic range has expanded to 
include high-elevation areas that historically were too cold for the 
beetle to survive during the winter months. These high elevation pine 
stands, such as the five-needle pines, do not have an historic 
evolutionary relationship with the beetles and hence, the beetles act 
in similar ways to an invasive species. This range expansion may be the 
result of reoccurring drought and climate change, which contribute to 
warming trends in mountain ecosystems. <SUP>4</SUP> Another variable is 
that certain species throughout our western forests have been impacted 
by years of fire suppression efforts, aimed at protecting critical 
infrastructure and developed areas. <SUP>5</SUP>
---------------------------------------------------------------------------
    \3\ USDA-APHIS. 2008; Western Forestry Leadership Coalition, 2009.
    \4\ Logan J.A.; Powell J.A. 2001. Ghost Forests, Global Warming, 
and the Mountain Pine Beetle (Coleoptera: Scolytidea). American 
Entomologist. 160-172; Kurz, W.A. et al. Mountain Pine Beetle and 
Forest Carbon Feedback to Climate Change; Campbell, Elizabeth M. 2007. 
Climate change, mountain pine beetle, and the decline of whitebark 
pine, a keystone species of high-elevation ecosystems in British 
Columbia, Canada. Ecological Society of America meeting, August 2007, 
San Jose, CA.
    \5\ Davis and Johnson. 1987. Forest Management 3rd Edition, McGraw 
Hill.
---------------------------------------------------------------------------
    When trees are killed by the beetle, the resulting impacts are 
significant. Dead trees produce additional fuel for wildfires that can 
lead to the destruction of large numbers of natural and cultural 
resources including tribal values on Indian reservations, archeological 
sites in park units, and economically valuable timber. Large-scale 
fires can also destroy high-value resources such as campgrounds and 
visitor facilities, and can quickly spread from our public lands to 
surrounding communities, causing death and destruction of property. 
High severity fires can also result in ground surface heating and 
consequential increased erosion in some watersheds.
    Mortality of these tree stands also negatively impacts wildlife. 
Pine forests offer critical habitat for many wildlife species, 
providing vital sources for food, protection, and breeding sites. For 
example, white bark pine produce seeds that are a major source of food 
for federally listed grizzly bears in the late summer and early fall. 
<SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ Felicetti, L.A., C.C. Schwartz, R.O. Rye, M.A. Haroldson, K.A. 
Gunther, D.L. Phillips, and C.T. Robbins. 2003. Use of sulfur and 
nitrogen stable isotopes to determine the importance of whitebark pine 
nuts to Yellowstone grizzly bears. Canadian Journal of Zoology 81:763-
770; Lanner, R.M., and B.K. Gilbert. 1994. Nutritive value of whitebark 
pine seeds, and the questions of their variable dormancy. U.S. Forest 
Service General Technical Report INT-GTR-309. pp. 206-211; Mattson, 
D.J., B.M. Blanchard, and R.R. Knight. 1992. Yellowstone grizzly bear 
mortality, human habituation and whitebark pine seed crops. Journal of 
Wildlife Management 56:432-442; Robbins, Charles T.; Schwartz, Charles 
C.; Gunther, Kerry A.; Servheen, Chris. 2006. Grizzly Bear Nutrition 
and Ecology: Studies in Yellowstone National Park. Yellowstone Science, 
Volume 14, Number 3, pg. 19-26.
---------------------------------------------------------------------------
    No effective treatment for suppression of large-scale pine beetle 
outbreaks currently exists, but many bureaus within the Department are 
approaching this problem in a variety of ways based upon their 
individual missions, policies, laws, and management mandates under 
which they operate.
National Park Service
    Although there are no current estimates of the potential acres 
involved, approximately 40% of National Park Service (NPS) lands in the 
west are forested and a significant percentage of those lands are 
occupied by vulnerable species. The NPS is approaching this problem by 
mapping the outbreaks of mountain pine beetles within its park units, 
which at this time is now occurring in all western states except North 
Dakota; areas of California, the front range of Colorado, the Black 
Hills of South Dakota, and the North Cascades are particularly hard 
hit. Within these states, 57 national park units have reported elevated 
populations of beetle infestations. An additional 21 units are within 
the affected area but have not yet reported increased beetle activity.
    Outbreaks in the1970's-1980's contributed to the historic 
Yellowstone fires of 1988, the largest wildfire in the history of the 
park, which destroyed over 793,000 acres. At that time, dense, 90+ year 
old stands of lodgepole pine were further stressed by several years of 
drought, adding to the vulnerability of these trees and leading to 
thousands of acres of beetle-killed lodgepole in the park. These 
beetles are now again playing a role in changing ecosystems within the 
greater Yellowstone area, including Grand Teton and Yellowstone 
National Parks.
    NPS is also responding to escalating mountain pine beetles epidemic 
by providing for visitor safety, minimizing fire danger to visitors and 
neighboring communities, protecting dependent wildlife species and 
habitats, and providing for long-term sustained healthy forest 
ecosystems. In campgrounds, visitor centers, and other high-use areas, 
a combination of actions are being employed to ensure these goals and 
objectives are met with highly susceptible trees and problem trees 
being removed. These actions are helping to manage existing 
infestations and protect vulnerable areas. In some parks, targeted 
insecticides are being used to save high-value trees.
    Specifically with respect to Rocky Mountain National Park in 
Colorado, mountain pine beetles are rapidly expanding with mortality in 
lodgepole pine approaching nearly 100%. Beetle outbreaks in the park 
represent only a small portion of the Colorado forests that are a part 
of this current outbreak. Response to the potential fire and watershed 
consequences of this outbreak are being coordinated through an 
interagency task group that includes federal, state, and 22 counties. 
The goals of the plan at Rocky Mountain National Park are consistent 
with the task force recommendations: to remove or protect high-value 
resources in or near park facilities, such as campgrounds, housing 
areas, and visitor centers. The plan identified more than 350 locations 
in the park where life and property are at risk. Current projections 
indicate that the park will need to remove more than one million hazard 
trees, costing more than $7 million dollars during the upcoming years. 
In areas where heavy tree mortality is occurring adjacent to towns and 
communities, fire reduction treatments are planned.
    Even with the aggressive plan at Rocky Mountain National Park, 
approximately 95% of the park lands will not be treated. Unlike other 
agencies, commercial timber sales are not authorized on NPS lands. 
Consequently, much of beetle-killed trees will remain standing. In 
accordance with our the Organic Act and our National Park Service 
Management Policies, NPS allows natural recovery of areas following 
disturbances, such as fires, unless additional action is needed to 
protect cultural and historic resources, protect park developments, or 
to ensure human safety.
Bureau of Land Management
    The Bureau of Land Management (BLM) estimates that up to 800,000 
acres of BLM-managed forestland in Colorado, Wyoming, Montana, and 
Idaho are infested by the mountain pine beetle. Warm winters, drought 
stress, and a prevalence of over-mature, over-stocked, even-aged, 
single species forests present ideal conditions for such a severe 
outbreak. The unhealthy condition of the forest makes it susceptible to 
fatal insect attack.
    Harmful impacts to BLM lands are numerous. Increased tree mortality 
leads to increased fire hazards, degraded conditions for wildlife, 
negative effects on wood products industries, and declining tourism. In 
some areas of high tree mortality, fire suppression will be difficult 
and dangerous.
    BLM is approaching this epidemic by treating, in Fiscal Year 2009, 
9,500 acres to mitigate impacts of the mountain pine beetle outbreak. 
The treatments are focused on protecting high-value recreation sites 
through placement of pheromone traps to prevent tree mortality, and 
reducing the risk of catastrophic wildfire events by reducing fuels 
through salvage of dead and dying trees. Some challenges to conducting 
treatments of additional acreage include poor markets for treatment by-
products, limited inventory data, limited numbers of contractors to 
perform the work, steep and/or inaccessible site conditions, and time 
required to complete the necessary National Environmental Policy Act 
(NEPA) processes.
    While this hearing is focused on the mountain pine beetle outbreak, 
there are other insects that could create similar impacts in crowded, 
drought-stressed forests. Creating resilient landscapes is one possible 
long term solution to addressing outbreaks of insect infestation. 
Approximately 50% of the 32 million acres of public domain forestland 
that BLM manages in the lower 48 States are vulnerable due to 
overstocking and are therefore at great risk of increased insect and 
disease attacks and catastrophic wildfires. To restore forest health, 
projects are planned to achieve the correct density, species 
composition, and stand structure for a given site, so that insect and 
disease agents will remain at endemic levels as opposed to epidemic 
levels now seen in pine beetles.
    In Fiscal Year 2009, BLM is also thinning 25,000 acres to improve 
forest health via commercial timber sales, service contracts, and 
stewardship contracts.
Bureau of Indian Affairs
    Some of the most devastated areas of pine stands in the west occur 
on reservation lands under the management of the Bureau of Indian 
Affairs (BIA). In the Central and Northern Cascades (Northwest Region), 
the Warm Springs Reservation in Oregon has experienced mortality in 
some of their lodgepole pine stands due to mountain pine beetles--
69,000 acres are infested, of which 40,000 acres are completely dead. 
Similarly, the lodgepole pine stands have been nearly wiped out on the 
Yakama Reservation in Washington. In many of these areas, the beetle 
has run its course, with few healthy lodgepole pines left.
    Tribal, agency and regional staff at these locations are concerned 
that the high beetle populations may significantly alter the ecosystem 
by effectively removing mature lodgepole pine as a component. They are 
also concerned that the resulting extremely high fuel hazards will 
create a catastrophic wildland fire risk that could not only endanger 
the lodgepole pine areas, but the surrounding forest and its multitude 
of tribal values as well.
    In response to the devastation on Indian lands, BIA has assisted 
reservations in taking steps to protect the remaining pine stands. At 
the Colville Indian Reservation in Washington, 8,000 acres of lodgepole 
pine stands are at high-risk for mountain pine beetle infestation. The 
main treatment is a regeneration harvest and conversion to a different 
species, mostly western larch. About 10,000 acres have been converted 
since the 1970's.
    At the Rocky Boys Indian Reservation, the reservation has been 
successful in timber harvest salvaging of the mortality, but is still 
facing ongoing infestation. Non-commercial stands have been affected as 
well. On other reservations, the incompatibility between salvage 
operations and reservation uses, and proximity to markets are 
restricting large-scale salvage operations.
U.S. Fish and Wildlife Service
    Mountain pine beetles are not a significant issue on lands managed 
by the U.S. Fish and Wildlife Service (USFWS), specifically National 
Wildlife Refuge System and National Fish Hatchery System lands. Very 
few USFWS lands have significant forested habitat and thus the Service 
only administers small amounts of acreage of western pine forest, most 
of which consists of ponderosa pine, not the mature (and over-mature) 
lodgepole pine that has, to date, suffered from the most intensive 
beetle infestation.
    Leadville National Fish Hatchery (NFH) in Leadville, Colorado, is 
an exception. NFH lands total over 3,000 acres of timber, including 
2,500 acres of mature lodgepole pine. The hatchery is near the 
epicenter of the severe beetle infestation in the Colorado High Country 
and beetle infestation is an active management issue at the hatchery. 
The majority of this timber is in the Mt. Massive Wilderness Area; 
approximately 500 acres of the hatchery's timbered areas lie outside 
the wilderness.
    The hatchery manager first observed beetle kill on hatchery forests 
in 2006 and has tasked staff and volunteers to remove dead/infected 
individual trees on an annual basis. Pheromone packets are applied each 
year to protect individual pine trees in the hatchery headquarters 
area, and in 2008, the Service participated in an interagency effort 
with the Bureau of Land Management to thin lodgepole and to encourage 
aspen, spruce, and fir regeneration on hatchery lands. Additional pine 
thinning partnership projects are planned for 2009 and beyond.
    While the USFWS does not anticipate these efforts will completely 
prevent beetle-kill of the hatchery's lodgepole forest, the Service is 
hopeful the efforts will help reduce fuel loads and stimulate 
regeneration of other species. It remains unclear if thinning in 
uninfested forest stands will have any mitigating impact on mortality 
of mature lodgepole on USFWS or any other infested lands in Colorado.
Department Efforts
    In addition to all the actions being taken by specific bureaus, the 
Department is coordinating several efforts including integrated pest 
management (IPM), creation of an incident commander for beetle control 
efforts in Colorado, multi-agency discussions, and blended fuels 
treatment plans and zones. The Department is also collaborating with 
the Department of Agriculture (through the U.S. Forest Service) who 
provides forest health information and support annually to the bureaus.
    In the face of rising mountain pine beetle infestations across the 
west, the Department will need increasing attention and dedicated 
resources to face this challenge. The greatest need will be for 
continued mapping and monitoring, fuel treatment around high-value 
areas, and for careful assessment of stressors such as sustained 
drought, climate change, beetle spread and impacts to the other 
integral flora and fauna components that make up a healthy, intact 
forest.
Conclusion
    Mountain pine beetles will continue to be a part of the western 
landscape. It is an episodic pest reoccurring periodically throughout 
our western forests. It is currently rapidly expanding to epidemic 
levels in parts of the west. Some of this expansion is beyond the 
historic parameter for this species, in part assisted by reoccurring 
drought, climate change, overly dense mature forests, and changes in 
the biology of mountain pine beetle.
    The Department is committed to continued monitoring of the mountain 
pine beetle as it spreads to new areas and expands its range. We will 
continue to coordinate and support our federal, state and local 
partners to address this issue. The Department is dedicated to the 
interagency fuels and fire suppression efforts to respond to the 
inevitable fires and loss of habitat that will occur as a result of 
this outbreak. Although stopping the mountain pine beetle is not a 
viable option, management strategies to control its damage in priority 
areas, and protect resources and communities from catastrophic 
wildfires are critical. The continued collaboration and support between 
the Departments of the Interior and Agriculture will help us to face 
this unprecedented forest health challenge.
    This concludes my prepared testimony. I, along with our technical 
witnesses from the other bureaus, would be happy to answer any 
questions you or the other members of the subcommittees have on this 
topic.
                                 ______
                                 
    Mrs. Napolitano. Thank you; your testimony is in the 
record. So thank you very much for being here as a witness. It 
is good to see you, Mr. Turley; you are next.

 STATEMENT OF RONALD TURLEY, SPECIAL PROGRAMS MANAGER, WESTERN 
      AREA POWER ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Mr. Turley. Thank you, Madam Chairwoman; good morning Madam 
Chairwoman, Mr. Chairman, Committee Members, my name, of 
course, is Ron Turley. I am the Special Programs Manager for 
Western Area Power Administration.
    I am here today to try and provide the technical support 
that this committee needs to investigate this important issue. 
I just want to say at the onset though that I cannot speak 
toward policy. I am more of a technical type.
    For those that do not know, Western is a Federal agency. 
Western owns and operates 17,000 miles of transmission in most 
of the states west of the Mississippi. In many cases, as in 
Colorado, Western is the backbone of the electrical grid.
    So today, I am talking about transmission and not 
distribution. Transmission is the bulk of the energy grid. That 
is what I am speaking to.
    Transmission lines, of course, are linear features that 
traverse great distances across many vegetation types and, of 
course, of one common one is our western forests. We are all 
aware that we have unhealthy, unstable forest conditions in 
many forest types. Today, we are focusing on the bark beetle 
and lodgepole pine. But there are many forest types that have 
health and stability issues.
    When conditions are right, experience has shown that 
multiple, large fire events will occur, and they often continue 
for long periods of time.
    Western has concern about the potential for an overlap of 
multiple, simultaneous fire events on multiple parts of the 
grid. This could have significant regional and potentially 
national consequences.
    Just very briefly, from a technical aspect, there are two 
components to vegetation management that utilities face, that 
relate to the safety, liability, and secure operations of a 
power grid. The first is tall trees. The second is fire.
    Now tall trees are pretty easy to understand. It is 
traditional. It is well addressed by FERC and NRC mandatory 
reliability standards that rolled out of the Energy Policy Act 
of 2005.
    Fire, however, is new. It is untraditional. It is more 
complex. It involves larger areas, and it is not addressed by 
any standards or any guidelines. Fire, itself, has two 
consequences for utility operations. The first is smoke. Smoke 
has short-term impacts to the operation of the power system. 
the more significant one, though, is the actual physical damage 
to power facilities; and that potentially could take long 
periods of time to repair.
    Concern for fire has led to a new concept of managing to 
enhance fire survivability. This involves different thinking by 
all. To utilities, thinking about adjusting maintenance 
strategies to manage for fire survivability, it means not only 
managing for tall trees, but also managing for fuels on your 
right-of-way.
    For others, changes in thinking require that the grid be 
recognized as critical, wildland-urban interface, requiring 
priority protection.
    As noted, managing for fire survivability often requires 
treating areas larger than narrow rights-of-way. Survivability, 
however, does not mean exclusion of fire. It just means 
managing the intensity and duration of the heat.
    Because this involves areas larger than a right-of-way, it 
requires collaborative partnerships, and a coordination with 
various stakeholders. It is usually best to integrate these 
with other management objectives; and unfortunately, this 
requires time and process.
    Western feels we have some good examples to point on the 
Uncompahgre Plateau project, where we have some power line 
projection projects on the ground already. One other comment, 
technically I wanted to give is, the power system has its own 
communications network. Obviously, there is a lot of 
information that goes back and forth on the condition of the 
grid, and a lot of information goes back and forth on 
controlling the grid.
    It is an independent stand-alone system. So when we think 
about protecting the transmission grid, we also need to 
remember to protect the communication system that goes with 
that.
    That concludes my opening remarks. I thank you for having 
Western here today to help, and I am happy to answer any 
questions that the committee may have; thank you.
    [The prepared statement of Mr. Turley follows:]

          Statement of Ron Turley, Special Programs Manager, 
      Western Area Power Administration, U.S. Department of Energy

    I am Ron Turley, Special Programs Manager for the Department of 
Energy's Western Area Power Administration (Western). This is my 
testimony for the June 16 hearing on ``Mountain Pine Beetle: Strategies 
for Protecting the West.''
    Good morning, Madame Chairwoman, Mr. Chairman, and Subcommittee 
members. Western is committed to delivering reliable, cost-based 
Federal electrical power. We do this over an integrated 17,000 circuit-
mile, high-voltage transmission system--an electrical Federal highway 
system--that spans most of the western half of the United States. Our 
role, as transmission owner and provider, is not only critical to the 
delivery of Federal power, it is integral to our Nation's 
interconnected electrical grid and helps ensure reliable and secure 
delivery of our Nation's power supply.
    Given the importance of this role, I appreciate the opportunity to 
update you on the urgency of real risks to public safety and power 
system security and reliability resulting from the bark beetle epidemic 
in the Rocky Mountains. This situation in Western's service area is a 
great concern. Wildfires in dead and dying timber stands of beetle-
infested forests can seriously interrupt power system operations and 
significantly damage transmission lines. This situation could result in 
widespread, regional power outages potentially requiring extended 
periods of repair time.
    Today I will provide technical information on the risks that 
beetle-kill forests pose to Western's power system; the substantially 
more aggressive vegetation management practices required to reduce 
these risks; and how Western is taking an active role to address the 
issue.

Beetle-killed, forested landscapes and Western's transmission 
        infrastructure
    Today, the impact to Western's transmission lines and facilities 
from the bark beetle is concentrated in Colorado. Much of Western's 
transmission system in Colorado is located on heavily forested lands 
administered by the United States Forest Service (USFS), as well as on 
lands under other ownerships (private, Bureau of Land Management, 
tribal and others).

Dead and dying trees are threats to public safety, reliability and grid 
        security
    Our transmission lines cross a variety of vegetation types, but 
trees are one of the main vegetation management concerns when it comes 
to ensuring public safety, reliable system operations and grid 
security.
    Today, vegetation management includes more than just cutting danger 
trees--trees tall enough to either grow into contact with electrical 
conductors or fall into the conductors or structures. It involves 
actively managing the plant communities beneath our transmission lines 
and within our rights of way as well as addressing fire-related impacts 
that affect the overall ability of transmission facilities to withstand 
a fire.
    Under extreme fire conditions, multiple large, high-intensity 
wildfire events can simultaneously impact multiple electrical grid 
components resulting in potentially severe regional consequences.

Direct risks to Western's lines
    Many segments of Western's grid-critical transmission system pass 
through lodgepole pine areas impacted by the mountain pine beetle. The 
dead and dying trees present multiple risks to transmission lines, 
including physical damage and operational threats to facilities from 
falling trees, increased threats to facility operation and physical 
damage from wildfire events and the possibility of causing wildfire by 
igniting trees that fall on or near high-voltage transmission lines. 
Associated power outages could be sudden or extended, or both, 
potentially jeopardizing public safety. Accordingly, Western is 
concerned about management implications of forest health not only 
associated with lodgepole pine but in many other forest types as well.

Indirect risks to Western's lines
    In addition, indirect risks in the forested areas--sometimes many 
miles from Western's facilities--may put Western's transmission 
facilities at risk. The potential for large fires in beetle-killed 
timber presents a serious risk to continuous power system operations 
and the integrity of transmission lines. Fuels treatments in areas both 
adjacent to and, in some cases, distant from the right of way may 
mitigate but not completely eliminate the risk presented by wildfires 
and enhance the likelihood of the operational security of our 
transmission facilities when fire occurs within these fire-adapted 
landscapes. As illustrated in the attached photos, managing fuels to 
enhance transmission line fire survivability is complex. However, 
utilities' rights and authority concerning vegetation management end at 
the edge of the transmission line's right of way.

Western's vegetation management program--adapting to new realities
    Today, the goal of our vegetation management program is to 
establish a more manageable, long term right-of-way condition that 
reduces the build up and concentration of fire fuels and reduces the 
overall risk of tree-caused outages or fires, increasing public safety 
and enhancing power system security and reliability.

Program history
    Western has always conducted a robust vegetation management program 
to manage and control vegetation on its rights of way. Historically, we 
performed maintenance work when vegetation had grown near the point of 
becoming a problem. We principally focused on managing tall trees, 
consistent with industry standards.
    With the passage of the Energy Policy Act of 2005, the Federal 
Energy Regulatory Commission and North American Electric Reliability 
Corporation (NERC) have established mandatory vegetation management 
standards. The electric utility industry is now required to actively 
manage vegetation well before it can potentially threaten reliable 
power system operations. Consequently, Western must significantly 
change its past practices on some forested transmission line rights of 
ways ``most of which are on National Forest System lands.

Two-phased approach tackles major workload
    To meet these new and more stringent NERC reliability requirements, 
Western undertook an intensive, systematic review of the power system 
to locate and remove danger trees with the intent to immediately ensure 
the safety, security and reliability of the Federal transmission 
system.
    Western plans to follow with a second phase of more aggressive 
treatments to convert heavily forested rights of ways to a more 
manageable condition of stable, low-growth and slow-growing native 
vegetation. This conversion process involves removing or grinding 
previously cut trees and debris, removing standing trees, and actively 
selecting for native, lower-growth plant species. This approach 
increases species diversity through the establishment and retention of 
early-succession plant communities that are appropriate to the ecology 
of the area.
    This second phase is pending the completion of an environmental 
review process co-led by the USFS and Western. Western and the USFS are 
in negotiations regarding this environmental review process, and we 
anticipate a lengthy review and analysis. In the interim, trees 
continue to grow, and Western will continue to annually remove danger 
trees on previously treated transmission line sections. This is 
required to maintain the integrity of the Federal power system and 
remain in compliance with the mandatory reliability standards.

Western's role--solutions to the bark beetle threat
    Western provides industry leadership on vegetation management 
issues related to power grid safety, security and reliability. Western 
is recognized for collaborative approaches to address today's complex 
natural resources management issues. As a result, Western sits on the 
steering committee for the Colorado Bark Beetle Cooperative and has 
been appointed to Colorado Governor Bill Ritter's Healthy Forest 
Advisory Council. We have been appointed to the NERC Standards Drafting 
Team tasked with writing international industry reliability standards 
for vegetation management.

Expedited environmental review
    Western continues to work with the USFS on the environmental review 
and other steps required to fully implement our vegetation management 
program. To help address the immediate need created by the bark beetle 
epidemic, Western is exploring a recent proposal by the USFS to provide 
an expedited, programmatic environmental analysis for a one-time, 
limited authorization to treat fuels and mitigate wildfire hazards.

Collaborative partnerships show promise
    In addition, Western is encouraged by our participation in the 
Uncompahgre Plateau Project in Colorado. This project is an example of 
a collaborative approach to addressing multiple resource objectives, 
including transmission line protection and fire-hazard mitigation 
projects, across jurisdictional boundaries using a variety of 
authorities and funding sources.
    The goal of the Uncompahgre Plateau Project is to develop 
collaborative approaches to improve or restore ecosystem health on 
various landscapes, using best available science, community and other 
stakeholder partnerships and adaptive management practices. Principal 
project partners include: the Public Lands Partnership, Bureau of Land 
Management, Colorado Division of Wildlife, the USFS, Western and Tri-
State Generation and Transmission Association, Inc.
    Primary components of the Project include: landscape scale project 
planning, invasive species management, a native plant program, on-the-
ground treatments, and education and technology transfer. The Project 
directs, coordinates and/or facilitates these activities across 
jurisdictional boundaries, but does not supersede management authority 
on any Federal, state, or private lands.
    Through its innovative powerline protection projects, the 
Uncompahgre Plateau Project model works well for protecting 
transmission resources--critical wildland and urban interface 
infrastructure traversing these lands. An environmental decision memo 
further describing one of these projects is attached.
Cooperative effort--key to solution
    Many questions remain, but the need is urgent. The solution will 
involve all stakeholders working cooperatively. Western is committed to 
being part of the solution, continuing our role as an industry leader 
in enhancing public safety and increasing the security and reliability 
of the electric grid.
    Thank you, Madame Chairwoman and Mr. Chairman. I would be pleased 
to answer any questions that you or the Subcommittee members may have.
                                 ______
                                 
    Mrs. Napolitano. Thank you so very much for your testimony; 
and we will begin the round of questions. Now I can start off 
with Mr. Turley. I have been privileged to see the sites that 
you presented here on the committee today.
    And I know in speaking to some of your personnel, some of 
the impediments on the right-of-ways is permission to be able 
to go in and do some clearance in some areas. But what are the 
biggest impediments pertaining to those transmission lines; and 
getting to that, whose responsibility should it be or is it for 
clearing the vegetation outside of the right-of-way?
    Mr. Turley. Madam Chairwoman, traditional vegetation 
management practices for a utility involves managing tall 
trees. Today, we need to think not only about tall trees, but 
also fuels management; that is a change in management practice 
that requires NEPA review.
    Mrs. Napolitano. Would you explain fuels management?
    Mr. Turley. The best way to explain fuels management is, 
there has been an accumulation of biomass. You allow trees to 
grow. That is traditionally how right-of-ways are managed. It 
was just-in-time maintenance. When a tree got too tall and 
became a problem, then you dealt with it.
    Fuels management means not only dealing with tall trees, 
but also dealing with the rest of the biomass that is on that 
right-of-way. Trees that you may have cut down previously were 
typically cut, lopped and scattered, and left there.
    There has been 50 or 60 years of materials accumulating on 
these right-of-ways; and in the western United States, this 
material does not rot. It is good sound wood--good sound fuel. 
You have re-generation that is coming up through this material. 
So you have your fine fuels, as well. That needs to be managed.
    Fuels management means cleaning up or addressing that 
entire problem, versus the previous approach of just dealing 
with tall trees.
    Mrs. Napolitano. Thank you.
    Mr. Turley. Off the right-of-way is an entirely different 
issue. Tall trees, fuels on the right-of-way, you have tall 
trees and fuels off the right-of-way, as well. Tall trees off 
the right-of-way are pretty easy to understand. But it is a 
matter of risk. The farther the tree gets away from the power 
line, the more precisely it has got to fall toward the power 
line to create a problem.
    So how far do you go? How much risk do you want to 
mitigate? How much resource do you have? How much can you 
really do?
    Fuels off the right-of-way is a much bigger problem. We 
have seen some of the fire photos today, and these are pretty 
catastrophic events. The utility's responsibility ends at the 
edge of the right-of-way. That is the cold, hard fact of it. So 
the utility really does not have the rights, the authority, 
much ability to work off the right-of-way.
    So it really falls to others. When you are dealing with 
fuels off the right-of-way, utilities do not know what to do. 
We are not fire scientists. We understand tall trees. We have 
been doing that a long time. But fuels management is a much 
tougher nut to crack; and as I noted in my opening comments, 
oftentimes, it needs to be integrated with other management 
objectives.
    Mrs. Napolitano. How much is your right-of-way; how many 
feet?
    Mr. Turley. How wide?
    Mrs. Napolitano. How wide.
    Mr. Turley. It depends on your voltage. Larger voltages 
have wider right-of-ways. A 354 KV, 345,000 volt, which would 
be typical or the biggest you would find in the Rocky Mountain 
Region, would be about a 150,000/175,000 foot right-of-way. A 
115,000 volt would be about 75 foot right-of-way. So you are in 
that range.
    Mrs. Napolitano. Would it make any sense to widen the 
right-of-way to prevent venue fires adjacent to that right-of-
way to the grids from endangering the grids?
    Mr. Turley. When you are dealing with fire and fuels, 
again, the areas are so large, I do not know that it would be 
very effective in dealing with that part of the problem. 
Perhaps tall trees may be a little better.
    Let me note, as well, we are not talking clear cuts. We are 
not talking going from Point A to Point B and doing everything. 
We need to have a strategic approach. We just do not have the 
resources. You need to very strategically get the best bang for 
your buck; get the highest priority areas.
    Mrs. Napolitano. Thank you; Mr. Cables, if a tree standing 
outside of the right-of-way falls in the line and starts a 
fire, who is liable for the damages?
    Mr. Cables. I am not completely positive how that would be 
legally interpreted. I think Ron made a significant point, in 
terms of this is uncharted territory right now for us; 
something at this scale, 1,3000 miles all at once.
    We had a meeting on May 18th, where we invited all the 
utility electrical providers that have these transmission and 
distribution lines. Subsequent to that meeting, I wrote a 
letter essentially granting permission to immediately remove 
hazard trees, whether within or outside the right-of-way that 
were an imminent threat to the power line. And we are also 
working on a longer term, more robust strategy to consider 
fuels treatment or anticipating fire effects beyond the width 
of the right-of-way.
    We have right-of-ways that are 15 feet wide for some of 
these distribution lines, which obviously is not adequate if 
the trees are 80 feet tall.
    So there are a whole series of things that we are working 
on right now, to try to mitigate this problem and to do it as 
quickly as we can.
    Mrs. Napolitano. There was one of the testimonies in the 
witnesses who are yet to come, stating that they had been told 
that they are responsible for any damages within or outside the 
right-of-way. In the many years the Forest Service has been 
managing it, has there not been an attempt to clarify this, not 
only for the benefit of the public, but for the benefit of the 
grids and others?
    Mr. Cables. First of all, I am not familiar with that 
particular citation, what the situation was. I think that 
historically, clearly, we have tried to hold the utility 
companies or whoever responsible for those area within the 
authorization.
    So they are authorized to cross National Forest System 
lands, and they have an authorization and some form of special 
use permit--an easement, a memorandum of understanding--that 
allows that; and there are responsibilities within that 
corridor.
    Again, I cannot speak to the citation. But your point 
about, have there not been an opportunity to clarify--probably 
there have been, or maybe there has actually been clarification 
that I am unaware of.
    But in this particular instance, again, we are just trying 
to catch up with an event of the scale that we are talking 
about, and try to do it all together with some consistency 
across the different jurisdictions.
    Mrs. Napolitano. Well, knowing that there are many 
thousands of miles of grid lines, I think that is incumbent 
upon the Forest Service to sit and determine what needs to be 
done and at the table. If it needs us to be able to work with 
you, I would be delighted to do that, sir.
    Dr. Frost, would you provide a little more detail on the 
specific actions the Department of the Interior has taken to 
protect isolated tribal lands and communities from the effects 
of the beetle epidemic?
    Mr. Frost. Yes, I can give a couple of examples, and there 
is not a lot I can tell you, and I may have to get back with 
you.
    But at the Flathead Indian Reservation in Montana, there 
are 20,000 acres of dead trees, and only 5,000 acres have been 
able to be treated to date. At the Yakima Indian Reservation in 
Washington, 14,000 acres are dead, and none have been treated.
    In the Colville Indian Reservation in Washington, 8,000 
acres of lodgepole pines are at high risk for beetle 
infestation; and the main treatment there is a re-generation 
harvest and a conversion to different species; mostly western 
large. About 10,000 acres have been converted since 1970. I can 
submit these to you. I can go on, and I have a list here.
    So there are a number of activities that are going on. 
Another one is in Montana. They have been working for 12 years 
or more at the Rocky Boys Indian Reservation, and they have had 
a successful program in timber harvesting in terms of salvaging 
the mortality. But they just cannot seem to get ahead of the 
infestation.
    They have forest health money from the Forest Service. In 
the past, they have been pheromone traps. So they have tried to 
do all the treatments. But again, for lack of personnel, lack 
of expertise, it has been very difficult for them.
    Mrs. Napolitano. Thank you; and thank you all for 
submitting your testimony. I am very disappointed, to say the 
least, in OMB in the delay; because some of your testimony did 
not reach me until this morning. I take great exception to 
that, because I like to read it and be able to formulate the 
question, based on your testimony, so that I am very much in 
tune with what we are discussing.
    To me, it is unacceptable that they would not release the 
testimony; whether they are backlogged or whatever. There is a 
message going to be given to that effect. But thank you for 
submitting your testimony to them on time.
    Mrs. Lummis. Well, thank you, Madam Chairman and Mr. 
Chairman. I would like to ask that a photograph of the slash 
piles in Wyoming be held up, and I have a question, Mr. Cables. 
I have seen slash piles like the one that we have here in a 
photograph.
    And these are slash piles from existing and approved 
operations that would be used as woody biomass, under the RFS 
or RES wood bi-products that would otherwise go to waste, and 
we are getting there.
    What I am talking about. They are whopping slash piles that 
are going to be burned as soon as the snow flies or something; 
and it would be so great if they could be used for creating 
fuel.
    What is the Forest Service stance on the potential of woody 
biomass gathered on public lands, as a renewable fuel source?
    Mr. Cables. Well, obviously, it definitely has high 
potential. The USDA proposes to use the definitions of biomass 
that are in Titles I and III in the 2008 Farm Bill; and have 
previously testified or made public comments to that effect. 
That would enable products that come from the public lands and 
the National Forest Service lands to be considered as part of 
the renewable biomass standard.
    Mrs. Lummis. Thank you; my next question is for Mr. Cables 
and Dr. Bentz. I preface this by saying, I would love it if you 
or your staff would stick around and hear Mr. Larsen's 
testimony on the fourth panel later today; and this is about 
the battle on this epidemic. It has not been successful thus 
far. I am talking about the pine beetle epidemic.
    What specific and immediate steps can the Forest Service 
take to step up--and I want to emphasize that word--step up the 
reduction of this growing hazardous fuel load in the west?
    Mr. Cables. Well, thank you for the question. We have 
specific and immediate steps. We have a five-year plan right 
now. We have multiple thousands of acres that are NEPA ready, 
with full concurrence by a wide spectrum of participants and 
interests. We have a collaborative group, the bark beetle 
collaborative, and you will hear from members of that group in 
subsequent panels, and I will stay around for subsequent 
panels.
    Mrs. Lummis. Thanks.
    Mr. Cables. So we have a lot of work being done, and we 
have a lot of work on the shelf; and we are just trying to be 
as efficient with the money as we can.
    One of the dilemmas that we have--and again, within my 
region, I have shifted funds, to the extent I can. But as 
Representative Sablan pointed out, the Black Hills are also in 
our region, the Rocky Mountain Region, which includes parts of 
Wyoming and South Dakota.
    And if we overly shift dollars to Colorado and southern 
Wyoming for this, away from areas on the Black Hills, then we 
are going to just be creating a problem in a different place, 
or accelerating a problem in a different place. Because as the 
representative pointed out, we have 300,000 acres of bark 
beetle mortality in the Black Hills.
    So again, it is trying to figure out how to put your finger 
in the dike in different places on this problem; and I am just 
speaking for our region. There are multiple regions in the 
West, and even in the east, that had these insect problems.
    I think we have the steps, in terms of the projects, laid 
out. It is again trying to allocate the resources necessary to 
get the work done.
    Mrs. Lummis. Thank you, Mr. Cables.
    Ms. Bentz. Could I just make a statement regarding the 
science part of it? So the mountain pine beetle is undoubtedly 
changing the fuel dynamics, in lodgepole pine forests.
    The issue is that this has happened on such a large scale, 
that we really do not have any research to say what the 
intricacies of those changes are. There is a lot of research 
that suggests that you can do tree removal and thinning in wild 
line urban interfaces, and really have a big impact on saving 
infrastructure and homes.
    But there is just really hardly any research to say what is 
going to happen if you try to take out dead trees across large 
expanses, in terms of the ecological consequences or the 
changes to the fuel dynamics.
    We are talking about things that we really do not know what 
is going to happen. So I just wanted to make that comment.
    Mrs. Lummis. Thank you, Madam Chairman.
    Mrs. Napolitano. Thank you; Mr. Grijalva?
    Mr. Grijalva. Yes, Dr. Bentz; thank you for that last 
comment. I think it is important for all of us to reflect on 
the enormity of the issue that we are dealing with here today. 
Simply put, is there a direct correlation between fire and the 
beetle attack?
    Ms. Bentz. Did fire influence the insect attack, or the 
other way around?
    Mr. Grijalva. Vice versa.
    Ms. Bentz. Vice versa?
    Mr. Grijalva. Yes.
    Ms. Bentz. Well, that was the comment I was just making. We 
do not have a whole lot of research or really data to pinpoint. 
But we have information that we have compiled to suggest that 
it is a very dynamic process.
    The potential for crown file will be really high, early on, 
as all those needles are in the trees; and when those drop and 
you have dead standing snags, the potential for crown fire goes 
down. As the snags fall over, which has been mentioned several 
times in a 10 to 20 year time period, and vegetation grows up, 
then you get this increase in potential for a surface fire with 
the ladder fuels that could then go into the crown.
    It is a very dynamic process, and it is going to vary from 
place to place. And I think the overriding factor is the 
weather. You have to have extreme fire weather to get these 
fires going, irregardless of the fuel dynamics.
    Mr. Grijalva. Thank you; Mr. Cables, recently, a report was 
released indicating that the Forest Service spent only three 
percent of its money to reduce fire danger in the wildland-
urban interface. That was overall. How does that compare in 
Colorado and other parts of your region?
    Mr. Cables. Thank you, Chairman Grijalva; this report was 
just released last week. Quite frankly, I was perplexed when I 
saw it. We got to looking at our data. In our region, in total, 
it is over 63 percent of treatments that have occurred in the 
wildland-urban interface; and in the bark beetle area, it is 80 
percent, and we are shooting for 90 percent.
    So we have very specifically focused our energy--and not 
just in hazardous fuels money--but the other programs that 
manage vegetation, in the areas that are what we called the 
zones of agreements.
    Mr. Grijalva. Is that percentage based on location or 
overall budget of the region?
    Mr. Cables. That percentage is based on location.
    Mr. Grijalva. So overall budget, what would that be?
    Mr. Cables. I do not have the figures by budget. I just 
have the figures by acreage. But we can get you that 
information.
    Mr. Grijalva. OK, I think one of the issues is a resource 
issue; part commentary, part question, Mr. Cables. Right now, 
there is not even a sponsor for the Flame Act in the Senate.
    I would suggest that particularly in some of these states 
in the western states regarding the infestation and fire 
prevention and suppression strategies vital, that it would 
behoove some of the members of that body to get behind this.
    It has already passed the House. I think it is a resource 
issue that deals with the percentage I asked you about; that 
deals with community planning; and I think it is an attempt to 
begin to deal with this issue--not only the infestation issue, 
but the fire suppression issue.
    But anyway, it is based on the resource question, Mr. 
Cables. The resource needs that you have for your region, in 
order to carry out some of the strategies that you discussed 
is, you redirect funds from your existing budget. You mentioned 
that. But if you were to have resource additions, what would 
that percentage of that amount look like? Because I think 
overall, we are still talking about the need to invest some 
resources in this whole issue; and until we do that, I think we 
are just going to talk in circles.
    Mr. Cables. Well, let me understand, Mr. Chairman. Are you 
asking, how would we invest additional resources?
    Mr. Grijalva. How much more would you need in order to do 
the job that you were talking about?
    Mr. Cables. That is really a good question.
    [Laughter.]
    Mr. Cables. I wrote a letter to the Chief of the Forest 
Service on June 6th, and requested emergency funding over a 
three-year period, in an amount of $213 million for Fiscal 
Years 2009, 2010, and 2011, that would allow us to deal with 
emergency threats to human life and safety from falling trees; 
clear the rights-of-ways and ensure that we do not have trees 
falling on power lines and infrastructure and camp ground 
maintenance and all those things. So that was just an 
immediate, short-term burst of a request to deal with the 
problems of the mountain pine beetle.
    In the long run, I would say that most regional foresters, 
if they were sitting here, would say they would invest the 
money, working collaboratively with community people, to try to 
do community protection, watershed protection, and try to keep 
up with things.
    Mr. Grijalva. OK, thank you; Mr. Turley, the Western Power 
Administration--at least from your testimony, and correct me--
has now discovered recently the issue of fuel management. That 
is a question.
    Mr. Turley. Thank you, Mr. Chairman; I think the whole 
industry traditionally has managed tall trees. But you had not 
had the fire incident. You had not had the biomass problems 
that we are starting to see today.
    I think the entire industry is starting to look at the 
fuels management and the fire survivability part now, and 
saying, ``Hey, we certainly need to be doing something on our 
right-of-way.'' That is just like you would ask a private 
citizen around their home to be firewise. I think utilities 
need to be firewise.
    But again, that fire problem is so big, so massive, it 
extends way off the right-of-way. So yes, it is kind of a new 
concept; not just to Western, but to the entire industry.
    Mr. Grijalva. And with that fuels management, also I would 
assume the fire issue is now a more prevalent issue with the 
Administration than it was, say, previously, as a priority 
issue?
    Mr. Turley. That is more of a policy-type question, that I 
am not sure I can really answer, sir.
    Mr. Grijalva. OK, I yield back.
    Mrs. Napolitano. Thank you; Mrs. McMorris Rodgers?
    Mrs. McMorris Rodgers. Thank you, Madam Chairwoman; I 
mentioned in my opening statement that in eastern Washington, 
Avista has a biomass facility, 50 megawatts in Kettle Falls, 
right next door to the Colville National Forest. And yet, they 
have to import from Canada 70 percent of what they burn at that 
facility.
    I also have a mill, the Vaagen Brothers Mill, in Caldwell, 
that re-tooled probably 10 years ago now, to really focus on 
small diameter trees. So it is six inches or less, really. Yet, 
both of these facilities have trouble getting access to 
material, despite the fact that we are right next door to the 
Caldwell National Forest.
    I might also mention that there has been a tremendous 
collaborative effort under way in this region between 
environmental groups, the industry, and recreational users, 
trying to come up with a way that locally we could actually 
move forward.
    But instead, we still cannot move forward. The Caldwell 
National Forest has, I do not know, how many acres in mountain 
pine beetle and trees that are dead from burns or beetle 
infestation or other reasons. It needs a lot of attention; and 
we live in fear of catastrophic fires every year.
    So I just wanted to ask, or to have you just talk a little 
bit, Mr. Cables and Dr. Frost, about the problem we face with 
the overstocking of our Federal lands; and does it not increase 
the risk of higher intensity fires? And do you believe that the 
role of the Forest Service is shifting from management of 
Forest to simply protecting houses from fires?
    Mr. Cables. Let me start, Representative McMorris Rodgers. 
Let me first mention that the two mills in our region have re-
tooled to do just as we have asked, to deal with smaller 
diameter material.
    Both the Diamond Brothers Mill in Wyoming and South Dakota, 
and the two mills in Inner Mountain over in Montrose, Colorado, 
have been very heavily invested in trying to create an industry 
that actually meets the needs; and I really would like to give 
them credit for that.
    Our issue in our region is not so much access to material. 
I do not think that you would hear very much from the woods 
products industry folks. But that is really a huge problem.
    I think, right now, the problem is more just the situation 
with the industry, in terms of the economy, and trying to get 
cash and the amount of cash that is tied up in some of our 
requirements in our contracting and they are cash poor. The 
market is so depressed, and it really started going down in 
2004. So I think that is a larger issue.
    Has the Forest Service changed priorities? I do not believe 
we have at all. I believe, at least in some of these cases, the 
size and scale of the events have become overwhelming, to an 
extent; and you saw the speed with which this particular issue 
in the pine beetle in Colorado and southern Wyoming has 
accelerated.
    Again, I think it is working to have the social license 
from the communities of interest to allow us to move forward 
and work together; and there are barriers always with that. But 
I feel like we are making a lot of headway in those particular 
areas, and that we now do have the social license to practice 
on the ground what needs to get done.
    That is my sense of it, from our field people and talking 
to folks. So I think our priorities are still looking at 
maintaining that forest in the way that it is healthy, and that 
continue to give the benefits that people want; whether it is 
water, wildlife habitat, recreation opportunities, wood 
products for society--you name it; and I do not know how Dr. 
Frost would answer.
    Mr. Frost. I would agree with a lot of what Mr. Cables has 
to say. Availability of wood products may be at different 
levels across different regions. What I have been told is that 
in areas like in Colorado, there is more than enough wood 
products for the mills that are there. So the situation that 
you are experiencing may be a low cause phenomenon. I do not 
know what the situation is there.
    But again, I think the key to managing the forest to be 
sustainable over time; and to protect health and human safety 
in the circumstances that we are now in.
    The policies at the Department of the Interior, we have 
different bureaus, so we have different policies. The Park 
Service is very different than the Bureau of Land Management. 
The BLM manages very similar, and the BIA manages very similar 
to the Forest Service. Whereas, the Park Service, we look at 
ecosystem function and things like that. So how we manage the 
forest maybe is very different.
    While we want to protect infrastructure and urban interface 
and heath and human safety, the larger issues for the Park 
Service is to maintain those healthy systems over time through 
the national processes.
    Mrs. McMorris Rodgers. Just for my own edification, can you 
give me a sense of the infrastructure that exists in Colorado 
then, as far as mills or biomass facilities?
    Mr. Frost. I cannot. But we can get you that information. I 
do not have that right here.
    Mrs. McMorris Rodgers. OK, that would be great.
    Mr. Cables. We currently have one, what I would call medium 
to large size saw mill left in Montrose, Colorado; and we have 
two pellet plants in northern Colorado, in the bark beetle 
area.
    We have a mill that was shut down in Saratoga, Wyoming, 
which is just north of the Colorado border in Wyoming, that is 
the company that owns Inner Mountain Resources, that owns the 
mill the mill in Montrose. It has been trying to invest and buy 
equipment to start that mill, which would certainly reduce the 
haul costs of this material and the fossil fuels associated, 
hauling heavy things like wood long distances.
    So that is the current state in Colorado and Southern 
Wyoming; and of course, there is a mill up in Hewlett, Wyoming, 
which is associated with the Black Hills. That is in the 
northeast corner of Wyoming.
    Mrs. McMorris Rodgers. Well, just for the committee's 
information, my region is very concerned about losing what 
existing infrastructure we have; and the issue of having access 
to timber has been a huge issue. I think we are fearful that we 
are going to head down the same path, where we will be in 
Washington State, saying we have one mill, two pellet plants, 
whatever it may be.
    There was one other question I wanted to ask on the 
stimulus dollars. Because in the stimulus, I think if I 
remember correctly, it is $4 billion for the Forest Service for 
fuel management, fuel reduction. And so far, what I have seen 
is, the money is going more for roads--either tearing out 
roads, rather than really addressing this fuel management, fuel 
reduction issue.
    In my region, we are very anxious to have access to some of 
that fuel right now, because we could use it at the biomass 
facility to generate electricity; or Vaagens could use it to 
keep their mill running.
    Mr. Cables. I only wish it were $4 billion. No, the Forest 
Service received--I believe it was a billion and a half 
dollars--through the stimulus funding.
    And in the Rocky Mountain Region, we have received $26 
million to date of approved projects. That was as of June 11th. 
I would say 90-plus percent of those projects have to do with 
hazardous fuels work and vegetation management; and we have 
also just released some wood energy biomass utilization 
grants--four that total a million dollars.
    The stimulus money that we have received, the AARA funding 
that we have received to date has been heavily oriented toward 
working on this problem with managing the vegetation to 
maintain the conditions we want in the forest.
    Mrs. Napolitano. Thank you; Ms. DeGette?
    Ms. DeGette. Thank you, Madam Chair; I just want to 
emphasize something that Congressman Powell has said, which is 
in Colorado, at least, we are really in a crisis situation. 
What we are looking at is, how do we do triage with this beetle 
kill?
    There are a lot of different issues. One of this is, what 
do we do with the urban interface? What do we do with our power 
lines? What do we do with our watersheds? You heard about 
Denver Water, which affects my congressional district directly.
    And then the question is, what do we do in the longer 
range? For example, if we pass climate change legislation 
today, that is not going to help us deal with this crisis 
situation; but we hope it will help us in the long run.
    When you go beyond that, then you have to ask, what do we 
do about the moving of this wood, or what do you do about 
stabilizing these forests for the next century? So I want to 
ask a few questions about all of those complicated issues.
    The first question, I want to ask Mr. Cables; but Dr. 
Bentz, you might be able to lend some light to this, as well. I 
hear conflicting information about, we all know that climate 
change, warm winters and warmer summers cause some of this. And 
in addition, we have mature forests that all are roughly the 
same age, so that the beetles have really been able to go in.
    But what I am wondering is, what we can do in the long run. 
Because it seems to me that this crisis that we are in right 
now, no matter how we remove this wood, 100 years from now, 
these forests are now all going to be the same age again, 
because the forest management techniques we were using 100 
years ago made all these forests be this age.
    So what can we do to avoid the next generation's inheriting 
this same problem with our healthy forests; Mr. Cables or Dr. 
Bentz?
    Ms. Bentz. Thank you; I can start. Again, this is such a 
new thing. We are kind of like adaptive management at its best, 
I guess.
    But thought is, as many have said, yes, the reason that 
this is such an explosive problem is because there is a ton of 
food and favorable weather conditions. So the thought is that 
on a very large landscape scale, the forests need to be 
diversified; not only in species, but also in age classes.
    Ms. DeGette. Now how do we do that, when the whole forest 
is dying at once?
    Ms. Bentz. Well, I do not think the whole forest is dying 
at once. I mean, there may be places where lodgepole 
regenerates naturally on its own. So there may be places where 
there could be natural regeneration; and maybe we want to go in 
and plant other species. It is going to take some management to 
make that diversity.
    But I think we also need to realize that climate change is 
not just affecting the insect. It is not just affecting fire. 
But the tree species that are growing there may not be the ones 
that are the best to grow there in another 150 years or 100 
years. So we need to factor that into the concept, also, if we 
are going to plant, what do we want to plant.
    Mr. Cables. It is a great question, and I have thought 
about this. If you cycle forward 50 years, and if we do get re-
generation of lodgepole, and you have this green 50-year-old 
forest; then we suggest that we need to create a mosaic of age 
classes and go into some large chunks and put fire on the 
landscape and flow out 1,000 acres or 5,000-acre chunks so we 
can get younger age classes--to diversify the age structure. 
The public may look at us and say, ``What is wrong with the 
situation right now? It is beautiful.''
    So I think it is going to be a continuing education 
process. But we need a diversity of species, to the extent we 
can. So where we have aspen, they are going to flourish right 
now, because they are going to be exposed to full sunlight.
    Ms. DeGette. Right.
    Mr. Cables. And I think we need to either, through a 
combination of mechanical treatments or fire, create some 
different age classes over this next 50 or 60 years, so that we 
do not replicate history in 100 years, and find ourselves 
facing the same problem.
    Ms. DeGette. Right, OK, I have some other questions. But 
maybe we can have a meeting, and I will ask you later.
    I want to ask you, for the dead trees that we are removing 
from public lands, I am assuming or inferring really from 
something you said, Mr. Cables, that is happening under the 
NEPA process. Is that correct? And so I would assume that any 
further woody biomass that we are removing from these lands, 
they would also be doing that under NEPA restrictions, correct?
    Mr. Cables. Yes, that is correct.
    Ms. DeGette. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, and before I move on to Mr. 
McClintock, Mr. Turley--before I forget it, it does not stay at 
home too much--in your testimony on page four, you indicated 
that Western is exploring a recent proposal by the U.S. Forest 
Service to provide an expedited programmatic environmental 
analysis for a one time limited authorization to treat fields 
and mitigate wild fire hazards.
    Can you comment on that? Because we have not really touched 
upon that. Are there any arrangements for the partnerships that 
are happening, to be able to begin mitigating some of the 
issues?
    Mr. Turley. Thank you, Congresswoman; Western actually has 
two environmental processes ongoing. I talked earlier about 
changing practices, from managing tall trees to managing tall 
trees and fuels on your right-of-way.
    Western is involved, as a caudally agency with the Forest 
Service on an EIS, an Environmental Impact Statement, to review 
and allow for that change in management practices. That is 
probably going to be a long-term deal, two to three years out.
    Mrs. Napolitano. Right, but I am specifically referring to 
this one, the one time.
    Mr. Turley. Right, the one-time one is for utilities 
treating things off the right of way. That is proposed to be a 
more expedited environmental review process that will pave the 
way for utilities to function off the right-of-way. Utilities 
really do not have the right to be off the right-of-way. It is 
kind of a question we need to work through.
    Mrs. Napolitano. And as you are working on that specific 
pilot, if you will, because it is a one-time, would you be able 
then to indicate whether or not that is helpful to be able to 
mitigate some of the issues that are affecting the right-of-
way.
    Mr. Turley. Well, it is certainly good that there is 
urgency and we are trying to address issues. But it wrought 
with a lot problems; as to who has the lead, who has the 
resources.
    Mrs. Napolitano. But how do we get to that? How do we go 
past all of that and get down to getting it done?
    Mr. Turley. I am not sure if I have the answer, other than 
we keep making it a priority and working on it.
    Mrs. Napolitano. Well, I know. But if it continues to go 
back and forth--that, no, you do it; no, I do it, you are still 
going to go back to the same old argument, which is who is 
responsible or whose responsibility it is; who will be in 
charge, if you will. Is this coming to a head; or is this again 
another delay that is going to not help the process?
    Mr. Turley. We really have not had that much time to work 
on it. As Mr. Cables pointed out, we met on May 18th. So we are 
just 30-some odd days down the road.
    Mrs. Napolitano. It is not done yet?
    Mr. Turley. No; I am sorry, it is not done.
    Mrs. Napolitano. OK, never mind; Mr. McClintock?
    Mr. McClintock. Thank you, Madam Chairman; a lot has been 
said about the interaction of temperature and water on the 
beetle infestation. A quick technical question for Dr. Bentz, 
what has the temperature trend been in that region, over the 
past couple of years?
    Ms. Bentz. I cannot talk specifics. But again, I know that 
it is not getting as cold for as long. I mean, this insect is 
able to withstand temperatures. It produces this anti-freeze 
compounds; and it is able to withstand temperatures of minus 40 
degrees C.
    Mr. McClintock. Well, I understand that. But the 
temperature trend itself over the past couple of years--you 
have testified already that you think a rise in temperature is 
a major factor. But you are not prepared to tell us what the 
trend has been over the last couple of years.
    Ms. Bentz. I can say what the trend has been in places that 
I have studied that trend.
    Mr. McClintock. No, no, in this region, in the past couple 
of years--that is what we are talking about.
    Ms. Bentz. Yes, in Idaho, where I have quantitative data I 
can send you, it has been an increasing trend of, the minimum 
winter temperatures have been increasingly warmer.
    Mr. McClintock. In the past couple of years?
    Ms. Bentz. That is a trend since the early 1990s.
    Mr. McClintock. Well, here is a Fox news report. I mean, 
you can Google and find a number of reports of similar kind. 
Now there is word that all four major global temperature 
tracking outlets release data showing the temperatures have 
dropped significantly over the last year.
    California meteorologist Anthony Watts says the amount of 
cooling ranges from 65 hundredths of a degree Centigrade to 75 
hundredths of a degree Centigrade. It is reportedly the single 
fastest temperature change ever recorded, up or down.
    Ms. Bentz. I do not know where those temperatures are from. 
But I am measuring floor temperature, where the insects live, 
in many, many places throughout the west; and I can send you 
graphs that are showing that it is in the environment that is 
important to this insect. It is the trends that we have stated.
    Mr. McClintock. The most significant testimony we have had 
today, in my opinion, was the picture presented by Mr. Salazar, 
I think it was number seven in his series, the handprint, that 
showed the difference between forests that have been thinned 
and those portions that had not been thinned.
    Mr. Cables, why are you not thinning those forests? I mean, 
that shows a very, very dramatic solution to the problem. If we 
thin the forests, they are healthy; if we fail to thin them, 
they are ravaged. Why are you not thinning those forests?
    Mr. Cables. Two points, Representative McClintock, first of 
all, we are so overwhelmed with the dead trees, and trying to 
remove the dead trees from the forest, that our program has 
shifted from trying to get in front and treat green stands, to 
deal with only the salvaging of the material or working on the 
material that is already dead and removing the hazards, as I 
described. That is point number one.
    Point number two, that picture is taken on the Fraser 
Experimental Forest. It is a research site. That picture was 
depicting different cutting regimes to do research on water 
yield; and those are not thinnings. Those actually were where 
all the trees were cut.
    So you could see in fingers of that hand, you could see the 
younger green trees were areas where we completely removed the 
trees prior, and left a strip of mature trees, and then cut a 
stripe completely clean and then a strip of mature trees, so we 
could measure water.
    What the research from that study shows is, in the upper 
watersheds, we have to remove 25 percent of the tree cover, and 
maintain it as open, to get an appreciable gain in water, which 
is a rather significant number.
    So we are managing the forest, to the extent we can, within 
our budgets; and frankly, are overwhelmed with the bark beetle 
right now.
    Mr. McClintock. If I could just ask you a final question 
then. Is there not a great deal of commercial value to trees 
through thinning, if they are used for lumber production; and 
second, is there not a great deal of commercial value for the 
beetle-killed trees, provided that they are salvaged within a 
year or so of their being killed?
    Mr. Cables. The commercial value of the lodgepole species 
we are talking about, the size is not great. This is a species 
that has never been a real high value species; but there is 
value. We are trying to utilize that value, to the extent we 
can access the areas we can get to, as rapidly as we can, with 
the industry that we have.
    Your point about thinning, the most active force management 
we have in the region I am responsible for is on the Black 
Hills. And as Congresswoman Herseth Sandlin said, we have 
actually still got a viable industry there, and we have been 
able to keep up with that system. Now that is Ponderosa pine, 
which is a very different ecology than the lodgepole system.
    In areas like that, where we have industry and we are able 
to stay ahead of the beetles and the fire issues, we have been 
able to do that, to some extent. Again, in Colorado and 
southern Wyoming right now, we have just got so many acres of 
dead trees, that we are trying our best to salvage what we can.
    Mr. McClintock. But if we salvage them for lumber, and do 
so in a timely fashion, is that not a money maker for the 
Federal Government?
    Mr. Cables. I do not know if it would be construed as a 
money maker, if you consider all costs. However, it does help 
defray the costs of treating the acres. So if we can get the 
private sector to help us in partnership, then the taxpayer 
does not have to pay--just appropriated funds to treat the 
acres to remove the wood.
    Mrs. Napolitano. I think that is the last of the questions 
for this panel. We certainly thank this panel for their 
forbearance and for their testimony. It has been enlightening. 
And there will be more questions in writing I am sure. We 
hereby dismiss the panel and bring on our next panel.
    This is panel three, Representative Christine Scanlan, John 
Rich, Commissioner of Jackson County, and Sloan Shoemaker, 
Executive Director of the Wilderness Workshop of Carbondale, 
Colorado, and Eric Wilkinson, General Manager of North Colorado 
Water Conservancy District.
    Please as we are having the transition, a little quiet, 
please, so we can move on to our next panel. We expect votes 
shortly, so we may have to recess. We would like to be able to 
start the questioning. Thank you very much.
    Ms. Christine Scanlan.

 STATEMENT OF REPRESENTATIVE CHRISTINE SCANLAN, COLORADO 56TH 
                   DISTRICT, DILLON, COLORADO

    Ms. Scanlan. Thank you, Madame Chair, and thank you, Mr. 
Chairman and committee. I appreciate the time today. I will 
pull some highlights from my testimony that we have submitted. 
And I would like to recognize State Senator Dan Gibbs, who is 
here with me in the audience.
    Senator Gibbs and I have done some dozen bills in Colorado 
related specifically to the impacts of the bark beetle 
infestation.
    My district lies within Congressman Polis's district. I am 
about 70 miles west of Denver. My district starts at the 
Continental Divide, and runs another 100 miles. We are right in 
the center of the pine beetle epidemic.
    I also am home to seven different ski resorts. So the 
mountain environment is important to my community.
    The Rocky Mountain pine beetle epidemic is changing 
Colorado and the American West. This transformation is 
immediately apparent to anyone spending time in the Rocky 
Mountains. Even a cursory glance from a visitor emerging from 
the Eisenhower Tunnel heading west on I-70 evokes reaction.
    Acre upon acre of orange, red, and brown mingle with green 
as far as the eye can see. This striking color stretches out in 
all directions, an eerily beautiful reminder of the permanent 
change of our landscape, our ecology, and our communities, and 
what we are currently undergoing.
    I would like to talk a little bit about what we have tried 
to do at a state level with regard to this. Community 
strategies for living within disturbing ecosystems, such as the 
Lodgepole Pine Forest of Northern Colorado, must address the 
reliability and long-term protection of our critical assets.
    Essentially, in such environments, policy makers are 
required to be more flexible and innovative. At the state level 
we have undertaken vigorous efforts to mitigate the threat with 
a number of unique collaborations between state and local 
government and private industry.
    Our creativity stems from necessity. Colorado possesses 
very limited resources to apply toward mitigating the 
infestation. As such, we focus on passing enabling legislation 
to empower communities to write comprehensive and integrative 
fire-preparedness plans, to improve formation and sharing 
between state, Federal, and local agencies, and to create 
incentives for private businesses that deforest impact areas 
and utilize those resources.
    As the scale of the infestation has clarified, policy 
makers have been able to thoughtfully target which were once 
disparate legislative efforts.
    For example, this past legislative session we passed an 
aggressive agenda that oriented in a special interim committee. 
The integrative legislative package not only emphasized 
mitigating the threat, but provided new solutions to assist 
local and Federal officials to partner more effectively, and to 
encourage private industry to take advantage of potential 
economic growth opportunities that may exist.
    The capstone of our efforts was a sweeping piece of 
legislation making $3 million available for a series of 
initiatives to combat the epidemic. Money from the legislation 
will assist mountain and front-range communities plan for 
forest health management activities by addressing what is known 
as the wildland-urban interface, expanding protection for 
Colorado's watersheds, local communities and vital 
infrastructure, and providing grants for market-based solutions 
to reduce what is the overall threat posed by wildfire.
    Where we need help is at the Federal level. And we are very 
grateful to our delegation which has taken the lead on this 
issue over the past three years, and worked so collaboratively 
with us.
    We hope the FLAME Act passes the Senate in its current or 
similar form. And likewise, expanded funding over the past two 
fiscal years has improved our ability to prevent fires before 
they occur, and suppressed by us when they happen. But far more 
is needed.
    As Rick Cables noted, we advocated strongly for the $200 
million in emergency funding that he requested this past year. 
This included money for threats to human life and safety posed 
by falling trees, and emergency and non-emergency hazard 
mitigation and infrastructure protection.
    We know that President Obama has included additional 
funding for both suppression and prevention in this year's 
budget. It is absolutely essential that these funds remain 
within the budget that is eventually passed, and that funds can 
be distributed in such a way that they reach the state and 
local officials who can properly apply them.
    We hope the FLAME Act reaches President Obama's desk with 
an extension of the good neighbor policy, which we have used 
very effectively and quite extensively in Colorado. It is 
essential that we continue this very basic policy of 
partnership, granting flexibility to both local officials and 
property owners to go where they need to go to mitigate fire 
danger.
    Areas where expanded partnerships may flourish also exist. 
State and local officials must have a proper authority to 
venture into private land. Likewise, private landowners must be 
empowered to protect their land when it abuts state or Federal 
property.
    And finally, the epidemic poses a serious challenge to 
Colorado, but it also poses a unique economic development 
opportunity. The blue-tinged wood from beetle-killed timber 
creates a desirable aesthetic. If it is harvested early enough, 
it may be used for a variety of products, including furniture. 
The timber may also be ground into pellets that can provide 
cheap, efficient, and green sources of energy, and biomass can 
be used for both large-scale and small-scale power production.
    We have done a lot to incentivize and foster this industry, 
but there is more to do. And we hope that we can work with you 
all in partnership.
    Thank you for your time today.
    [The prepared statement of Ms. Scanlan follows:]

Statement submitted for the record by Colorado State Senator Dan Gibbs 
          and Colorado State Representative Christine Scanlan

    Senator Gibbs' district encompasses lands affected by the Rocky 
Mountain Pine Beetle epidemic and is a Type II Wildland Firefighter 
with experience fighting fires in Colorado and California.
    Representative Scanlan is a long-time resident of the high country 
and has worked hard to help lands and communities affected by the 
Beetle infestation.
    Together, the two Colorado legislators have passed more than a 
dozen laws relating to the Mountain Pine Beetle Epidemic.
TESTIMONY
    The Rocky Mountain Pine Beetle epidemic is changing Colorado and 
the American west. This transformation is immediately apparent to 
anyone spending time in the Rocky Mountains. Even a cursory glance from 
a visitor emerging from the Eisenhower Tunnel heading west on I-70 
evinces reaction, acre upon acre of orange, red and brown stretch as 
far as the eye can see, a striking reminder of the permanent change our 
landscape, our ecology, and our communities are undergoing.
    Of the 2.2 million acres of lodgepole pine forest that extend from 
Wyoming to New Mexico, the Mountain Pine Beetle has already killed 1.5 
million, and current estimates indicate that every lodgepole pine 
forest in the state will be dead within a decade. The sweeping beetle-
kill and the specter of fire threatens Colorado's local communities, 
the region's drinking water, wildlife, landscape and recreation 
economies, and the country's food supply.
    In response, local, state and federal agencies as well as private 
businesses have joined together to address the growing devastated areas 
and the threats that they present. The State of Colorado has adopted a 
number of innovative strategies, including the creation of public-
private partnerships and cross-jurisdictional forest management 
techniques. But the cost of forest treatment is high, and the 
difficulty of disposing resulting woody material represents a major 
challenge.
    The beetle infestation requires immediate action, and more careful 
land management in the future. In the short term, the top priorities 
are to reduce the threat through prevention, and ensuring sufficient 
fire suppression resources are available when a fire does occur. Our 
long-term response will emphasize managing the next forest for greater 
diversity and resilience.
    In spite of the state's best efforts, resources are limited, and it 
is incumbent upon the federal government to act more aggressively to 
suppress and prevent fires, and to take advantage of a unique economic 
development opportunity by fostering the growing market for beetle-
killed timber.
    Specifically, we are asking for the following:
    <bullet>  Increased funding for local, state and federal officials 
to apply toward fire prevention and suppression.
    <bullet>  Passage of the FLAME Act to decouple fire prevention and 
suppression funding, and to continue the ``good neighbor'' policy that 
has been so effective.
    <bullet>  Follow Colorado's lead to introduce legislation that 
removes barriers to cross-jurisdictional cooperation and that 
encourages public-private collaboration.
    <bullet>  Foster the creation of new markets for beetle-impacted 
blue wood products and wood pellets for woody biomass.
THE THREATS
    Unfortunately, many dead tree stands pose grave threats to 
Colorado's growing mountain communities and vital assets. In 2008, 
within the five-county epicenter of the infestation:
    <bullet>  12 incorporated municipalities were within impacted 
forest, and another 11 adjacent to forest lands.
    <bullet>  28 incorporated municipalities that derive most of their 
drinking water from sources that flow through dead and dying forests.
    <bullet>  2,000 miles of roadways, including many sole evacuation 
routes, jeopardized by dead trees.
    <bullet>  1,500 miles of hiking and biking trails spanning three 
national forests that are in danger of closure this year.
    <bullet>  52 emergency communications sites at risk.
    <bullet>  The Colorado River, which supplies seven western states 
and major metropolitan areas including Denver, Las Vegas, Phoenix and 
Southern California with fresh drinking water.
    <bullet>  633 miles of electrical transmission lines and 1,300 
miles of electrical distribution lines--including major lines that feed 
power to the entire western United States--at-risk from falling trees 
and fire.
    Tens of millions of people across the west depend on the 
electricity that travels across impacted lands, and most everyone in 
the country depends on the water that flows downstream from Colorado, 
and the food that that water is used to grow. Let us make no mistake: 
the bark beetle epidemic poses an immediate threat to the United 
States' national security.
    The impact of a regional power and communications network failure 
resulting from fire would be catastrophic to the entire western United 
States. According to the Tri State Generation and Transmission 
Association, if just one dead lodgepole collapses on the wrong 
transformer or power line, it could cause a fire that initiates an 
uncontrolled cascading power outage in Colorado and neighboring states.
    According to Colorado State Forester Jeff Jahnke, the bark beetle 
affects more than 100 miles of WAPA, Tristate, Platte River Power 
Authority and Xcel transmission lines and an uncalculated number of 
smaller distribution lines. Electricity generation in western Colorado 
must cross many high-elevation areas to serve Front Range energy 
demands, and high-voltage transmission lines can be forced out of 
service by smoke or damaged from the extreme heat of wildfires. 
Shutting down transmission lines can threaten power in Denver and other 
Front Range communities, areas throughout Colorado, and neighboring 
states. More than 500 miles of high voltage transmission corridors--
WAPA has a over 350 in USFS Region 2 being addressed in the joint EIS 
Xcel and Tristate have at least another 150--in both Colorado and 
southern Wyoming can be affected. And the number of miles of lower 
voltage distribution lines serving Colorado mountain communities is 
even greater. A cascading power outage would, at the very least, cost 
billions of dollars to correct.
    The threat to our water is equally significant. The Colorado 
River's headwaters are located in Colorado, and an estimated 75 percent 
of the Colorado River's total flow originates in the state. The river's 
tributaries and transmountain diversions--which cut through thousands 
of bark beetle-infested areas--serve nearly two million people in 
Colorado, and tens of millions across the west. Access to the river, 
which provides millions of acre feet of fresh water annually for 
agriculture, recreation and drinking in 13 western states, could be 
crippled by a severe wildfire stemming from Colorado's tinder-dry 
lodgepoles. If the Colorado River became overburdened with refuse from 
a fire, the cost to the upper and lower basin states' recreation 
economies, and the country's agricultural system, is incalculable.
    A fire originating from beetle-killed forests would likely burn 
incredibly hot, increasing the potential for scorched earth. In turn, 
forest regeneration would take longer due to the destruction of organic 
matter, increased erosion and flood, and debris flows into our fresh 
water supplies--including the Colorado River--would greatly expand. 
This type of devastation is not unknown: the Hayman Fire, which burned 
more than 138,000 acres along the Front Range in 2002 caused millions 
of dollars in damage to Denver's water supply in particular, and 
Colorado's more generally. Indeed, cleanup efforts from the Hayman Fire 
requiring ``substantial expenditures'' continue to this day, according 
to the utility Denver Water.
    Moreover, the specter of danger posed to the west's fresh water 
supplies is far greater today than in 2002 when the Hayman Fire 
occurred due to the rise in dry and dead forestlands (2.2 million 
acres).
    Additionally, with expanded urbanization comes an unprecedented 
risk to people living in both rural and urban settings. Today more than 
one million people live within Colorado's Wildland Urban Interface 
(WUI). Local communities also face significant economic concerns, as 
the loss of Colorado's scenic landscapes and injury to the state's 
world-class ski resorts could eventually cause a decrease in all-
important tourism dollars.
    Put plainly, the bark beetle epidemic poses a very real threat to 
Colorado's local communities and economies, but also national food and 
water supplies, as well as our national security.
LOCAL SOLUTIONS
    Community strategies for living within disturbance-driven 
ecosystems such as the lodgepole pine forests of northern Colorado must 
address the reliability and long-term protection of assets critical to 
our way of life. Essentially, in such environments policy makers are 
required to become more flexible and innovative. At the state level, we 
have undertaken vigorous efforts to mitigate the threat with a number 
of unique collaborations between state and local government and private 
industry.
    Our creativity stems from necessity; Colorado possesses very 
limited resources to apply toward mitigating the infestation. As such, 
we have focused on passing enabling legislation to empower communities 
to write comprehensive and integrated fire preparedness plans; to 
improve information sharing between state, federal and local agencies; 
and to create incentives for private businesses that deforest impacted 
areas and utilize those resources.
    As the scale of the infestation has clarified, policymakers have 
been able to strategically target what were once disparate legislative 
efforts. For example, this past legislative session, we passed an 
aggressive agenda that originated in a special interim committee. The 
integrated legislative package not only emphasized mitigating the 
threat, but provided new solutions to assist local and federal 
officials partner more effectively, and to encourage private industry 
to take advantage of economic growth opportunities that may exist.
    The capstone of the General Assembly's legislative efforts was a 
sweeping piece of legislation making $3 million available for a series 
of initiatives to combat the epidemic. Moneys from the legislation will 
assist mountain and Front Range communities plan for forest health 
management activities by: addressing the population centers along the 
wildland-urban interface; expanding protection for Colorado's 
watersheds, local communities and vital infrastructure; and providing 
grants for market-based solutions to reduce the overall threat posed by 
wildfire.
    This new funding is critical, as we have demonstrated that even 
small state investments pay large dividends. Each state dollar receives 
a matching fund, so with just $1 million in state funding, we've been 
able to treat $5 - $6 million in forest land.
    Additional efforts included the following:
    <bullet>  We provided a 5-year exemption from business personal 
property taxes for qualified businesses that remove trees killed by 
bark beetles when they assist with forest restoration efforts on the 
affected land after the beetle-killed timber is removed. Also creates a 
fund to provide start-up money for new Colorado businesses that process 
and sell beetle-killed timber and products.
    <bullet>  We expanded the ability of counties to raise money to 
fight fires. Specifically, the bill removes the limit on property taxes 
that a county can collect--with voter approval--for forest fire 
fighting.
    <bullet>  We required the state forester to establish guidelines 
for Community Wildfire Protection Plans with input from state, local 
and federal government officials, and other interested parties.
    <bullet>  We streamlined and clarified the roles of state and local 
emergency personnel when fires occur, specifically allowing sheriffs to 
develop and update wildfire preparedness plans, and to specify what 
information should be included in a plan to be effective.
FEDERAL COLLABORATION:
    Colorado lawmakers are committed to fighting the fire threat and 
restoring our forests. However, the need has simply outpaced our 
financial resources.
    We are grateful to our Congressional delegation for taking the lead 
on this issue to develop new and exciting federal level solutions. For 
example, we are thrilled that the FLAME Act has already passed the 
House; recognizing the need to disentangle fire prevention from fire 
suppression is a huge step forward. We hope the FLAME Act passes the 
Senate in its current or similar form.
    Likewise, expanded funding over the past two fiscal years has 
improved our ability to prevent fires before they occur, and suppress 
fires when they happen. But far more is needed to fulfill our 
priorities.
    Last year, Rick Cables and the Regional Forester's Office estimated 
the cost of mitigating the bark beetle impact effectively at more than 
$200 million over three years. That includes money for threats to human 
life and safety posed by falling trees, and emergency and non-emergency 
hazard mitigation and infrastructure protection.
    We know that President Obama has included additional funding for 
both suppression and prevention in this year's budget. It is absolutely 
essential that these funds remain within the budget that is eventually 
passed by Congress, and that funds can be distributed in such a way 
that they reach the state and local officials who can properly apply 
them where they are most critically needed.
    By disentangling suppression and prevention, and expanding funding 
overall, we will be able to address our varied needs more effectively. 
For example, two-thirds of Colorado's fire protection districts are 
comprised of volunteer firefighters, and many lack adequate wildfire 
training. Likewise, despite our best efforts to create incentives and 
provide grants for drafting community wildfire prevention plans, many 
still have not written these very basic documents. Each activity 
requires a separate funding source.
    There are 22.6 million acres of forestland in Colorado. Of this 
acreage, nearly 70 percent is federally owned, including 49 percent 
managed by the U.S. Forest Service. Private landowners oversee an 
additional 28 percent. Fire knows no boundaries. So fire management 
actions must cross-jurisdictional to be effective.
    We hope the FLAME Act reaches President Obama's desk with an 
extension of the ``good neighbor'' policy. It is essential that we 
continue this basic policy of partnership, granting flexibility to both 
local officials and property owners to go where they need to go to 
mitigate fire danger.
    Areas where expanded partnerships may flourish also exist, but 
state and local officials must have the appropriate authority to 
venture onto private land when necessary to squelch wild fires. 
Likewise, and within reason, private landowners must be empowered to 
protect their private land when it abuts state or federal property.
    Finally, while the epidemic poses a serious challenge to Colorado, 
it also poses a unique economic development opportunity. The blue-
tinged wood from beetle-killed timber creates a desirable aesthetic 
effect. If harvested early enough, wood from beetle-killed trees may be 
used for a variety of wood products, including furniture. The timber 
can also be ground into pellets that can provide a cheap, efficient, 
and green source of energy. Biomass can be used for both large-scale 
and small-scale power production.
    Colorado has passed various laws creating incentives to help foster 
this industry. However, we believe that local timber harvesting 
contractors and wood processing businesses could still better help with 
management solutions if they had a long term guarantee of a viable 
market for their products. Additionally, these huge swaths of timber 
will only be viable for a discrete period of time, as nature and rot 
eventually take their toll on the integrity of the wood.
    We would encourage Congress to create a permanent and viable market 
by continuing and expanding federal incentives for woody biomass, and 
creating a new incentive for other beetle-killed wood products.
CONCLUSION:
    While we have undertaken vigorous efforts to mitigate the threat 
with limited resources through a number of unique collaborations 
between state and local government and private industry, we are not 
able to address the infestation adequately without further help.
    It is now incumbent upon the federal government to act.
                                 ______
                                 
    Mrs. Napolitano. Thank you very much. Mr. Rich, 
Commissioner of Jackson County.

STATEMENT OF JOHN RICH, COMMISSIONER, JACKSON COUNTY, NORTHWEST 
            COUNCIL OF GOVERNMENTS, WALDEN, COLORADO

    Mr. Rich. Well, thank you for allowing me to come here. I 
feel that I am really out of my league, from the little county 
that I live in of one person per square mile.
    I don't speak as eloquent as I would like to, and I wish 
you to kind of bear with me with that. But don't ever question 
the passion that burns in my heart for the land that I live on 
and the United States of America.
    We live in a small community. There is kind of a mission 
statement that some of the oldtimers have. They hope for the 
best, they expect the worst, and they prepare for the 
impossible. That is what my grandfather taught me.
    We can't stop the beetles, but we can get an economic use 
out of the timber. We can cut some fire control so the 
catastrophic fire will not kill us, and we can prepare for the 
future forests.
    The threats to my community--it can bankrupt Jackson 
County. A catastrophic fire can bankrupt it. And you have heard 
what it will do to the water, the power lines, the air quality. 
There is a little local saying that the four-letter word with S 
rolls downhill.
    I live on the Continental Divide, and everything is down. 
So below me took up when we started having problems, and we do 
have problems in Jackson County.
    The one failure that we have is a failure to move. History 
shows that the little guy in Rome fiddled while it burned. I 
don't want to hear the sound of music; I want to hear the sound 
of chainsaws. We need to get moving on it.
    Solutions? You can look at Jackson County for some 
solutions. Most of our private people who have timber have went 
on there, and cut it and thinned it, and done what they needed 
to do.
    We have most of our area covered with CWPPs, which is 
community-wide protection plans. They are trying to make their 
place firewise. We have a pellet mill that came in without 
government help. Unbelievable. And then we have a small 
sawmill.
    But we need some more help. We need a biomass. A biomass 
making electricity in Jackson County would be a godsend. It 
would solve a lot of problems. It would get rid of the beetle-
killed timber.
    When that timber falls like jackstraws, the squirrel can go 
under, the crow can go over the top, but the rest of us are 
going to have a hard time moving that. Then when it burns, it 
will sterilize the soil.
    We need a biomass generating electricity right in Jackson 
County, or right near the timber. They tell me that we need 
energy. We have grids running through there. Local jobs. We 
just need a little more help. And we need to prove that we can 
have a reliable source; the businesses that invest $10 million 
or $12 million can be assured that they can pay their mortgages 
off. So a lot of our people are private for our pellet mill. 
That is what he worries about, he is buying timber off of 
private, and private has supplied it. But he worries about a 
reliable source.
    And just that this is a horrendous problem, it seems to me. 
And we just need to ask that God would bless us a little bit in 
our endeavors, too.
    And thank you again for listening to an old dog from the 
mountains.
    [The prepared statement of Mr. Rich follows:]

  Statement of Judge John Rich, Commissioner, Jackson County, Colorado

    Chairman Grijalva and Chairwoman Napolitano and members of the 
House Sub-Committees on National Parks, Forests and Public Lands and 
Water and Power, thank you for inviting me to present testimony to you 
today.
    My name is John Rich and I live in unincorporated Jackson County, 
Colorado. Thank you for inviting me to come to Washington, D.C. to tell 
you about the impacts facing my family, my neighbors, and my community 
resulting from the bark beetle epidemic on the Routt National Forest. 
But, I did not come to talk only about impacts, but to also offer 
common sense federal actions that can positively address the deplorable 
situation.
    I am here today wearing many hats. First of all, I am a husband, 
father, and grandfather, working and caring for the same cattle ranch 
as my Grandfather who came into the valley in 1883. I am a Jackson 
County Commissioner in my second term of office. I also own a small 
propane delivery business and drive a school bus when needed. I am an 
emergency medical technician and serve as the director of the local 
hospital district. And, I am the municipal judge for Walden, Colorado, 
the only incorporated municipality in Jackson County. I am here today 
also representing the Northwest Colorado Council of Governments as a 
member of the executive board and the Colorado Bark Beetle Cooperative 
as its county government representative.
    In order to give you a glimpse of where I come from, please allow 
me to tell you a little about the high mountain valley that I call 
home. Jackson County comprises a large mountain valley in northern 
Colorado called North Park. In Colorado, mountain valleys are known as 
parks. North Park is surrounded by high mountain ranges with the Park 
Range to the west, the Rabbit Ears and the Never Summer Mountains to 
the south and the Medicine Bow Range to the east. The Colorado-Wyoming 
state line is the northern boundary of Jackson County. The elevation 
ranges from 7,800 to 12,953 feet above sea level. North Park is the 
headwaters of the North Platte River which flows northward into Wyoming 
making Jackson County the only county in Colorado on the North Slope of 
the state. The largest land owners in Jackson County are the people of 
the United States with their lands managed by several federal agencies; 
the USDA Forest Service, the Bureau of Land Management, and the U.S. 
Fish and Wildlife Service. Three Congressionally designated Wilderness 
Areas are located in Jackson County. North Park has a population of 
1,476 people spread over 1,621 square miles. Jackson County is the 
third least populated county in Colorado, but its people are hard 
working rural folks who live there because they want to, not because 
they have to.
    Although the mountain pine bark beetle is always present in the 
Lodgepole pine forests of North Park, the current outbreak that has 
infected over two million acres of mostly federal forests in northern 
Colorado began in earnest in 2000. Some areas of the Routt National 
Forest in Jackson County are experiencing 95% mortality of mature 
Lodgepole pine. I am not here today to point a finger of blame, but 
only to say that a combination of federal and state policies, changing 
social values, economics, and nature itself have all contributed to the 
dire situation we currently face. Lodgepole pine is a fire dependent, 
stand replacement species, which simply means that a forest of 
Lodgepole pine tends to seed, grow, mature and die at relatively the 
same time. In Colorado, Lodgepole pine matures around 100 years of age 
and the health of the forest begins to decline around 120 years of age, 
they are pretty well dead by 140 years of age, and the cycle begins 
anew. This is precisely the current situation of the Lodgepole pine 
forests in northern Colorado. Insects, disease and fire are nature's 
way of renewing a Lodgepole pine forest, while prescriptive thinning, 
logging, and prescribed fire are the human ways of doing what nature 
does. Through a combination of decades of aggressive fire prevention 
and control, disallowing timbering activities in much of the national 
forests, and the resulting economic collapse of the wood products 
industry in much of Colorado, we are now reaping what we have sown.
    If this were a totally natural cycle with no human presence on the 
land, then I would not be here today to talk about this because it 
would not be a problem. But the fact is that humans, beginning with my 
grandfather and his contemporaries made permanent settlements in North 
Park. Today, human communities and all of the appurtenances that 
provide the standard of living that we Americans have come to depend 
upon are located adjacent to and within the forests that are dying. On 
a regional basis, in the area covered by Northwest Colorado Council of 
Governments, here are some of the facts:
     1.  Nearly 2,000,000 acres of Colorado's high elevation Lodgepole 
pine forests have been infected by the Mountain Pine Beetle.
     2.  Over seventy percent of those forests are owned by the federal 
government and are managed by the USDA Forest Service, the Bureau of 
Land Management, U.S. Fish and Wildlife Service, and the National Park 
Service.
     3.  Twelve incorporated municipalities are located within the dead 
and dying forest and eleven more are adjacent to the forest.
     4.  Twenty-eight incorporated municipalities derive their primary 
source of drinking water from creeks flowing through the dead and dying 
forests.
     5.  Seven thousand acres in Summit County and Grand County need 
treatment to protect Denver Water's supply system.
     6.  Two thousand miles of roadways, many that would be utilized in 
evacuation scenarios are in jeopardy due to dead standing trees in the 
right of way.
     7.  One thousand five hundred miles of recreational trails on 
three national forests are in jeopardy of closure due to trees being 
toppled by the wind in the dead Lodgepole pine forests in which they 
are located.
     8.  Twenty-one thousand four hundred fifty-five acres of national 
forest developed recreation sites, not including ski areas are in 
jeopardy of closure due to falling tree hazards.
     9.  More than two thousand miles of national forest grazing 
fences, which are the responsibility of the rancher permittee, are in 
jeopardy of damage due to falling trees.
    10.  Fifty-two emergency communications sites are in jeopardy.
    11.  Six hundred thirty-three miles of electrical transmission 
lines are in jeopardy of falling trees and are not survivable in a 
wildfire.
    12.  One thousand three hundred fourteen miles of electrical 
distribution lines are in jeopardy of falling trees and are not 
survivable in a wildfire.
    13.  Water is supplied to the major Western metropolitan areas of 
the Denver Front Range, Las Vegas, Phoenix, and Southern California 
from the Colorado River which rises and flows through the dead and 
dying forest.
    14.  Major electrical transmission lines feeding the Western Grid, 
serving the entire West run directly through the heart of these same 
dying and dead forests.
    15.  These water supply systems and electrical transmission lines 
are also keys to maintaining the security of millions of Americans in 
the homeland.
    In light of the reality of the statistics, the Colorado Bark Beetle 
Cooperative, a place based, multi-stakeholder collaborative group in 
its fourth year of operation has listed its top objectives as:
    <bullet>  Protection of human life.
    <bullet>  Protection of public infrastructure.
    <bullet>  Protection of critical water supplies.
    <bullet>  Development of communities that are resilient and 
adaptable to disturbance driven ecosystems.
    Former Colorado Senator and now Secretary of Interior Ken Salazar 
has termed the bark beetle outbreak the ``Katrina of the West'' due to 
the gravity of the situation and of its potential to severely disrupt 
the social and economic systems of the West.
    Although the magnitude of the bark beetle outbreak can be viewed as 
overwhelming, especially in light of the serious economic situation 
facing the nation, I retain a sense of optimism seen through these old 
cowboy's eyes. It seems to me and many of my Colorado colleagues that 
there are some common sense actions that can be taken to positively 
address the situation. Please allow me to share some of them with you.
    1.  The intent of the National Environmental Policy Act is to make 
certain that sufficient analysis and public consideration is given to 
proposed actions on federal lands before decisions are made. As a 
locally elected official I am painfully aware of the bane of unintended 
consequences of making decisions without adequate data or public 
review, but I am also aware of the harm that can occur through inaction 
of decision makers whose hands may be tied for lack of funding or 
expertise. Two things need to be applied in this situation: 1) Federal 
agencies responsible for the application of NEPA need adequate funding 
and qualified personnel to do the required analysis, and 2) Provisions 
in the Healthy Forest Restoration Act requiring the analysis of only 
the proposed action alternative and the no action alternative in 
qualified projects needs to be aggressively utilized.
    2.  The Colorado Good Neighbor Program, re-authorized in the 2005 
Interior Appropriations Act, has been successful in creating 
``boundary-less management'' along national forest and private lands 
boundaries. Since the pine bark beetle does not respect property 
boundaries, we need to extend and expand the use of this valuable 
management tool that allows for seamless actions between the U.S. 
Forest Service, the Bureau of Land Management, and the Colorado State 
Forest Service in order to leverage scarce resources. The Good Neighbor 
Program is scheduled to expire in September of this year.
    3.  The Federal Land Assistance Management and Enhancement Act, 
better known as the FLAME Act (H.R. 1404) needs to become law. Thank 
you for passing the FLAME Act in the House of Representatives last 
March and I urge you to work for its passage in the Senate. The FLAME 
Act is absolutely necessary to protect the budgets of crucial non-fire 
suppression programs in the U.S. Forest Service. One of the Forest 
Service programs that is in jeopardy of losing funding due to the 
increasing costs of fire suppression is State and Private Cooperative 
Forestry that is responsible for funding significant portions of state 
forestry agencies, including the Colorado State Forest Service. The 
efforts of the Colorado State Forest Service are essential in 
addressing the bark beetle outbreak on private lands adjacent to 
federal lands.
    4.  As the American Climate and Energy Security Act (H.R. 2454) is 
currently drafted, woody biomass from federal lands is disqualified 
from incentives designed to increase renewable energy production. 
Utilizing woody biomass in the form of billions of beetle-killed 
Lodgepole pine on national forests accomplishes three things:
         a.  It provides a valuable source of renewable energy.
         b.  It reduces hazardous fuel loadings on federal lands.
         c.  It creates jobs.
          I personally worked with the Rocky Mountain Pellet Company, 
        Inc. to locate a wood pellet mill in North Park. The company 
        produces bagged wood pellets for retail home stove consumption 
        as an alternative fuel source to natural gas, electricity, 
        propane, and fuel oil. The pellet mill is currently utilizing 
        dead Lodgepole pine harvested from private lands, but will need 
        to expand to federal beetle-killed pine to meet growing 
        national and international demand for the high quality 
        affordable wood pellet fuel. The mill generated forty-six badly 
        needed jobs in North Park, making them a primary employer in 
        our small rural community. The success of this sustainable mill 
        is crucial to our local economy and the incentives provided in 
        H.R. 2454 if extended to dead federal timber would go a long 
        ways in securing its future. The best way to support a 
        sustainable wood products industry in Colorado is for the 
        federal land management agencies to be able to provide a long-
        term, reliable supply of timber so small business owners can 
        develop realistic business plans.
    5.  Currently, the operation of Colorado's last large modern 
sawmill is in jeopardy due to severe restrictions on cash flow. The 
company purchased federal timber sales before the economic recession 
and had to secure them with cash. The U.S. Forest Service is currently 
holding more than $2,000,000 of the company's cash, creating a severe 
cash flow shortage to the company in light of the down-turn in housing 
construction. Allowing the company to secure those timber sales with 
bonds, freeing up the cash seems to make sense in light of our nation's 
current growing unemployment situation. We could perhaps learn from 
those who went before us. During the first part of the Twentieth 
Century farmers were paid for their costs in producing grain even 
though markets would not support excess grain. Not only did the federal 
government pay the farmers to keep producing the grain, they also built 
government storage facilities to store it until the market could 
utilize it. It seems to me that a similar program to pay the loggers 
and saw mills the costs of producing wood products, even though the 
current market cannot utilize the surplus makes sense. We know that one 
day the housing markets will recover and there will be a demand for 
lumber. If we do not assist the wood products industry now, the beetle-
killed Lodgepole pines will become useless as lumber and we may well 
lose our last large sawmill in Colorado.
    6.  Federal contracting is a very complicated process that often 
dissuades smaller companies from competing in the system, and the terms 
of the contracts are not long enough for a small business to take the 
contract to the bank to borrow funds to purchase necessary equipment. 
There is a type of contract that makes sense and it is called a 
Stewardship Contract that is multi-year in duration and will exchange 
goods for services. However, the requirements placed on the U.S. Forest 
Service to reserve a ``cancellation ceiling'' to cover contract costs 
in case of government default is hampering the agency from moving 
forward with increasing number of Stewardships Contracts due to the 
fact that the agency does not have excess budget to place cash in a 
reserve account. By relaxing the requirements for the cancellation 
ceiling, more Stewardship Contracts could be awarded to small companies 
to do work on the national forests while preserving and creating jobs.
    7.  My part of Colorado is known as the Mother of Rivers. The high 
Rocky Mountains of Colorado give birth to major rivers including the 
Colorado, the North and South Platte, the Arkansas, the Rio Grande, the 
San Juan and the Yampa. The birthplaces of these river systems that 
nourish so much of the American West are in the beetle-killed Lodgepole 
pine forests. When a watershed burns, the ability of the soil to hold 
rainfall and snowmelt is severely diminished resulting in floods and 
mud and the silting up of water reservoirs and clogging water treatment 
facilities. It is impossible to fire proof watersheds, but if we are 
diligent and wise we can take actions to control the sedimentation of 
our built water facilities. I encourage you to:
         a.  Approve the use of Federal Emergency Management Agency 
        pre-disaster mitigation funds to pay for the environmental 
        assessment, NEPA analysis, and pre-engineering of appropriate 
        sediment control structures at strategic locations above water 
        impoundment, transmission and treatment structures. The 
        structures would not be built unless a fire burned the 
        watershed. Then, if the watershed is burned, the structures 
        could be immediately built while the ground was still warm to 
        control the sediment that will eventually flow.
    8.  Finally, the electrical transmission and distribution system is 
currently at great risk as the lines run though the heart of the dead 
and dying forests of Colorado. The U.S. Forest Service has committed 
$400,000 to expediting the NEPA analysis in northern Colorado required 
before work can be done reducing hazardous fuels and falling tree 
hazards, but time is of the essence as trees have already begun to fall 
and the wild fire season approaches. The electrical providers have 
funds available to do the work, but need the NEPA approvals to 
commence. This would also be a source of needed employment for persons 
willing to do the hard work.
    Once again I want to thank you for inviting me to come to 
Washington, D.C. to talk with you. I know that federal rules and 
regulations are very complicated things based on the consideration of 
many factors, but one thing is certain--the beetles do not care about 
our human rules and regulations. As they continue to do what nature 
designed them to so efficiently do, the inevitable looms on the horizon 
like a gathering storm. Shame on us if we do not heed the storm clouds 
and fail to take the actions necessary to adequately prepare.
                                 ______
                                 
    Mrs. Napolitano. You are very welcome. And I found your 
testimony very entertaining, and very helpful. You are welcome, 
sir.
    Mr. Sloan Shoemaker, Executive Director in the Wilderness 
Workshop.

 STATEMENT OF SLOAN SHOEMAKER, EXECUTIVE DIRECTOR, WILDERNESS 
                 WORKSHOP, CARBONDALE, COLORADO

    Mr. Shoemaker. Hi. Thank you for the opportunity to 
testify, Chairwoman Napolitano, Chairman Grijalva.
    I represent the Wildlife, I am the director of a small 
conservation organization located in the White River National 
Forest, which is part of the epicenter of the bark beetle 
outbreak. And I represent the conservation community on the 
Colorado Bark Beetle Collaborative.
    Colorado is pretty unique, I think, in terms of getting 
diverse stakeholder groups together to hammer through, at the 
local level, some consensus on what do we do about this, this 
issue.
    Well, at least the conservation community defines the 
problem. It is not an ecological problem. If this outbreak 
would have occurred 150 years ago, we would be looking at the 
regenerated forest. It would have inconvenienced the Indians, 
but life would have moved on.
    But now the problem is we live there, we occupy these 
forests. And it is clearly a very dire socioeconomic problem. 
And we are as anxious as Commissioner Rich to hear chainsaws 
singing in the forest. It is just a matter of where exactly, 
and for what reasons. And it is a matter of getting, using 
those very limited resources that everyone has remarked on in a 
very strategic manner to treat the right acres for the right 
reasons, to have the right outcomes.
    And so that is why we are at the table collaborating with 
all the different stakeholders. And the Bark Beetle Cooperative 
or the Collaborative has identified some priorities to 
protecting life, property, and critical community 
infrastructure.
    Protecting life is like making sure that firefighters 
aren't put in harm's way to have to do the impossible. 
Protecting property is clear. There is a large scientific body 
of literature that tells us how to do that; that the factors 
that affect how structures burn occur within the 40 meters 
immediately adjacent to the structure itself. So we know how to 
do that.
    Critical community infrastructure, water supplies, 
communication sites, roadways, all those things, those are 
protected at, again, within those 40 meters immediately 
adjacent to that piece of, that infrastructure that has been 
identified.
    And these are the priorities of the collaborative, which 
includes the BLM, Forest Service, State Forest Service, local 
governments, councils of governments, conservation interests, 
recreation interests, certainly with WAPA. We support the 
notion of a very strategic application of our limited resources 
to ensure that our power lines, our delivery system, our 
transition system is protected.
    And an analysis needs to be done to identify exactly what 
those threatening fuels are. They are not uniform across the 
landscape. There are places where it crosses over sage, so it 
doesn't do any good to do a uniform clearcut across an entire 
swath.
    But there are places where you can identify very 
threatening fuels, and we must do that. But it takes resources 
to do that.
    I would argue that, that expedited process is 
collaboration. That sometimes we have to go slow to go fast. 
And that is what we are doing in the Bark Beetle Collaborative, 
is that we are bringing stakeholders together, we are coming to 
consensus, we are identifying priorities. And once we have that 
buy-in, that social license that Rick referred to, then 
projects flow out the back side of that process.
    And that is what is happening in some account. They are 
treating thousands of acres at that wildland-urban interface to 
protect those communities, to protect those water supplies, 
protect that infrastructure. That has been our experience. And 
we have had a pretty positive experience with that in Colorado.
    I would suggest that we don't forget that bark beetles are 
part of the forest dynamic in Colorado. The community of 
Glenwood Springs has had two devastating fires blow through 
there, with loss of life and homes. There wasn't a bark beetle 
or a lodgepole pine tree in sight. In fact, it was burning 
mostly through the shrubland community of Gambel Oak and 
Mountain Serviceberry. And there is not an ounce of commercial 
value in any of those things, but they are very threatening 
types of vegetation clearly, from our experience.
    So what can the feds do? We need resources on the ground. 
We would like to see those resources applied to where we have 
created this sort of agreement at the local level, where we 
have come to consensus on what those priority needs and those 
resources are.
    And encourage you to please, if one size does not fit all, 
different ecosystems have different requirements, different 
communities have different requirements. Just tie those funds 
to local consensus-building. Because we think the most durable 
solutions are the ones we can agree to.
    Thank you.
    [The prepared statement of Mr. Shoemaker follows:]

 Statement of Sloan Shoemaker, Executive Director, Wilderness Workshop

Introduction
    Thank you for the opportunity to bring the on-the-ground 
perspective to DC.
    My name is Sloan Shoemaker and I am the executive director of the 
Wilderness Workshop, a grassroots, place based conservation 
organization founded in 1964. Wilderness Workshop self-describes as the 
conservation watchdog of the White River National Forest.
    The White River National Forest is the nation's most visited 
national forest and one of the crown jewels of the National Forest 
System. The White River's 2.3 million acres contain a dizzying 
diversity of ecosystems and attractions, from world class ski resorts 
like Aspen and Vail to a dozen or so of Colorado's 14,000 ft peaks to 
the highest concentrations of caves in Colorado to what's reputedly the 
nation's largest elk herd affording world class hunting opportunities. 
The White River is considered the Cradle of Wilderness because it was 
here that the young landscape architect Arthur Carhart, sent to the 
survey Trappers Lake area for vacation cabins, first articulated the 
notion that some landscapes are too valuable in their wild state to 
develop. From this seed grew the 750,000 acres of congressionally 
designated wilderness now on the forest, wilderness containing such 
renowned features as the Mount of the Holy Cross and the twin peaks of 
the Maroon Bells.
    These superlatives are not without their costs. The WRNF 
exemplifies the New West as amenity refugees relocate from their former 
lives to the resorts and communities surrounding the Forest, attracted 
to the extraordinary recreational opportunities and quality of life 
made possible by the Forest. This New West demographic, coupled with 
the easy interstate access to the Denver metropolitan area's 3 million 
people and the high volume airports servicing the resort communities, 
recreation management on the WRNF poses a huge challenge.
    In addition, the WRNF provides summer grazing allotments for dozens 
of ranches inhabiting the lowlands around the forest, ranches that 
contain the critical winter range for the vast herds of mule deer and 
elk that summer on the Forest and provide unparalleled hunting 
opportunities in the fall. The WRNF also overlies the eastern edge of 
the Piceance Basin, a natural gas sweet spot that's seen unprecedented 
rates of drilling in the last 8 years. Gas leasing and development is a 
complex resource management issue in its own right, but made even more 
difficult by the fact that much of the WRNF's gas potential lies in 
roadless areas, grazing allotments, or trophy hunting range. Further 
complicating White River forest management is the fact that it is the 
partial epicenter of the mountain pine beetle outbreak in northern 
Colorado, which brings us all together today.
    I cite this inventory of forest management challenges to give you 
some background on the breadth and complexity of resource management 
issues my organization has been deeply involved with for the last 45 
years.
Coming to Terms with the Beetle
    The mountain pine beetle outbreak is not an ecological problem, but 
it is a socio-economic one. One hundred and fifty years ago, the 
mountain pine beetle outbreak would have run its course as it has for 
millennia without furrowing a brow. But over the ensuing 100 years, 
humans have taken up residence in these mountains and now there are 
densely populated communities embedded in these disturbance dependent 
ecosystems. Consequently, the pine beetle epidemic has put many socio-
economic values at stake.
    Interestingly, the beetle outbreak has created a teachable moment. 
Whereas before, residents old and new had taken the picture-window view 
for granted, assuming it'd never change, communities are now learning 
that, not only are forest ecosystems not static, they are subject to 
rather dramatic and rapid change that we have no control over. That 
lesson hasn't come easily or painlessly.
    As the beetle epidemic has expanded from community to community, I 
have observed a consistent pattern that closely resembles the classic 
stages of grieving. At first, people simply deny that it could happen 
to them. Then, when the evidence is too great to further ignore, they 
get angry because they love the forest the way it was and don't want it 
to change. Next comes bargaining when people rather heroically but 
desperately devise strategies to stop the beetle, saying we're not 
going to let what happened to the community next door happen to us. In 
the end, though, comes resignation and acceptance that there are forces 
at work larger than us and all we are left with is to narrow our focus 
on identifying what little we can actually do.
Working Together
    What's become crystal clear is that none of us can afford to act 
alone, but that together we can get a whole lot done. This too has 
presented us with a teachable moment as diverse stakeholders, normally 
inclined to operate from our own narrow interests, have learned how to 
sit together at the collaborative table working towards mutually 
beneficial goals.
    I am the Colorado conservation community's representative to the 
Colorado Bark Beetle Cooperative (CBBC). CBBC started as an 
intergovernmental group for sharing information on how individual 
member organizations were approaching the bark beetle issue. Over time 
it became apparent that a more coordinated response was needed and that 
the tent must be enlarged to bring in the spectrum of stakeholders that 
would have to be dealt with eventually anyway. It took us awhile to 
learn to share the sandbox and trust each other. Perhaps our biggest 
lesson was that sometimes you have to go slow to go fast and, at times, 
it had to be learned the hard way. In everyone's understandable rush to 
get chainsaws running, little misunderstandings or oversights 
inevitably grow into broad disagreements and things grind to a halt. On 
the other hand, taking the time to carefully build trust and consensus 
pays off, greasing the skids for projects in those zones of agreement 
to hit the ground running. Collaboration and consensus building 
provides the social license to move forward expeditiously--it's the 
ultimate process streamlining.
    Another important benefit derived from the hard work of hammering 
out the zone of agreement is that it creates a very safe and attractive 
place for decision makers and politicians to focus their attention and 
resources. It's hard to argue when the enviros and the timber industry, 
the Forest Service and local government, sportsmen, recreationists, and 
trade associations all agree on what's to be done. As a result, the 
CBBC has been extremely successful in capturing the attention of the 
Colorado delegation who is unified in its legislative efforts to direct 
relief to the bark beetle affected region.
Prioritizing
    As you've heard today, the scale of this outbreak is huge. 
Conversely though, the resources available to mitigate its effects are 
quite limited and must be applied very judiciously and strategically 
where we get the biggest bang for the buck. We simply can't afford to 
waste precious resources for narrow, marginal or dubious gain. The 
CBBC's collaborative setting is the ideal venue for diverse 
stakeholders to come to consensus on priorities, a process that pretty 
quickly cuts through the rhetoric and grandstanding. CBBC's priorities 
are the protection of life, property and critical community 
infrastructure--priorities that transcend this particular disturbance 
event and strike right at the heart of what it means to sustain 
mountain communities in the face of disturbance dependent forest 
ecosystems. Ultimately, our goal is to ensure that, as forest 
disturbances come and go (fire, bug epidemics, floods, blowdowns, etc), 
mountain communities remain resilient, insulated from their destructive 
and disruptive effects. We all recognize that we can't, nor should we, 
control forest ecosystems. But what we can control is how badly our 
communities are impacted by them. What does this mean in practice?
    Protecting lives means things like:
    <bullet>  Removing hazard trees that could fall directly on people
    <bullet>  Clearing hazard trees from transportation corridors so 
emergency access and egress isn't impaired
    <bullet>  Protecting homeowners and fire fighters by creating 
defensible space around homes because no fire fighters life is worth 
risking to protect an indefensible home
    Protecting property means:
    <bullet>  Conducting public education to help homeowners 
participate in their own rescue by implementing appropriate measures to 
keep their homes from burning, like:
      <all>  Structures must be constructed of ignition resistant 
materials...shake roofs guarantee home ignition and loss
      <all>  Reduce fuels creating defensible space within the 40 
meters immediately surrounding the structure
      <all>  Scrutinize residences for and eliminate ember traps like 
needle filled gutters, unscreened roof vents, wood piles under 
overhanging porches
      <all>  Ensure safe access and emergency egress so that 
firefighters can get in and get out in a hurry if they need to
    Protecting critical community infrastructure means:
    <bullet>  Clear hazard trees from electrical transmission and 
distribution rights of way
      <all>  Trees can fall on electrical lines causing fires or arcing 
and blackouts
    <bullet>  Assess wildfire risks along and adjacent to electrical 
transmission and distribution ROWs and conduct strategic fuels 
treatments to eliminate the threat of dense smoke caused arcing or heat 
damage to lines and towers
    <bullet>  Protect water supplies by;
      <all>  removing fuels within the immediate vicinity of water 
supply delivery system to prevent direct damage from hazard tree fall 
or direct heat damage from fire
      <all>  conducting watershed risks assessments that identify where 
mass land wasting events are most likely to occur post-fire
      <all>  pre-engineering and pre-permitting strategically placed 
erosion catchment structures as informed by the watershed risk 
assessment--the next fire's location can't be predicted (nor are there 
enough resources to construct catchments everywhere) but these 
catchments are intended to be shelf-ready for immediate implementation 
the day after the fire passes through
      <all>  strategically fell and leave trees on the contour across 
slopes where sensitive, erosive soils have been identified to reduce 
fire severity and to pre-position surface water decelerators
    <bullet>  Protect economic infrastructure
      <all>  Remove hazard trees from public land campgrounds, trails, 
and roads
      <all>  Mitigate beetle kill impacts to ski areas by removing 
hazard trees and initiating early establishment of critical forest 
cover between ski runs by replanting trees
      <all>  Remove hazard trees from recreation sites to protect lives 
as well as to keep them open and generating tourist traffic
      <all>  Reduce hazard tree, fuel, and erosion threats to 
agricultural irrigation systems; many ranches have irrigation ditches 
that originate in or travel through beetle affected forests
    <bullet>  Protect transportation system
      <all>  Remove trees within a tree height of community road 
networks; even light winds will blow down beetle-killed lodgepole, 
quickly cutting off emergency access or egress
      <all>  Reduce fuel loads adjacent to roadways to reduce threat 
that fire will shut off access/egress or will directly injure traveling 
public or emergency services personnel.
    The abundance of so many red and dead trees also makes apparent the 
ever-present of risk of wildfire. I emphasize ever-present because 
lodgepole pine is a fire dependent species. It co-evolved with fire 
which is necessary sustain its presence across the landscape. This 
ecological reality is often lost upon newcomers to these mountains who 
misunderstand fire as an alien invader that must be eliminated. Green 
forests arguably pose a risk of fire equal to and, at times, even 
greater than that posed by the beetle-killed forest. If there is one 
lesson painfully clear from the last century, it's that fire 
suppression and attempts to exclude fire from forest ecosystems 
backfires, simply putting off the problem until it returns with larger, 
more severe and more damaging fires than would otherwise have been 
experienced. Protecting communities from wildfire begins out the back 
door, not in the back country. The most, if not only, effective 
measures are those prescribed by USFS Fire Scientist Dr. Jack Cohen 
(see http://www.fs.fed.us/rm/publications/titles/videos/wildfire.html 
and http://www.fs.fed.us/rm/publications/titles/videos/
protecting.html). Dr. Cohen's groundbreaking research has proven that 
the factors influencing survivability of homes and structures are 
within the 40 meters immediately surrounding that structure. Because 
burning embers or firebrands can launch as much as 2 miles from an 
active flame front, showering communities and homes with a hail of 
burning material, it's generally ember triggered fires that cause home 
loss. If homes are Firewise, meaning built of ignition resistant 
materials and surrounded by defensible space with discontinuous fuels, 
they have the highest likelihood of survival.
Resources
    As communities grapple with where to start, it's becoming 
immediately apparent that the there is way more work to do than 
resources to get it done. As we speak, trees are blowing down across 
county roads in Jackson, Routt, and Grand Counties faster than limited 
crews can keep up with. Throwing money at the problem would certainly 
help get equipment and manpower on the ground. But, even if we could 
get experienced sawyers and enough saws on site, we couldn't do 
anything with the trees due to a lack of timber haulers. If a flood of 
haulers magically appeared, there's no place to take the wood. 
Colorado's wood products industry is bare bones and, alternatively, 
there simply aren't enough piling yards available to accommodate the 
volume of material. And with high fuel prices, the hauling distance to 
existing mills is simply uneconomic in many instances.
    For the first time in decades, Coloradoans are interested in 
bringing back the timber industry to help us deal with all the wood 
coming out of beetle-killed forests. The trouble is, there will be a 
large pulse of wood flowing off the forests over the next 5-10 years as 
communities implement their priority projects but wood volume will 
taper off fairly steeply on the back side of that. The concern is that 
a reinvigorated timber industry be appropriately scaled and flexible to 
deal with the near term pulse of wood yet not need to maintain the same 
level of supply over the long term. Simply put, Coloradoans want a 
tactical timber industry that can scale up for the near term and scale 
down as supply wanes.
    We all agree that a reinvigorated wood product industry is an 
important part of the solution. However, there's a persistent and 
vexing barrier to the wood product industry's reestablishment. No one 
knows what the long term, guaranteed wood supply is nor where precisely 
it's located. Given 2 million acres of beetle kill, it may seem a 
trivial point to get high centered on. However, not all those acres are 
available or appropriate for harvest. Some are statutorily off limits 
like congressionally designated wilderness and inventoried roadless 
areas. There are environmental constraints like steep slopes and 
wetlands. Finally there are less tangible but equally important 
constraints imposed by what the public is willing to tolerate. 
Responsible investors want to know how big is their social license to 
work in the woods because business plans can quickly run aground when 
they exceed their social license. Yet, no one has performed the type of 
comprehensive, state wide assessment of long term wood supply that 
investors can take to the bank as collateral for loans. And without it, 
banks are loath to invest in uncertain ventures based on speculative 
and unsubstantiated assertions of long term wood supply.
    We'd all like to see this nut cracked as soon as possible so we can 
get on with the important business of mitigating the bark beetles 
effects. Colorado's conservation community is as anxious as the next 
guy to hear chainsaws in the woods--we just want to make sure that 
they're treating the right acres. Because durable solutions are rooted 
in consensus, we are prepared to continue collaborating with all 
stakeholders to collectively identify what those right acres are. After 
all, I live, work, play and am raising a family in the midst of this 
too.
Future Forests
    I have appended to my testimony an abridged version the state of 
the art, consensus science statement on our current understanding of 
mountain pine beetle ecology and fire behavior. It's a remarkable and 
ambitious document in the scope of the issues it attempts and diversity 
of scientific voices it represents. The full report is worth the read 
and can be found at http://www.fs.fed.us/r2/bark-beetle/mbp6092008.pdf.
    Here's my synopsis:
    1.  The scale and intensity of the ongoing mountain pine beetle 
epidemic is unlike any outbreak that has been observed before, but that 
does not mean the end of lodgepole pine in the Rockies.
    2.  These forests have undergone dramatic change in the past, and 
they are resilient to mountain pine beetle and other disturbances.
    3.  Even in the existing forest, variability in age, density, and 
species composition ensures that there will be different responses to 
the beetle outbreak.
    4.  Once an outbreak gets going, there are no known treatments that 
can influence its spread.
    5.  Infrequent, large fires are the norm in lodgepole pine forests, 
as they are likely to be in the future--with or without beetles. There 
is general agreement that as the dead needles fall from the trees, the 
probability of crown fire will diminish, but the probability of surface 
fire may increase.
    6.  Because mountain pine beetle outbreaks do not disturb the soil, 
they are not likely to cause increased erosion, though they may 
increase water yield.
    7.  Changes such as we are observing in the current mountain pine 
beetle outbreak are not unlike the changes we should expect from 
climate change in the decades ahead.
    The take-home message is that the bark beetle epidemic is not the 
ecological Armageddon it's often portrayed as. The future forest is 
already establishing itself in the understory. And because of the 
legacy of other tree species in the lodgepole pine forest understory, 
the new forest will be markedly more diverse than the forest it's 
replacing. We'll see Engelmann spruce, sub-alpine fir, Douglas fir and 
aspen trees filling in where previously existed a homogenous sea of 
lodgepole pine. Contrary to the more hyperbolic rhetoric about the end 
of lodgepole pine forests in northern Colorado, lodgepole will return, 
though not exactly in the same density and distribution we are used to.
    People often ask what we ought to be doing to accelerate 
establishment of the new forest. Perhaps a more fundamental question is 
should we, and if so, where? The first step should be to do a 
comprehensive assessment of what sort of natural regeneration is 
already occurring. From a distance, the 2 million acres of beetle kill 
seem devoid of a green stick. However, if you walk around in the 
beetle-killed forest, it's apparent that the overstory of red or grey 
trees disguises the extent of young, vigorous new trees now taking 
advantage of the reduced competition for water and nutrients. A 
comprehensive assessment would tell us if the type and location of 
regeneration matches our desired future conditions and whether 
intervention is warranted or not. But, because this isn't getting done, 
time and energy is wasted handwringing about the disappearance of the 
forest and its calamitous implications for our tourist dependent 
economies.
(Abridged by Wilderness Workshop due to space limitations)

The Status of Our Scientific Understanding of Lodgepole Pine and 
        Mountain Pine Beetles--A Focus on Forest Ecology and Fire 
        Behavior
    A synthesis of our current knowledge about the effects of the 
mountain pine beetle epidemic on lodgepole pine forests and fire 
behavior, with a geographic focus on Colorado and southern Wyoming.
    Merrill R. Kaufmann1, Gregory H. Aplet, Mike Babler, William L. 
Baker, Barbara Bentz, Michael Harrington, Brad C. Hawkes, Laurie Stroh 
Huckaby, Michael J. Jenkins, Daniel M. Kashian, Robert E. Keane, 
Dominik Kulakowski, Charles McHugh, Jose Negron, John Popp, William H. 
Romme, Tania Schoennagel, Wayne Shepperd, Frederick W. Smith, Elaine 
Kennedy Sutherland, Daniel Tinker, and Thomas T. Veblen (complete 
version available at: http://www.fs.fed.us/r2/bark-beetle/
mbp6092008.pdf)

Introduction
    Major lodgepole pine forest changes and how they affect us. 
Mountain pine beetle populations have reached outbreak levels in 
lodgepole pine forests throughout North America. The geographic focus 
of this report centers on the southern Rocky Mountains of Colorado and 
southern Wyoming. The epidemic extends much more widely, however, from 
the southern Rocky Mountains in Colorado in the United States to the 
northern Rocky Mountains in British Columbia and Alberta, Canada.
    Worries about large-scale tree mortality in lodgepole pine forests 
have created public concerns across the West. The appearance of red 
trees during the last decade, a clear sign of recent beetle attack, has 
been followed by bare dead tree skeletons throughout this large area. 
Unquestionably, millions of dead trees foretell large forest changes in 
the near future, and more might be anticipated in areas where the 
mountain pine beetle has not yet reached epidemic levels.
    People are concerned for many reasons. At a minimum, the loss of 
mature lodgepole pine trees will significantly change the present and 
future appearance of affected forests for half a century or more. 
Extensive areas of dead trees and snags are not as aesthetically 
appealing as live forests. Perhaps more seriously, dying and dead trees 
raise fears of increased fire danger. Some people worry that the dead 
needles and wood generated by the mountain pine beetle epidemic will 
lead, perhaps quickly, to severe wildfires that threaten lives, 
property, wildlife, and watersheds. Many are concerned that trees not 
yet attacked will succumb to the epidemic. Some people worry that the 
forest in and around our communities and recreation areas will become 
sparse or disappear forever, and that these forest changes will affect 
timber commodities, game habitat, and recreation resources.
    Some contend that the current epidemic with synchronous outbreaks 
at many locations is unprecedented and a clear warning of global 
climate change impacts on ecosystems around the world. Scientists and 
others point to other changes occurring in our region--Ips beetle-
caused mortality of pinon pine in the Southern Rocky Mountains, aspen 
decline, and large fires in Front Range ponderosa pine forests and 
elsewhere. It is difficult to prove cause and effect, but all of these 
changes began during the last 10-15 years, coinciding with recent warm 
climatic conditions, increasing numbers of large trees, and advancing 
age of many forests. Whether or not the current epidemic is 
unprecedented is a question to which there is currently no clear answer 
because of the lack of precise information on extent and severity of 
beetle outbreaks prior to the early 1900s. Nevertheless, many in the 
scientific community believe the probability of a similar event 
historically over at least the past few 100 years is low.
    There are many insights and opinions about lodgepole pine being 
discussed by stakeholders of all kinds--forest managers, agency 
administrators, researchers, policy-makers, politicians, the news 
media, industries, and the general public. Some concerns and fears are 
supported by scientific evidence. Others are probably justified given 
the current status of our scientific knowledge, but lack clear 
scientific support. Still others are myths with little or no basis in 
science. A further complication is that some of the information 
emerging from the science community has appeared on the surface to be 
somewhat contradictory.
    The reason for this report. This document is written to report our 
current scientific understanding of the ecology and fire behavior of 
lodgepole pine, with a focus on the direct and indirect effects of the 
current mountain pine beetle epidemic that is so dominant in our minds. 
We recognize that important socioeconomic implications stemming from 
the mountain pine beetle epidemic exist, and we hope that examining the 
status of science will aid in addressing these issues. While this 
document focuses on lodgepole pine and mountain pine beetles, there are 
also many other forest types and non-forested systems subject to 
extreme or at least unexpected impacts of climate, other insect and 
pathogen species, and other disturbances including fire and wind.
    This report results from a meeting in January 2008 convened in 
Colorado by The Nature Conservancy, bringing together expertise of 
scientists who study lodgepole pine throughout its geographic range. We 
hope to provide as much scientific help to stakeholders as possible by 
sorting out what is known with a high degree of certainty, what we are 
confident about but with less certainty, and what is truly not 
understood and in need of more research. While our primary geographic 
focus during the workshop was Colorado and southern Wyoming, some of 
the findings may be appropriate for lodgepole pine throughout much of 
its natural range of distribution. We urge caution, however, in 
applying our findings beyond our initial area of focus or to other 
forest types in the region.
    During the workshop and through subsequent email dialogue, the 
lodgepole pine team reached consensus on nine key points. As always, 
science is a work in progress, and uncertainties surfaced during 
discussion of some key points. For some points we provide what is known 
with adequate confidence rather than waiting for more definitive 
information, when this information is useful to interested 
stakeholders. This report provides the nine key points along with 
explanatory material intended to help the reader understand the degree 
of confidence we have from scientific study for these key points. To 
help the reader, we provide a list of suggested reading at the end of 
this report for more detailed information on many of the topics 
discussed. We begin with the obvious.

A.  Lodgepole pine forests are being heavily impacted by the ongoing 
        mountain pine beetle epidemic.
    From British Columbia to Colorado, forests are experiencing high 
mortality of lodgepole pine trees from attack by mountain pine beetles. 
An insect epidemic with multiple outbreaks at this scale has not been 
observed during the last century of scientific study, though small 
outbreaks have occurred. This mortality is changing forest structure 
and composition, and modifying fuels in ways that will affect fire 
behavior for decades.

B.  Not all lodgepole pine forests are the same.
    Some forests are composed of nearly pure lodgepole pine established 
following large fires decades or centuries ago. Others are mixtures of 
lodgepole pine with subalpine species such as Engelmann spruce, 
subalpine fir, and aspen at higher elevations, or with mixed conifer 
species such as ponderosa pine, Douglas-fir, and aspen at lower 
elevations. Each type of forest has unique features of ecology and fire 
behavior. And lodgepole pine trees in all three types are vulnerable to 
attack by mountain pine beetles.

C.  Forests are living systems subject to constant change.
    It is normal and expected that many natural agents, including 
mountain pine beetles, fire, and wind, change forests over time. Some 
changes are so gradual that we barely notice them, while others are 
relatively sudden and extensive.
    The forests that are presently losing many trees to insect attack 
will not look the same in our lifetimes, but healthy and vigorous 
forests will eventually return in most locations.

D.  Lodgepole pine will not disappear from the southern Rocky 
        Mountains.
    The make-up of our forests is already changing where mountain pine 
beetles cause high mortality of lodgepole pine. However, this event 
will not cause the extinction or disappearance of lodgepole pine, and 
forests dominated by or including lodgepole pine will persist in the 
southern Rockies, though they may look different from those of the past 
due to changing climate. Future forests will continue to provide 
valuable ecological services and aesthetic and recreational benefits.

E.  Active vegetation management is unlikely to stop the spread of the 
        current mountain pine beetle outbreak.
    Mountain pine beetles are so numerous and spreading so rapidly into 
new areas that they will simply overwhelm any of our efforts where 
trees have not yet been attacked, and no management can mitigate the 
mortality already occurring. However, judicious vegetation management 
between outbreak cycles may help mitigate future bark beetle-caused 
tree mortality in local areas.

F.  Large intense fires with extreme fire behavior are characteristic 
        of lodgepole pine forests, though they are infrequent.
    Very dry and windy conditions can lead to large intense fires in 
lodgepole pine forests. Such fires are a natural way for lodgepole pine 
to be renewed and are largely responsible for extensive pure lodgepole 
pine forests.

G.  In forests killed by mountain pine beetles, future fires could be 
        more likely than fires before the outbreak. Large intense fires 
        with extreme fire behavior are again possible.
    There is considerable uncertainty about fire behavior following a 
mountain pine beetle epidemic on this scale. In pure lodgepole pine 
forests, crown fires are possible both before an epidemic and after 
while needles are still on trees. Intense surface fires are possible 
after most dead trees have fallen to the ground. The probabilities of 
such fires are uncertain, and more research is needed to learn in what 
ways and how long the fuels and fire environment are altered by the 
beetles. Nevertheless, protection of communities and other values at 
risk continues to be imperative.

H.  Mountain pine beetle outbreaks are not likely to cause increased 
        erosion.
    Soils are not disturbed and protective ground cover is not reduced 
when mountain pine beetles kill lodgepole pine trees. If anything, 
understory plants may grow more vigorously in the increased light and 
with the higher available soil moisture and nutrients. Where tree 
mortality is high, annual streamflow may increase and the timing of 
water delivery may be changed, because of reduced canopy interception 
of precipitation and reduced water uptake by the trees.

I.  Climate changes will most likely contribute to substantial forest 
        changes in the decades ahead.
    Given the climate changes in the last several decades and projected 
changes for coming decades, large fires and other natural disturbances 
and shifts in vegetation composition and distribution are anticipated 
in many ecosystems of Colorado and southern Wyoming. These large 
disturbances and other changes in growing conditions will likely 
contribute to restructuring many forest landscapes.

J.  Summary
    The current mountain pine beetle epidemic affecting lodgepole pine 
forests is an important ecological event with significant socio-
economic implications. What will be the consequences for the affected 
ecosystems? How do we protect our communities and other human values at 
risk in ways that are socially and economically (as well as 
ecologically) feasible? These are difficult questions. This report has 
focused specifically on the ecology and fire behavior issues associated 
with lodgepole pine and the mountain pine beetle epidemic. We recognize 
that the socio-economic aspects are as important as the ecological 
issues, but they are beyond the scope of this report.
    Ecologically, much is known about lodgepole pine and mountain pine 
beetles. Even though the scale of the current epidemic is unprecedented 
over the past approximately 100 years of reliable observations, beetle-
caused tree mortality at some scale has long been part of the dynamics 
of the lodgepole pine ecosystems. Similarly, fire behavior and its role 
in ecological processes and fuel management practices are relatively 
well understood. While we are confident about our general 
understanding, we have identified at least some scientific 
uncertainties about lodgepole pine, mountain pine beetle effects, and 
fire behavior that should be acknowledged and further researched.
    We are most concerned about several wildcard issues that create 
some uncertainty in applying what we know from science. The scale of 
this epidemic is larger than any mountain pine beetle epidemic studied 
thus far. We do not fully understand if or how the magnitude of this 
ecological event will affect future forests in terms of regeneration of 
the present species or transitions to different vegetation types. 
Furthermore, there is the question--both tantalizing and troubling--
about possible climate change (including its rate, direction and 
magnitude) and the degree to which scientific findings need to be 
qualified as they are applied.
    If humans were not a part of the equation, forests would simply 
mature, die, and regenerate or be replaced by other vegetation types, 
following ecological trajectories over time driven by climate, 
environment, and species capabilities.
    Because humans cause changes in forests by choosing to live there 
and deriving economic services from them, our communities are impacted 
by forest changes, whether they are natural or not. Thus both the scale 
of the mountain pine beetle epidemic and the uncertainties about future 
forests leave us with questions that are important to us but may not be 
answerable with the knowledge we have now.
    Knowledge from scientific research about lodgepole pine and 
mountain pine beetles is valuable in two ways. It offers answers to 
some of the questions we have about forest ecology and provides 
valuable insight for management of these forests for ecological and 
community protection purposes. It also clarifies what we do not know. 
This is valuable not just to direct new research, but also to inform 
stakeholders of the degree of confidence they should have as land and 
natural resource management practices are considered.
    As noted in the introduction, science is a work in progress. Many 
of the scientific uncertainties discussed in this report already are 
receiving attention in the research community. Even as research 
continues, however, the scientific knowledge already available is 
usable by a wide variety of stakeholders and in the collaborative and 
adaptive management process. Adaptive management is perhaps best 
described as managing while learning on the fly. In this report, the 
scientific community provides information to managers and other 
stakeholders, but the scientific community also will help advance the 
knowledge base through lessons learned as management practices are 
planned, implemented, monitored, and evaluated. We humans must decide 
how to manage forests based upon their intrinsic value and natural 
processes as well as some desired future condition contingent on human 
wants and needs. We must be realistic about the degree to which we as 
observers, managers and stewards of the forest can affect what is 
happening now and what will happen in the future. Whatever we do from 
here should be done together.

Authors and their affiliations
    <bullet>  Merrill R. Kaufmann (science team leader), U.S. Forest 
Service Rocky Mountain Research Station (emeritus) and The Nature 
Conservancy
    <bullet>  Gregory H. Aplet, The Wilderness Society
    <bullet>  Mike Babler (science team co-leader), The Nature 
Conservancy
    <bullet>  William L. Baker, University of Wyoming
    <bullet>  Barbara Bentz, U.S. Forest Service Rocky Mountain 
Research Station
    <bullet>  Michael Harrington, U.S. Forest Service Rocky Mountain 
Research Station
    <bullet>  Brad C. Hawkes, Natural Resources Canada, Canadian Forest 
Service Pacific Forestry Centre
    <bullet>  Laurie Stroh Huckaby, U.S. Forest Service Rocky Mountain 
Research Station
    <bullet>  Michael J. Jenkins, Utah State University
    <bullet>  Daniel M. Kashian, Wayne State University
    <bullet>  Robert E. Keane, U.S. Forest Service Rocky Mountain 
Research Station
    <bullet>  Dominik Kulakowski, Clark University
    <bullet>  Ward McCaughey, U.S. Forest Service Rocky Mountain 
Research Station
    <bullet>  Charles McHugh, U.S. Forest Service Rocky Mountain 
Research Station
    <bullet>  Jose Negron, U.S. Forest Service Rocky Mountain Research 
Station
    <bullet>  John Popp, U.S. Forest Service Rocky Mountain Research 
Station
    <bullet>  William H. Romme, Colorado State University
    <bullet>  Tania Schoennagel, University of Colorado
    <bullet>  Wayne Shepperd, U.S. Forest Service Rocky Mountain 
Research Station (retired)
    <bullet>  Frederick W. Smith, Colorado State University
    <bullet>  Elaine Kennedy Sutherland, U.S. Forest Service Rocky 
Mountain Research Station
    <bullet>  Daniel Tinker, University of Wyoming
    <bullet>  Thomas T. Veblen, University of Colorado
                                 ______
                                 
    Mrs. Napolitano. Thank you so much for your testimony, sir. 
I also thank you for the reference to the full report, the 
state-of-the-art consensus service statement, and that document 
apparently is available for the general public. And hopefully 
we will be able to get it. And your key points were very much 
appreciated.
    Mr. Wilkinson, General Manager of the North Colorado Water 
Conservancy District.

STATEMENT OF ERIC WILKINSON, GENERAL MANAGER, NORTHERN COLORADO 
         WATER CONSERVANCY DISTRICT, BERTHOUD, COLORADO

    Mr. Wilkinson. Thank you, Madame Chairman, Members of the 
Committee. I am the General Manager of the Northern Colorado 
Water Conservancy District, and its municipal subdistrict.
    I thank you for the opportunity to testify today before the 
combined Subcommittees on the real threat posed to watersheds 
and water supplies by the pine beetle.
    Northern Water was created in 1937. It is the first water 
conservancy district in the State of Colorado, as can be seen 
on Attachment 1 of my written testimony. Northern Water is 
located in northeastern Colorado, and includes approximately 
640,000 acres of irrigated farmland, and a constituency 
population of about 800,000 people.
    In 1938, Northern Water entered into a contract with the 
U.S. Bureau of Reclamation to become the local sponsor and 
contract beneficiary of the Colorado Big Thompson project.
    The CBT project annually yields an average of 220,000 acre 
feet of high quality supplemental water from the project's 466-
square-mile watershed in the headwaters of the Colorado River. 
The project then conveys that water under the Continental 
Divide to the Water Shore South Platte Basin. This water supply 
is essential to northeastern Colorado.
    The municipal subdistrict developed, operates, and 
maintains the Windy Gap project, designed to annually capture 
48,000 acre feet of water, primarily relying on the 313-square-
mile watershed of the Fraser River, a tributary to the Colorado 
River. The Windy Gap project utilizes the excess capacity in 
the CBT project to convey that water to the eastern slope.
    Both the watersheds of the CBT project and the Windy Gap 
project are heavily infested by the pine beetle, with 
infestation beginning in the early 1990s. I direct your 
attention to Attachment 4 of my written testimony, a map 
showing the extent of the pine beetle infestation in those 
watersheds. This map depicts the extent of the current pine 
beetle infestation in the watershed's tributary to both of 
these projects.
    Experts estimate that eventually well over 90 percent of 
the lodgepole pine, the dominant species in this area, will be 
killed by the pine beetle.
    Pine beetle infestation poses a significant immediate and 
continuing threat to forest watersheds that produce water 
supplies, and the associated water supply facilities by 
dramatically increasing the possibility and potential severity 
of wildfires and the resulting watershed erosion and sediment 
deposition. It also causes secondary water quality effects.
    In my written testimony I cite the Colorado examples of the 
Buffalo Creek fire in 1996, and the Hayman fire in 2002, to 
demonstrate the devastating and costly impact to infrastructure 
and water supplies caused by wildfire.
    Because of the pine beetle infestation in 2006, Northern 
Water contracted with the U.S. Geological Survey to perform a 
pre-wildfire study to determine the potential post-wildfire 
grade flows within the CBT project watershed. The study results 
were alarming.
    In July 2007, the Pinchot Institute for Conservation 
released a report entitled ``Protecting Front-Range Forest 
Watersheds from High-Severity Wildfires.'' As a result of that 
study, the Colorado State Forest Service, the United States 
Forest Service, and water users began a collaborative effort to 
define and address problems caused by pine beetle infestation.
    Over the next two years, this group developed methodologies 
to evaluate the vulnerability of, and consequences to, 
watersheds posed by wildfire, based on the watershed physical 
characteristics. These evaluations are used to prioritize those 
watersheds most threatened by wildfires, and most needing 
remedial action to reduce the risk. These cooperative efforts 
to address wildfire risks must continue.
    Further, my written testimony contains a number of 
recommendations needed to deal with the threat to watersheds 
and water supplies posed by the pine beetle epidemic.
    Addressing the threat of wildfires, as well as other water 
quality and water supply challenges caused by the pine beetle 
epidemic, is a daunting task, in light of the millions of acres 
of lands affected, and the cost of implementing adequate and 
effective measures.
    However, the cost of dealing with the aftermath of a 
wildfire can be magnitudes greater than the cost of proactive 
preventive measures. We must learn from our experiences, and 
initiate long-term forest management practices that will lessen 
the probability of future pine beetle infestation, and will 
reduce the likelihood of catastrophic fires in the next 
generation of forest scrub that will follow this pine beetle 
epidemic.
    Thank you.
    [The prepared statement of Mr. Wilkinson follows:]

           Statement of Eric W. Wilkinson, General Manager, 
              Northern Colorado Water Conservancy District

INTRODUCTION
    The Northern Colorado Water Conservancy District (Northern Water) 
was created by decree of the Weld County District Court in September 
1937 as the first water conservancy district in the State of Colorado. 
Northern Water is located along the northern front range of Colorado, 
extending from the City and County of Broomfield and Fort Lupton on the 
south, to north of Fort Collins and Greeley on the north, then 
extending northeastward along the South Platte River to the Colorado/
Nebraska state line (see Attachment 1). Northern Water encompasses 
parts of eight counties and includes approximately 1.6 million acres 
within its boundaries, including about 640,000 acres of irrigated 
farmland. The constituency population of Northern Water is 
approximately 800,000 people.
    The impetus for the creation of Northern Water was to serve as the 
sponsoring agency to contract with the United States, through the 
Bureau of Reclamation (Reclamation), for the design, construction, 
operation, and maintenance of the Colorado-Big Thompson Project (C-BT 
Project). The 220,000 acre-feet of high quality, supplemental water 
supplies that are diverted on average each year by the C-BT Project 
from the headwaters of the Colorado River into the South Platte Basin 
for use by the constituents of Northern Water, are as important today 
to the health, economy, and sustainability of northeastern Colorado as 
they have ever been during the history of the C-BT Project.
    An explanation of the background and history related to the 
development and operation of the C-BT Project and Northern Water is 
contained in Attachment 2 to this testimony entitled ``Background and 
History of the Northern Colorado Water Conservancy District and the 
Colorado-Big Thompson Project.''

C-BT PROJECT WEST SLOPE COLLECTION SYSTEM
    The 220,000 acre-feet of average annual yield provided by the C-BT 
Project is captured from the 466 square-mile watershed located within 
the headwaters of the Colorado River. Over the past 15 years, this 
watershed has been severely infested by the Pine Beetle. The integrity 
and functionality of the collection system facilities are threatened by 
the potential consequences of the beetle infestation. Such consequences 
include the higher risk of catastrophic wildfires and resulting 
watershed erosion and sediment deposition. The water quality of this 
valuable supply is already being adversely impacted as a result of the 
infestation.
    A diagram of the C-BT Project's integrated collection system is 
shown on Attachment 3. The collection system consists of: Shadow 
Mountain and Lake Granby reservoirs and Grand Lake all within the 
Colorado River Basin; and Willow Creek Reservoir within the Willow 
Creek drainage, which is a tributary to the Colorado River. The 
collection system utilizes two large pumping plants to move water 
between facilities. The Willow Creek Pumping Plant pumps water stored 
and released from Willow Creek Reservoir into Lake Granby Reservoir. 
The Farr Pumping Plant pumps water stored in Lake Granby Reservoir into 
Shadow Mountain Reservoir so it can then flow by gravity through Shadow 
Mountain Reservoir, into and through Grand Lake, to the intake of the 
Adams Tunnel. Water then flows by gravity from Grand Lake through the 
13.1-mile long Adams Tunnel beneath the Continental Divide to the 
eastern slope, where water continues to be conveyed through C-BT 
Project facilities, ultimately being delivered to C-BT Project 
allottees and beneficiaries within the boundaries of Northern Water for 
beneficial use.

MUNICIPAL SUBDISTRICT AND THE WINDY GAP PROJECT
    In 1970, the Municipal Subdistrict of the Northern Colorado Water 
Conservancy District (Municipal Subdistrict) was formed by a decree of 
the Weld County District Court and included six municipal water 
purveyors within northeastern Colorado. The purpose of the Municipal 
Subdistrict is the development and operation of the Windy Gap Project. 
The Windy Gap Project was constructed on the Colorado River 
approximately 1 mile west of the Town of Granby from 1981 to 1985 
(location noted on Attachment 1).
    The Windy Gap Project consists of a 415 acre-foot reservoir and a 
pumping plant that pumps water captured by the reservoir into Lake 
Granby Reservoir. Excess capacity in the C-BT Project, when available, 
is then used to convey the Windy Gap Project water to Windy Gap Project 
participants on the eastern slope. The average annual yield of the 
Windy Gap Project is approximately 48,000 acre feet.
    Water yielded by the Windy Gap Project is from the 313 square mile 
drainage area of the Fraser River Basin. This watershed has also been 
severely infested by the Pine Beetle.

FORESTED WATERSHEDS
    The drainage areas tributary to both the C-BT Project and the Windy 
Gap Project are heavily forested by predominately uniform-age, high-
density, lodgepole pine. Nearly the entire drainage area tributary to 
the C-BT Project is federally owned and under the jurisdiction of the 
United States Forest Service or the National Park Service. Lands 
controlled by the National Park Service are limited to Rocky Mountain 
National Park. In 2009, Congress passed legislation designating most 
all of Rocky Mountain National Park as Wilderness. The drainage area 
tributary to the Windy Gap Project has a higher percentage of private 
ownership with the federally-owned lands being under the jurisdiction 
of the United States Forest Service.

PINE BEETLE INFESTATION IN THE UPPER COLORADO RIVER BASIN
    In the early 1990's, initial evidence of Pine Beetle infestation 
was noted in the Upper Colorado River Basin, including the drainage 
areas tributary to the both the C-BT and Windy Gap projects. Over the 
next several years, the infestation would reach epidemic proportions, 
encompassing a majority of the forested areas in the Upper Colorado 
River Basin. Attachment 4 is a map indicating the extent of the Pine 
Beetle infestation in the drainage areas tributary to these two 
projects. It is important to note that to-date over 50% of the 
respective drainage area tributary to either the C-BT Project or the 
Windy Gap Project are infected by the Pine Beetle. The area infected 
continues to grow with many experts estimating that eventually over 90% 
of the lodgepole pine within the respective drainage basins will be 
infected by the Pine Beetle. Attachment 5 is an aerial photograph of 
the Grand Lake, Shadow Mountain, Lake Granby area showing the reddish-
colored areas infected by the Pine Beetle.
    Pine Beetle infestation poses significant, immediate, and 
continuing threats to the forest and the water supply originating as 
run-off from the affected forested areas. Trees killed by Pine Beetles 
are initially identified by their reddish color. The red needles 
provide a dry, highly combustible fuel load, dramatically increasing 
both the possibility and severity of wildfires. Although fire is needed 
to regenerate forest growth in lodgepole pine forests, uncontrolled 
wildfires in old, dense, uniform-age forests are not only highly 
destructive to the forest and its environment, but are also devastating 
to the water supplies that originate on those forests.
    Addressing the threat of wildfire, as well as other water quality 
and water supply challenges caused by the Pine Beetle epidemic, is a 
daunting task in light of the millions of acres of land affected and 
the high cost of implementing adequate and effective measures. However, 
the cost of dealing with the aftermath of a wildfire may be magnitudes 
greater than the cost of proactive preventive measures.
    The Buffalo Creek Fire in 1996 and the Hayman Fire in 2002 within 
the upper South Platte River Basin, although not occurring on Pine 
Beetle infested forests, are outstanding examples of the devastation 
that wildfires can cause to water supplies and water supply 
infrastructure. The Buffalo Creek Fire, a relatively small fire, cost 
the Denver Water Department (Denver Water) approximately $20 million to 
protect and restore water supply facilities, including the dredging of 
a reservoir to remove debris and sediment deposited from the erosion of 
the watershed following the fire. Significant expenditures were also 
required to address issues associated with the substantial 
deterioration in water quality caused by the fire. The adverse effects 
of that fire on Denver Water's supplies are still being felt. The 
Hayman Fire burned over 138,000 acres and resulted in costs of over 
$6.5 million just to protect Denver Water's Cheesman Reservoir in the 
two years immediately following that fire. The monies expended on 
Cheesman Reservoir are only a fraction of the total costs incurred by 
Denver Water because of this fire. Denver Water continues today to deal 
with the adverse effects of the Hayman Fire.
    The debris, sediment, and nutrient loading that are captured by 
water facilities following a wildfire have the potential to reduce, 
significantly impact, or even destroy the functionality of those 
facilities. The resulting adverse effects on water quality are very 
detrimental and, depending on the characteristics of the watershed, can 
last for years or even decades. Remediation of the effects of wildfire 
for facilities associated with the C-BT Project or the Windy Gap 
Project could easily cost several million dollars for each facility.
    If the reddish and dead Pine Beetle-infected trees are not the 
victim of wildfires, those trees will eventually lose their needles, 
with a commensurate decrease in the risk of wildfire. In some cases, 
the decrease in the forest canopy area will result in an increase in 
run-off from the affected areas, resulting in a benefit for water 
users. The increase duff on the forest floor resulting from the falling 
needles and the associated vegetative decaying process may result in 
higher nutrient loading in the run-off from the previously forested 
area. This increase in nutrient loading can cause several issues for 
water supplies including, but not limited to, causing increased growth 
of algae in the water supply, significantly decreased overall water 
quality, and greater challenges in treating the water without 
introducing threats to public health, such as disinfection by-products. 
Treatment of affected water supplies to drinking water standards may, 
in some cases, require costly modifications to water treatment 
facilities.
    As these trees continue to deteriorate, they will eventually fall, 
posing threats to the safety of those in the affected areas. Over time, 
with increasing deadfall on the forest floor, the threat of wildfire 
and the associated problems again increases.

NORTHERN WATER AND MUNICIPAL SUBDISTRICT EXPERIENCES
    Over 700,000 people in northeastern Colorado depend on C-BT Project 
and Windy Gap Project water as a source of their drinking water supply. 
The effects of a wildfire resulting from the Pine Beetle infestation 
within the two projects' watersheds would be devastating to the 
quality, quantity, and reliability of this water supply.
    As the drainage areas tributary to the C-BT Project became more 
heavily infected by the Pine Beetle, Northern Water became increasingly 
concerned about the possibility and the consequences of a wildfire. In 
2006, Northern Water contracted with the United States Geological 
Survey (USGS) to perform a pre-wildfire study to determine the 
potential for post-wildfire debris flows within the C-BT Project 
watershed. The purpose of the study was to estimate the probability of 
post-wildfire debris flows and to estimate the volume of debris flows 
that might occur. The results were alarming as the study showed 
significant adverse consequences to the C-BT Project and its water 
supplies as the result of a wildfire.
    In July 2007 the Pinchot Institute for Conservation released a 
report entitled, ``Protecting Front Range Forest Watersheds from High-
Severity Wildfires.'' In an outreach effort, the Colorado State Forest 
Service and the U.S. Forest Service hosted a meeting with water 
providers to discuss potential methods to protect Front Range 
watersheds and their associated produced water supplies from the 
devastation of wildfires.
    Over the next two years, this group would develop methodologies 
that would be used to evaluate the vulnerability of a watershed to 
wildfires and the consequences that might result based on the 
watershed's physical characteristics. Characteristics evaluated include 
wildfire hazard ratings, watershed steepness or ruggedness, soil 
erodibility, and water use ranking. These evaluations could then be 
used to prioritize those watersheds most threatened by wildfire and 
most needing remedial action to reduce the wildfire risk and the 
consequences of a wildfire. Preliminary results from the study of 
Colorado Front Range watersheds have recently been made available. 
Those study results show: more than 2 million acres are classified as 
high hazard for wildfire; all major water collection, storage, and 
conveyance structures are threatened; the current measures being 
pursued to address the wildfire threat are inadequate; and adequate 
corrective actions in the form of forest treatments will require 
considerable increases in funding.
    Based on the methodology developed for the evaluation of wildfire 
risk and prioritization of watershed protection, Denver Water, Northern 
Water, the Municipal Subdistrict, and other water providers engaged a 
consultant to evaluate the watersheds in the Upper Colorado River 
Basin. Watersheds evaluated included those tributary to the C-BT 
Project, the Windy Gap Project, and facilities owned and operated by 
Denver Water in the Colorado River, Fraser River, and Williams Fork 
River basins. Those preliminary results have very recently been 
released, pointing to the need for remedial measures to protect several 
vulnerable watersheds.

FUTURE ACTIONS TO ADDRESS PINE BEETLE-CAUSED THREATS TO WATERSHEDS
    The Pine Beetle epidemic in Colorado has affected critical 
watersheds throughout Colorado, raising the risk of wildfires and the 
risk of the resulting devastating impact to watershed health and to the 
quality of the water supplies produced. It is important to note that on 
most infected watersheds where fires have thankfully not occurred and 
the infected trees have lost their needles, the wildfire threat has, as 
a result, been significantly reduced. However, the decaying needles on 
the forest floor are causing, and will continue to cause, adverse water 
quality effects. The cooperative efforts in Colorado to address the 
wildfire risks, led by the Colorado State Forest Service and the U.S. 
Forest Service, must continue with the timely and focused 
implementation of corrective or remedial measures necessary to address 
this real threat to water supplies. Scientifically based procedures 
have been developed to evaluate the threats posed to watersheds and 
prioritize those watersheds needing immediate remedial action to 
address the wildfire threat. The following steps are recommended:
    <bullet>  Prioritize watersheds based on risk for wildfire and 
consequences that may be caused by wildfire. This prioritization can 
then be used to allocate resources needed to address the wildfire risk 
in a region.
    <bullet>  Implement appropriate forest management practices to 
reduce the potential for wildfires. This would include such things as 
forest thinning, timber harvesting, fuel breaks to prevent the 
uncontrolled spread of wildfire, prescribed and controlled burning, and 
the natural use of fire.
    <bullet>  Develop and implement a plan to mitigate the adverse 
effects of post-wildfire impacts. This could include such things as 
construction of debris control dams upstream of reservoirs to limit 
debris flow into the reservoir or emergency action plans to limit 
erosion within the affected watershed.
    <bullet>  Develop the equivalent of Community Wildfire Protection 
Programs for the protection and restoration of critical water supply 
facilities within affected watersheds.
    <bullet>  Develop pre-event permitting processes for emergency 
corrective measures that would be necessary to implement a Community 
Wildfire Protection Program or an emergency action plan during and 
following a wildfire. This would allow the implementation of emergency 
mitigation measures in a timely, effective, and efficient manner.
    <bullet>  Develop federal funding mechanisms necessary to address 
and mitigate the threat posed by catastrophic wildfires resulting from 
the Pine Beetle infestation. Federal agencies should establish an 
emergency fund that could be utilized to pay for remediation of 
watersheds, water supplies, and water supply infrastructure during and 
following a wildfire. These funds would be available for protecting 
water quality and restoring the functionality of water supply 
facilities.

CONCLUSION
    Addressing the threat of wildfire, as well as other water quality 
and water supply challenges caused by the Pine Beetle epidemic, is a 
daunting task in light of the millions of acres of land affected and 
the cost of implementing adequate and effective measures. However, the 
cost of dealing with the aftermath of a wildfire may be magnitudes 
greater than the cost of proactive preventive measures.
    We must learn from our experiences and initiate long-term forest 
management practices that will lessen the future probability of Pine 
Beetle infestation and that will reduce the likelihood of catastrophic 
wildfire in the next generation of forest growth that will follow this 
Pine Beetle epidemic. Testimony Presented by Eric Wilkinson

LIST OF ATTACHMENTS TO WRITTEN TESTIMONY
    ATTACHMENT 1 Map of the Northern Colorado Water Conservancy 
District and Colorado-Big Thompson Project
    ATTACHMENT 2 Background and History of the Northern Colorado Water 
Conservancy District and the Colorado-Big Thompson Project
    ATTACHMENT 3 Schematic Diagram of the West Slope Collection System 
of the Colorado-Big Thompson Project
    ATTACHMENT 4 Colorado-Big Thompson Project and Windy Gap Project - 
Drainage Basins Affected by Beetle Infestation
    ATTACHMENT 5 Aerial Photograph of Colorado-Big Thompson Project 
Drainage Basin
    [NOTE: The aerial photograph (Attachment 5) has been retained in 
the Committee's official files.]

[GRAPHIC] [TIFF OMITTED] T0438.001

  

[GRAPHIC] [TIFF OMITTED] T0438.002

  

[GRAPHIC] [TIFF OMITTED] T0438.003

[GRAPHIC] [TIFF OMITTED] T0438.004

                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. Wilkinson. And your last 
comment in regard to the cost, in reading some of the 
testimony, it is stated that it is prohibitive to be able to do 
chemical spray over the trees. Prohibitive is the word.
    Yet, when you quantify the loss of everything else--the 
industry, the watershed, the cost of the water districts to be 
able to clean up the silt, removal of the silt, all of that--we 
have not quantified that.
    And we are saying it is prohibitive. What do we measure it 
against?
    Mr. Wilkinson. The costs that we have heard in initial 
conversations back in 2007 on the cost of addressing the 
wildfire examples are in the hundreds of millions of dollars. 
The effectiveness of spraying, as I understand it--and I am not 
an expert on infestation prevention--is likewise prohibitive 
from the standpoint of each tree has to be individually 
sprayed, because of the way that the insects attack the tree.
    It is easy for any individual water supply facility, such 
as the Strontia Springs Dam that you saw a picture of earlier 
in the presentation, it is easy to incur a cost of $20 million 
on remedial measures to dredge out those reservoirs.
    Reservoirs associated with the Colorado Big Thompson 
project, for example, if there is a wildfire above them, would 
become sediment collection facilities that would obviously 
require dredging to take care of that, as well.
    Costs are indeed prohibitive. If there were, I believe, 
substantial corrective measures that could be taken, such as 
spraying, that were economically viable and effective, I think 
the water users and the community would probably endorse that. 
But it is my understanding that those really aren't practical 
or implementable, from either an economic standpoint or from a 
physical standpoint.
    Mrs. Napolitano. But I have yet to hear, sir, of anybody 
indicating that the research and development has identified a 
way to cope with it. Or at least to not totally eradicate it, 
because that probably is impossible, but to be able to deal 
with the quick production of itself. In other words, it just 
keeps spreading, and there is really no talk of any other 
predators that we can look at to address this epidemic.
    It has been around for 39 years.
    Mr. Wilkinson. Exactly. Your representation is my 
understanding, Madame Chairwoman.
    Mrs. Napolitano. Does anybody know of any research, 
anything being done on the actual beetle itself, and how to 
address its demise? And I guess maybe I would go back to a few 
years ago, when I sat on City Council. The local RECTA control 
was trying to do away with the mosquitoes that were spreading 
the--they didn't call it the Nile virus back at that time. We 
are talking about the 1980's.
    And what they did is they were able to get females, and put 
them through a process. And don't ask me, I am not the 
researcher that did it. But they would sterilize the females. 
And that helped the propagation of the mosquitoes.
    So I am not sure who is doing any kind of research on the 
actual beetle itself to be more specific about what other 
measures can be done. Because we are looking at everything 
else, or at least talking about it. And we are not quite sure 
if anybody knows anything about that.
    Yes, ma'am, Ms. Scanlan.
    Ms. Scanlan. Thank you, Madame Chair. In my community, we 
first focused on prevention, because we saw this happening in a 
county near ours and didn't want the effects to be the same.
    Graham County, Colorado, is the epicenter of the beetle 
epidemic, and they have tried everything. There is a lot of 
research going on in terms of pheromone packs that you can put 
out into trees that will maybe send them elsewhere.
    Nothing works with any certainty on a landscape scale. So 
what we focus on are what we call high-value trees. I know the 
ski resorts will be here to testify about that later on how you 
can protect those. Even that is quite expensive to do on 
private property.
    Anything dealing with the National Forest, there is a lot 
of talk about what you can do. But this is one of the largest 
infestations of insects ever seen in North America. We don't 
have any tools that are effective in stopping or mitigating 
their travel. What we have heard is they will continue at this 
pace until they run out of habitat, and that is, in fact, what 
we are seeing.
    So when Congressman Polis said we are focused now on 
triage, that is all we can do. We spent a few years trying to 
get ahead of it; we are now years behind.
    Mrs. Napolitano. What barriers do you see exist on cross-
jurisdictional cooperation?
    Ms. Scanlan. Thank you, Madame Chair. We have been really 
trying to use the good neighbor policy, which allows us access 
to Federal lands in a way that I am not sure other states need, 
or need to have as a priority on.
    We had to add additional staffing on our State Forest 
Service Office to do that, though, because it is a fairly 
bureaucratic process to engage in. And we wanted to support our 
local citizens and private landowners on how to get that kind 
of access.
    Because if you are in the wildland-urban interface, 
everything abuts. Ninety-nine percent of my entire district 
where I live, my county where I live, is in that same 
interface, so it is surrounded by public lands.
    So we have to be cooperative in how we can get easier 
access.
    Mrs. Napolitano. How do you achieve mitigation?
    Ms. Scanlan. Pardon?
    Mrs. Napolitano. How do you achieve----
    Ms. Scanlan. I think that enhancing the good neighbor 
policy, making sure that we still have the good neighbor policy 
is a first priority that we would like to ask of this body.
    But second, enhancing that, maybe taking down some of the 
bureaucracy associated with it, so that we can have easier 
access back and forth. That would be a tremendous tool.
    Mrs. Napolitano. Thank you. Excuse me. Mr. Shoemaker, you 
have advocated for some timber harvesting to mitigate the 
damage inflicted by the beetle. Do you believe in expediting 
NEPA? And if not, why not?
    Mr. Shoemaker. Thank you, Madame Chairwoman. We do advocate 
for chainsaws in the woods to protect those priorities that we 
have identified collaboratively. And we do not advocate for 
some streamlining of NEPA. In fact, the bottleneck for getting 
projects on the ground is not NEPA. There are tens, if not 
hundreds of thousands of acres of NEPA-ready projects that just 
need to be pulled off the shelf and hit the ground. And what is 
holding that up is the resources to get people into the woods.
    Mrs. Napolitano. Thank you. Mr. McClintock.
    Mr. McClintock. Just to follow up on that point. You say 
there are plenty of NEPA-ready projects, and yet we have a 
number of NEPA-ready projects in my district in northeastern 
California with 33 million board feet already under contract; 
31.5 million board feet are tied up in litigation.
    We have had testimony with respect to forest fire-killed 
trees, that these lawsuits are being filed simply to delay the 
harvesting beyond the point where they are commercially 
salvageable.
    What is your comment on that?
    Mr. Shoemaker. Well, I restrict my comments to Colorado, 
where I function and where I study. And the same dynamic is not 
playing out in Colorado.
    We have a fairly healthy collaborative atmosphere in 
Colorado, where we have regular meetings with my good buddy, 
Rick Cable, sitting behind me, and others, like local 
governments like Commissioner Rich. And we come to agreement. 
We recognize that when there are very limited resources and 
there is a lot of high-value community infrastructure and lives 
at risk, that we need to make priority decisions. Where those 
priorities are is where we all agree, and that is where the 
projects are hitting the ground.
    Mr. McClintock. Mr. Rich, you testified that you thought 
NEPA could be better implemented. What would you recommend?
    Mr. Rich. I feel that NEPA has a purpose, but it has been 
used to slow down--like you said--lawsuits and things like that 
have slowed down the process to where there is no action, and 
an alternative speeds it up quite a bit.
    As a lawmaker, I need to hear both sides of it, but I hate 
to be stalled by someone who is using a law to, just for that 
purpose. And that does happen. There are some environmental 
people out there who feel that preservation means do not cut a 
tree. I do not share that concept with them.
    Mr. McClintock. What would you recommend? What changes 
ought we to make to NEPA to keep this from happening?
    Mr. Rich. I think if we understand that we need to move 
ahead. They had talked about maybe backing off of some 
lawsuits, but just don't use it to slow things down. Use it for 
what it was designed to kind of check out.
    I think if the motive is just to stop the process, that is 
not a good use of the law. Use it as it is appropriate and 
maybe they won't use it. Maybe they won't sue, but it sure has 
slowed things down.
    Mr. McClintock. Let me ask each of the panelists just for 
the single most cost-effective recommendation you could make to 
deal with the infestation.
    Ms. Scanlan. Thank you. That is a tough question, because 
this is a multi-faceted, complex problem. It is, as someone 
mentioned, a near-term and a long-term issue for us.
    Mr. McClintock. I also don't want to get bogged down in 
analysis paralysis, either. We have, I think, established that 
this is a very serious problem. What would be the single most 
cost-effective solution that you could offer us today?
    Ms. Scanlan. I think that we need funding on the ground. We 
have a list of priority projects in Colorado that are critical 
to both the public safety and infrastructure that we would like 
to have----
    Mr. McClintock. Funding on the ground for what?
    Ms. Scanlan. To do wildfire mitigation.
    Mr. McClintock. Specifically, removing overgrowth?
    Ms. Scanlan. It is largely removing the fuel-loaded trees 
out in the forest, yes.
    Mr. McClintock. All right. Mr. Rich, you talked about 
litigation. That would be it? The single most cost-effective 
way to----
    Mr. Rich. The most cost-effective would get some money on 
the ground to Jackson County. To have to place an economic 
value on the product--whether it is timber or biomass for 
electricity--we need a little help to get it going. Then it 
will start rolling on its own.
    Mr. McClintock. Again, if we sell the timber for lumber 
production, that actually makes us money.
    Mr. Rich. Some of the value of the timber is not worth--
yes, the good saw logs, you bet. I mean, there is a lot of 
solutions. We in the cattle industry used to use a sale market, 
where we would take our cattle, and then they would sell them. 
Why not have a lumber, where you take your logs, the 35-acre 
people take their logs? And then you have got saw logs, timber, 
all different kinds of logs that you can pick right out of 
there. And that would be an effective way, an economic way to 
make it roll. It has got to pay.
    Mr. McClintock. I will leave Mr. Shoemaker and Mr. 
Wilkinson to argue with the Chairwoman over time.
    Mrs. Napolitano. Well, we have one more panel. We will be 
going to the votes pretty soon, so we need to really move on. I 
would appreciate it if you would maybe answer in writing.
    Mr. Grijalva.
    Mr. Grijalva. Thank you, Madame Chairman. Madame 
Representative, could you please tell us a little bit in your 
testimony about the incentives created to foster the kind of 
partnership between a state and private industry?
    And specifically, how do you pick a company? And who is in 
charge of distributing the funding?
    Ms. Scanlan. Thank you, Mr. Chairman. We are working with 
our State Forest Service Office in distributing those funds. 
And they do help identify the private folks who might want to 
come forward and utilize those.
    What we have done is a series of tax credits, tax 
exemptions, anything that we can do at a state level to bolster 
what is a fledgling industry, particularly in terms of the 
niche market for bark beetle trees.
    Mr. Grijalva. Thank you. Mr. Shoemaker, you referred to 
tactical timber industry. If you could expand on what that 
would look like, and are there any areas that you know in the 
country where that has been successful.
    Mr. Shoemaker. Thank you, Chairman Grijalva. I referred to 
tactical timber industry, and that is just a term that I came 
up with.
    But the notion is that we have got, we need--industry is 
part of the solution in Colorado, and we don't have enough of 
the right industry in the right place to help us move this, 
this wood from these right acres that we have identified 
through collaborative process.
    And the trouble is that there is a tremendous volume of 
beetle-kill wood available now, and will be in the short, in 
the near term. But after that its value is going to fall off 
pretty quickly, in terms of commercial value.
    And so we need a timber industry that is nimble enough to 
ramp up a way to process this large volume of woods coming off 
of these thousands of acres of priority protection for 
communities. And then on the back side, can scale down in a way 
as the supply of wood scales down, so that it is sustainable in 
the future.
    And really what we are talking about is trying to create a 
situation where our communities can remain sustainable in the 
face of the disturbances that keep moving through these forests 
and so that the timber industry can respond in a way that 
addresses supply as it ebbs and flows.
    Mr. Grijalva. Thank you. And as I mentioned in my opening 
statement, I think the essential part of the response to the 
outbreak is going to be the kind of extensive coordination and 
community support that we bring to bear on this issue.
    And just for, in looking ahead, what are some of the 
pitfalls, some of the non-starters, in your experience with the 
cooperative?
    Mr. Shoemaker. With the cooperative? The pitfalls as we go 
forward, we can avoid. Gosh, do it sooner. It took a while for 
the Colorado bark beetle, it started as a cooperative, then 
moved into a collaborative. And it took a while to recognize 
that there are multi-stakeholders that have, that need to be 
involved at the table, because we all have a stake in the 
national forest, because that is our livelihoods there.
    It took a couple of years of inter-agency or inter-
government discussion before they finally realized that our 
tent is not big enough. So I encourage the opening of the tent 
earlier in the process.
    But there is one pitfall that is kind of outside the 
spectrum of your question that I would like to address. That 
is, when the industry goes to the bank to get a loan, they need 
to demonstrate a guaranteed reliable supply of timber over X 
period of years until the loan is paid off. Right now, while 
there is this plethora of wood in the forest, it seems like a 
minor issue.
    However, what has never been done is a statewide 
comprehensive analysis or assessment of how much supply there 
is. It has to be done where you remove wilderness, wetlands, 
the two steepest slopes, and the other areas that are just 
prohibitive to get into. Then you identify where the local 
collaboratives, like I sit at the table with, have identified 
priorities where there is that zone of agreement, where there 
is that social license, and how much supply is in that area.
    Then the industry can make carefully calculated investment 
decisions based on that quantification of supply. Right now, 
people are kind of shooting in the dark. The guys who get there 
early have a more compelling argument because there is more 
wood.
    But as we need more industry to ramp up to help us process 
the wood out of these interface areas, that question is going 
to be coming increasingly as the bottleneck, I believe, in 
developing the infrastructure to deal with it.
    Mr. Grijalva. Thank you. I yield back.
    Mrs. Napolitano. Thank you. Mrs. Lummis.
    Mrs. Lummis. Madame Chairman, in the interest of time I am 
going to submit my questions for this panel to you in writing. 
I have just a couple of editorial comments, though.
    Eight months ago Wyoming had three large operating sawmills 
in our state. Since then, two of them have closed. Roughly 400 
employees and contractors were put out of work when those mills 
shut their doors, further exasperating Wyoming's inability to 
thin the forests or protect rights-of-way for transmission 
lines in a way that will address immediate needs on the ground.
    If we don't protect these forest industries, to a certain 
extent we are fueling our own problems.
    I also want to stress that it is so good to hear from 
county commissioners back here, because we need to be 
coordinating with counties. Not making them cooperate with the 
Federal government. And it is a coordination effort. The people 
on the ground are the ones with the expertise to understand how 
to address issues in their area.
    So I want to applaud Commissioner Rich for joining us 
today. I will submit my questions to you in writing. But thank 
you very much, all of you, for attending today.
    Mrs. Napolitano. Thank you, Mrs. Lummis. We expect the 
votes within the next 10, 15 minutes, so I would like to--Ms. 
DeGette.
    Ms. DeGette. Thank you very much, Madame Chair. I really 
also want to thank our elected officials for coming today, 
Representatives Scanlan and Gibbs, and also Commissioner Rich, 
for sharing your local perspective. It really helps.
    I mean, those of us from Colorado, you saw the delegation, 
we understand the devastation of this problem. We are trying to 
work with everybody.
    It is beyond comprehension unless you see it, and it is 
beyond avoiding. So now we are trying to deal with it.
    Representative Scanlan, I want to ask you, you referenced 
that the Federal government could help with these 
collaboratives and break down some barriers. I am wondering if 
you could tell me specifically what we can do to the Federal 
agencies to try to put these inter-agency and inter-
governmental collaboratives together in a better way.
    Ms. Scanlan. Thank you, Congresswoman DeGette. I do want to 
acknowledge what Sloan Shoemaker was saying. I do think we have 
a very healthy collaborative environment in Colorado. Because 
of the urgency of the situation, it has brought people to the 
table who are very intent on finding solutions.
    I think there are good models in that that could be 
translated into the Federal level, on how we need to work 
across agencies in particular. We tend to do shuttle diplomacy, 
if you will, a bit, as well as when we are tied or hamstrung by 
levels of bureaucracy from a state perspective. If we could get 
help in streamlining those processes, that would be terrific.
    Ms. DeGette. If you could, if you or some of your staff 
could help us put together some specific recommendations for 
the Federal agencies. We will work with Secretary Salazar and 
Secretary Vilsack and others to make sure we can do that.
    Commissioner Rich, one thing that you mentioned really 
struck me. That is, that it would be helpful to get some of 
this dead wood out--if we could get some economic incentives to 
people to come in and take it out.
    I am wondering if you or your Northern Colorado 
Collaborative have looked at some of the economic incentives 
for woody biomass. If you have any opinions, if there is 
anything we can do at a Federal level to encourage development 
of that.
    Mr. Rich. I would feel that woody biomass is an economic 
value. But we have to save our loggers.
    One thing that, kind of out of the idea, but during the 
Depression, farmers were in real trouble, and the U.S. 
Government stored commodities. Why don't they store two-by-
fours, or cants, or something like that until it gets back?
    But yes, economics run itself--if we can make it pay.
    Ms. DeGette. Super, thank you. Mr. Shoemaker, I wanted to 
ask you a couple of questions. The first one is, I am wondering 
what the wilderness workshop and some of the environmental 
groups do on economic incentives for woody biomass are, and if 
you could talk about that for a moment.
    Mr. Shoemaker. I tread here very carefully, because I 
don't----
    Ms. DeGette. So do I.
    Mr. Shoemaker. I don't have a tremendous amount of 
background in this, though having talked to some in that 
industry, my understanding is that the best, the most efficient 
use of the woody biomass is for direct heat generation--not for 
electrical generation.
    I think fundamentally that is a sound use of the material. 
For us, it is more a matter of where it comes from, and an 
industry that is scaled properly, so that we don't end up with 
more industrial capacity than we have supply for on the tail 
end, which is going to create problems, economic disruption and 
job loss.
    Ms. DeGette. Well, just to let you know that any removal of 
the woody biomass would still need to comply with the NEPA 
rules, just like it is right now, and several witnesses 
referenced it.
    It seems to us as we do this climate change bill, which 
ultimately can help with the bark beetles, that we might be 
able to get incentives for folks to remove some of the downed 
trees, the woody biomass.
    I want to ask you one last question, which is a follow-up 
on the question I had asked to Mr. Cables earlier. I wonder if 
you can give your brief opinion about how we can find a balance 
in the future between protecting healthy trees, while allowing 
the thinning of the dead trees.
    I am particularly worried, as I mentioned to Mr. Cables, 
about what will happen once all of this--Madame Chair, I ask 
unanimous consent just to finish this question, please.
    Mrs. Napolitano. We do have another panel coming up.
    Ms. DeGette. What we can do to make sure the forests in 50 
or 100 years are healthy, that we don't have the same problem 
now, because all the forests are the same age.
    Mr. Shoemaker. Thank you, Ms. DeGette. I kind of get hung 
up on the question and how you define health. Arguably, the 
next forest is already started. It is in the understory of the 
dead forest now. One of the goals for diverting this potential 
in the future is a more diverse forest.
    If you get out and walk around the understory of that dead 
forest, you see spruce, you see fir, you see douglas fir, you 
see aspen establishing. In some place there might not be any 
forest; other places there is going to be some lodgepole, thin 
or thick, depending on the cones.
    So before we make assumptions about what exactly is going 
to happen in the future, I think that we need to make sure we 
understand what exactly is happening now, and what we are 
getting set up for.
    The future is somewhat unknown because of climate change. 
We are operating in a world that we do not have experience in. 
Therefore, the conservation community's perspective generally 
is that we try to give ecosystems the opportunity to respond in 
ways that they have the wisdom that we don't.
    I think we have tried managing and imposing our human will 
in forests in the past, and that has led to things like the 
fire special policy that led to overstocked forests, and 
therefore ultimately more severe fires.
    I would argue that we need to figure out ways that we can 
restore forests that are degraded because of human settlement, 
and then have a more observant approach to how those ecosystems 
are going to respond in the future.
    Ms. DeGette. Thank you. Thank you very much, Madame Chair.
    Mrs. Napolitano. You are welcome. Panelists, thank you very 
much for your testimony. You have been very patient, and your 
testimony has been very helpful. Again, we thank you for being 
here. You are now dismissed.
    We would like to call up the fourth panel.
    Mr. Mathis. I would like to give you a pencil made out of 
beetle-killed wood made in Colorado that I would like to 
present you as a token from Jackson County.
    Mrs. Napolitano. Thank you. I need to know the amount, the 
dollar amount of the gift.
    [Laughter.]
    Mrs. Napolitano. I receive it into the record for the 
Subcommittees' use, either one.
    I would like to call up Mr. Mark Mathis, President and CEO 
of Confluence Energy in Kremmling, Colorado; Mr. Charles 
Larsen, General Manager, Carbon Power and Light, Inc., 
Saratoga, Wyoming; Brendan McGuire, Manager of Government 
Relations, Vail Resorts in Broomfield, Colorado; and Dr. Peter 
Kolb, Society of American Foresters, Missoula, Montana.
    Welcome. Thank you so very much. I would like to now begin 
to ask Mr. Mark Mathis to begin his testimony. If you will, 
please.

STATEMENT OF MARK MATHIS, PRESIDENT AND CEO, CONFLUENCE ENERGY, 
                      KREMMLING, COLORADO

    Mr. Mathis. Thank you, Madame Chairwoman and distinguished 
Members of the Committee. I appreciate the opportunity to come 
here and speak to you about our current bark beetle epidemic. 
We believe we have some opportunity to help alleviate this 
problem and to be a part of the solution.
    First, a little bit about Confluence Energy. We are one of 
the pellet plants, the pellet plants you have heard several 
people talk about. We produce approximately 100,000 tons of 
finished products a year. It is enough fuel to heat 30,000 to 
40,000 homes. It displaces about 12 million gallons of heating 
oil with clean-burning renewable energy, reduces carbon 
emissions by 264,000 pounds by creating a carbon-neutral 
energy.
    We purchase approximately 150,000 tons of green feed stock 
a year, a fair amount off of Federal land, as well as private 
lands. We have approximately 30 jobs; we just added six more 
this week. We create about $10 million in circulating funds 
within the economy.
    Part of the process that we have that I just want to touch 
base with so that everybody is familiar with what our process 
is, is that we are the first pellet plant to my knowledge to 
completely utilize dead and dying pine beetle trees as 100 
percent of their feed stock. Most of the pellet plants utilize 
waste stream from sawmills that are currently, in this 
environment, hurting.
    As a manufacturer, we take that pole tree, grind it up, as 
well as the flash and the other material, and do chips. We take 
all the combustibles and produce a bullet-size piece of 
renewable energy we tend to refer to as a solar battery, as one 
of my colleagues said.
    The pellet itself is very uniform in size, and therefore 
very easy to handle, transport, convey, and to burn. The 
utilization in this picture that I have, if you look up at 
these woods now--and people have much better pictures than I 
do--this is virtually 90 percent dead. This is taken right 
outside my house about three years ago.
    Currently, the utilization for the material in our area has 
been non-existent. We put our plants in a little bit over a 
year ago, and we have been putting value to that material. 
Currently off of the U.S. Forest Service projects that we do, 
we pay 25 percent higher price than we do for our product off 
private land. That is by our own doing just to try to help the 
U.S. Forest Service, Rick's team and whatnot, spend their 
dollars a little wisely and help it go a little bit further.
    The value, unfortunately, when we talk about the 
utilization for the higher-value material, only about 15 
percent to 20 percent of this material coming off the woods is 
viable saw material, or has a higher-value use than grinding it 
into a pellet.
    One of the largest impediments that we face, or the largest 
impediment that we face, is access to the woods. I won't beat 
that horse, because it seems like it has been beaten pretty 
well today already. We would like to see some longer term, and 
right now the best tool that the Forest Service has to do that 
is long-term stewardship contracts. We would like to see that 
extended a little, for about another 10 years up to that 20-
year level.
    It does help us to get access to capital markets when we 
can show those feed stocks. That feed stock is going to be 
available now and in the future.
    The shelf life on the material is something that you have 
heard today that is relative. Any action that is going to be 
taken needs to be taken now. Every day we go by, it is less 
opportunity, and the feed stock degrades in value.
    People think that the material, I get comments from friends 
and peers all the time, that they must just be paying you to 
take this material out of there. It is not the case, and 
availability is an issue. We actually ran out of material last 
week. We were shut down for three days for having lack of 
material, and not being able to get material in.
    One of the other pieces, and I am not sure how familiar 
everybody is with the actual uses for these pellets, here are 
just some samples of some pellet-stove commercial boilers 
central heating systems. They are very clean-burning, and they 
are used by about a million homes and businesses throughout the 
United States. A third of the consumption of energy in this 
country is for meeting thermal demands.
    Your Honor, just if we could skip to a couple slides 
forward. I just want to put this slide up there, the existing 
plants. I thank you for your testimony, and we will move this 
along because I know you are in a hurry.
    [The prepared statement of Mr. Mathis follows:]

         Statement of Mark Mathis, President, Confluence Energy

    Madam Chairwoman, Mr. Chairman, and distinguished subcommittee 
members, thank you for the opportunity to discuss the epidemic of the 
Mountain Pine Beetle and what we can do to help alleviate the problem. 
This joint hearing is timely as more of our forests are being ravaged 
by these beetles.
    Confluence Energy is helping the State of Colorado with the removal 
of the effected timber and is putting it to beneficial use. Confluence 
Energy, LLC was formed in June 2007 and operates a wood pellet 
manufacturing facility in Kremmling, Colorado, which is 70 miles 
northwest of Denver.
    Our plant is taking advantage of the regional pine beetle 
infestation to access dead and dying timber for use in its 
pelletization process. Lodge pole pine is delivered to the Colorado 
plant where these trees are chipped and then dried using heat from a 
sawdust-powered furnace. The wood chips are then ground into a course 
sawdust and sent to the pellet mills. The pellet mills press the wood 
particles through a die using intense pressure, forming the pellets 
without using any binding agents. The result is a pure wood product. 
The pellets are then either bagged in 40 pound bags, or stored in silos 
for bulk deliveries. The fuel created by the plant is both high in 
energy value and carbon neutral.
    The biomass industry is in need of better access to this type of 
feedstock. The dead, dying, downed and diseased wood in our forests 
could be put to beneficial use. The pellet industry, along with other 
biomass industries, could utilize this feedstock in a sustainable 
manner, while also helping with forest fire mitigation and suppression.
    Pellet fuel is a renewable, clean-burning and cost stable home 
heating alternative currently used throughout North America. It is a 
biomass product made of renewable substances, such as Mountain Pine 
Beetle infested trees. There are approximately 1,000,000 homes in the 
U.S. using wood pellets for heat, in freestanding stoves, fireplace 
inserts and even furnaces. Pellet fuel for heating can also be found in 
such large-scale environments as schools and prisons. North American 
pellets are produced in manufacturing facilities in Canada and the 
United States, and are available for purchase at fireplace dealers, 
nurseries, Home Depot and other building supply stores, feed and garden 
supply stores and some discount merchandisers. In short, pellet fuel is 
a way to divert millions of tons of waste and turn it into energy.
    As a wood pellet manufacturer, we take ground wood, waste wood, 
paper, bark and other combustibles and turn them into bullet-sized 
pellets that are uniform in size, shape, moisture, density and energy 
content. Their uniform shape and size allows for a smaller and simpler 
conveying system that reduces costs. Because of pellets' high density 
and uniform shape, they can be stored in standard silos, transported in 
rail cars and delivered in truck containers. Of course, in transport as 
well as end use, pellets pose none of the risk of explosion that fossil 
fuels do.
    About Confluence Energy:
    <bullet>  100,000 tons of fuel production per year--largest wood 
pellet facility in Western U.S.
    <bullet>  35,000 homes and businesses that can be heated with our 
fuel
    <bullet>  12 million gallons of heating oil displaced by our clean, 
renewable pellet fuel
    <bullet>  264 million annual pounds of CO<INF>2</INF> displaced by 
our carbon-neutral fuel if heating oil is replaced, thus helping to 
address global warming and climate change
    <bullet>  160,000 tons per year of annual wood purchases--
approximately 100% beetle kill material, providing valuable market for 
USFS and private land owners in Colorado
    <bullet>  $10 million annual payroll, wood and materials purchases, 
circulating in local economy
    <bullet>  Approximately 30 full-time employees and indirect job 
creation in wood supply, pellet distribution, retail sales
    <bullet>  25 trucks per day--all through local contract hauling--
making wood and packaging supply deliveries, and shipping pellets 
throughout the region
    We are a developer, owner and operator of renewable energy 
production facilities. Our goal is to generate cleaner, more reliable, 
cost-effective and sustainable energy by combining a cellulosic ethanol 
generation facility with a wood pellet production facility. From a 
single feedstock of timber by-product or woodland waste, we will both 
power our combined facilities and generate two distinct energy 
products, ethanol and wood pellets.
    Currently, there are a number of opportunities that our business 
model may be able to benefit from:
    <bullet>  Utilizing dead and dying trees for use of renewable 
energy product
    <bullet>  Create utilization park that would use 100% of the forest 
material and create some of the following products:
      <all>  Wood pellets
      <all>  Second generation bio-fuels (ethanol)
      <all>  Electricity generation
      <all>  High value lumber products
      <all>  Landscape products
      <all>  Animal bedding
      <all>  Provide local communities with renewable energy
      <all>  Create energy independence for our local communities
    <bullet>  Most experts have estimated that fossil fuel cost will 
increase in price over the next five years and most industry experts 
agree that the cost will continue to move higher over longer periods of 
time. We believe this will drive consumers and business owners to look 
for viable alternatives to fossil fuels.
    The utilization of the material from U.S. forests and parks will 
put value to the material which is currently considered a substantial 
liability to the U.S. taxpayers. Confluence Energy has viewed documents 
created by United States Forest Service (USFS) personnel that suggest 
that the cost to treat the some of the existing area in USFS Region 2 
would exceed $220 million over the next three years. Confluence Energy 
suggests that by lowering some of the existing hurdles in accessing the 
dead and dying trees, private industry can put value to the material 
and dramatically reduce the cost to the tax payers. Confluence Energy 
would estimate the saving to be in the range of $75 million over the 
course of five years.
    There is no current access to large volume long-term USFS or Bureau 
of Land Management Lands (BLM) lands. There is no current legislation 
that allows the USFS to allow for 20 year stewardship or other 
agreements to access national forests. Confluence Energy will suggest 
allowing private industry the access to large volumes of the dead and 
dying trees over extended periods of time (long term stewardship 
agreements). The long term access to feed stock supplies will allow 
private industry accessibility to equity and debt markets that require 
long term views. Accelerated access to beetle infested material could 
also be done trough abbreviating the current National Environmental 
Policy Act (NEPA) process for these infested areas.
    There are a few pieces of pending legislation that would restrict 
access to dead and dying material. As problem grows the liability to 
the tax payers increases. There is pending legislation (e.g., H.R. 
1190) that would allow access to the dead and dying materials that 
could be used to create jobs and produce renewable energy, building 
materials, and economic development in rural areas.
    The dead and dying trees have a limited shelf life. It is estimated 
that once the trees die and turn red they have eight to 15 years before 
they blow over. Once the trees blow over, they will create a jack straw 
effect which will make it nearly impossible to be harvested affordably. 
When trees blow over, they rot dramatically faster and remove any value 
in the wood. Every minute we talk and do not act, not only are we are 
losing value, but we are reducing the time private industry has to get 
a return on their money to justify investing in these types of 
projects.
    Confluence Energy's wood utilization facility can use the material 
long after there is no value for the high value user (e.g., house logs 
and architectural beams). Most forestry experts will agree once the 
beetles kill epidemic moves through a lodge pole pine forest, that the 
forest will regenerate into what is referred to as a dog hair stand 
(3,000 to 4,000 trees per acre). A healthy lodge pole forest has 
approximately 300 to 400 trees per acre. A pre-commercial thinning will 
be required to accomplish any future commercial value in future 
generations. Removing 60 to 80% of the small diameter trees in 20 to 25 
years will allow the trees to grow in healthy stands for future 
generations. To summarize, the small wood utilization facility is a 
good forest management tool, now and for generations to come.
    The sizes of the facilities are critical to the success of the 
forests now and in the future. We suggest that several of these 
facilities could and should be built in the beetle infested areas. Care 
should be taken not to make the facilities too large. Over-sized 
facilities could potentially place incremental demand on the forest 
that is not sustainable, creating a boom and bust cycle for the local 
economies. In many of the areas that are predominately lodge pole 
forests, there is a limited 10 to 15 year window for the higher grade 
material. This is due to the fact that after the initial beetle kill 
material is utilized, blown down, or consumed by fire, the pre-
commercial thinning projects in the future would not yield large enough 
trees to yield a high value.
    There is currently some USDA programming that is almost available 
to fund this sort of project. Confluence Energy would require $10 
million in grant funding and an additional $20 million in USDA backed 
loans. The loans and grants would allow Confluence Energy to:
    <bullet>  Build an 8 to 10 million gallon ethanol plant (Confluence 
Energy has partnership with large U.S. fossil fuel company that is 
interested in the joint venture project)
    <bullet>  Build a five megawatt power generation system to provide 
clean renewable energy to meet all the facilities needs. Excess power 
would meet entire energy needs of the town of Kremmling. Any excess 
power can be sold back to grid. Excess heat from electrical generation 
will be used in both the pellet plant and ethanol plant.
    <bullet>  Retrofit and remodel the 50,000 sq. ft. existing facility 
to manufacture high value wood products
    <bullet>  Renovate existing rail loading facility to transport all 
finished products to market
    <bullet>  Expand current pellet facility to maximize potential 
output
    The current USDA programs require the participation of a 
conventional lender. The current credit market makes it very difficult 
to fund these types of projects. The current USDA programs only cover 
75% of such a project. The lenders risk on the remaining 25% is enough 
to scare away most lenders. The limitations on the grants that we 
qualify for are $500,000.
    The implementation of a wood utilization facility would allow 
companies like Confluence Energy to place the highest possible value to 
the existing dead and dying trees. Each and every tree would be sorted 
in effort to have the tree go to its highest value use. The facility 
will be designed to utilize 100% of the unwanted biomass material. 
Confluence Energy can create a system that will not require incremental 
federal money once the facility is up and running. Confluence Energy 
would pay a high enough value for the material that the USFS and other 
agencies would not be required to subsidize the removal of the trees.
    It is estimated that the suggested facility would utilize 
approximately 400,000 tons of material. The estimated feed stock cost 
is $14 million a year. Confluence Energy estimates that USFS and other 
federal agencies would realize greater than $10 million in annual 
savings.
    The utilization facility would create over 100 good-paying full 
time jobs in rural areas. The jobs would include chemical engineers, 
mill rights, carpenters, managers and operators. Confluence Energy 
currently employs over 30 people and pays wages that are 25% higher 
than the average wage in the area.
    The biomass industry is virtually not recognized by federal 
government as part of the solution to help this county realize our 
energy independence. We would like to see biomass treated on an equal 
playing field with the other renewable energy industries. The industry 
would expect to see production tax credits similar to what others 
receive. In fact, the Pellet Fuels Institute, a trade association 
representing biomass pellet manufacturers and equipment suppliers, is 
currently working to make this tax credit a reality. Creating thermal 
energy using biomass is given no federal support of any kind, which is 
inexplicable, given that thermal energy accounts for 32% of this 
country's energy needs.
    We believe that conditions are ripe for expanding our business and 
co-locating wood pellet, cellulosic ethanol, power generation and high 
value building products utilization facilities. Our combined facilities 
could take advantage of all of the opportunities noted above. The 
implementation of combined facilities would allow us to expand what we 
can use as raw feedstock and to then allocate our raw feedstock costs 
across several business streams. The wood pellet plant alone--or a 
combined facility--is an effective forest management tool. The plants 
can utilize low or no value material from forests and turn it into high 
value renewable energy sources. The ethanol processing residue would 
also be used to provide the process heat requirement for both plants. 
This results in a processing facility with lower emissions and two fuel 
streams (ethanol and wood pellets) that are cleaner and more 
environmentally friendly than their fossil fuel counterparts. High 
grade logs would be separated on site and utilized to make several 
building products including flooring, paneling, house logs, 
architectural beams, round wood products and etc. It is estimated that 
only 10% to 15% of the standing dead trees would qualify for the high 
value use.
    Our experience suggests that we have solid demand for our existing 
wood pellet manufacturing capability in both residential and commercial 
applications. Residential applications have existed for more than 20 
years and sales of residential stoves are forecast to increase in 
popularity. To date, we have had success in securing distribution 
contracts with hundreds of retail stores. We have packaging 
capabilities and are readily able to serve the residential market. 
Moreover, as pellets can be produced, delivered and fired for 50% less 
than propane, fuel oil or electric heat, this fuel savings is creating 
fast-growing interest in using wood pellets in commercial applications. 
With expanded capacity, we intend to focus on the commercial market.
    The pellet industry is part of the solution to the Mountain Pine 
Beetle infestation. These infested trees are a detriment to the health 
of the forest and can lead to massive wildfire hazards. The pellet 
industry can use this un-merchantable wood and put it to a beneficial 
use. This form of renewable energy is a win-win proposition to address 
this problem. Thanks again for allowing me to testify regarding this 
Mountain Pine Beetle epidemic and what we can do to help alleviate the 
problem.
                                 ______
                                 
    Mrs. Napolitano. Thank you very much. We do have your 
slides in the testimony for the record, and appreciate your 
testimony, your verbal testimony, because that adds a little 
more of the understanding to how you view the issue.
    I would like to then move on to our next panelist, Mr. 
Larsen.

 STATEMENT OF CHARLES A. LARSEN, GENERAL MANAGER, CARBON POWER 
               AND LIGHT INC., SARATOGA, WYOMING

    Mr. Larsen. Thank you, Madame Chairman. They tell you when 
you write testimony that you should really hit them off hard 
right when you get up front with the testimony. But you have 
all witnessed the pictures that have been up here today, and 
there is nothing I can say to you today that would give you a 
better image of the grave issue that we are facing in the West. 
These are visions that I get to look at every day.
    As it says in my testimony, I am the General Manager of 
Carbon Power and Light. We are a rural electric cooperative in 
south central Wyoming. We are a small co-op. We have a large 
service territory of 3.3 customers per mile, 6,100 meters, and 
we serve in portions of the Medicine Bow Mountain, the Sierra 
Madre and the Medicine Bow Range.
    In 2006 and 2007 we watched from the valley as it had been 
moving into the area, but it really seemed to explode, the bark 
beetle issue really came on strong. As the General Manager of a 
rural electric cooperative with distribution power lines 
serving cabin communities, a reservoir providing water to the 
City of Cheyenne, communication sites, and Forest Service 
facilities, we became quite concerned of what the impact would 
be as these trees died along our power line right-of-ways.
    Typically our right-of-ways are 10 to 15 feet either side 
of center line, or 20 to 30 feet in width. That doesn't seem 
like it is very much. But with a healthy forest, they have been 
working quite well for years.
    As you can see from these pictures, we have a lot of trees 
that are dying along those right-of-ways, and we became quite 
concerned.
    At that time, in early 2007, or October 2007, I called a 
meeting with the Forest Service folks in our area because we 
were concerned. Two of my staff members and myself met with 
nine Forest Service officials and expressed our concern, and 
were asking questions as to what was going to happen.
    Much to my surprise, I was informed that there was no 
budget on the Forest Service side to handle any clearing 
outside of our existing right-of-ways, and that they would be 
our responsibility.
    In subsequent meetings I was also informed that if one of 
those trees fell from outside that area, my cooperative would 
be held liable. This was an extreme concern to us. Our legal 
counsel approached the Forest Service people in our area and 
said, where does it say that in our special permits, that we 
could be held liable.
    He asked for a legal opinion; was never given one. Was told 
that the Forest Service legal counsel could not talk to him on 
this, and that we would remain liable.
    Having been faced with that, we had no decision to make but 
to move on. We worked with the Forest Service. Our local Forest 
Service people had been very good about trying to help us get 
going. They have come up with a streamline approach from the 
NEPA program; it is called an environmental assessment. But you 
have to put streamlined in context here.
    We started on this process in early 2008. We have not had a 
complete EA approved at this time. We have not been able to cut 
a tree, and we are going to more than likely not cut a tree in 
2009.
    For clarification, our special use permits say that we are 
responsible for clearing the trees in that permit area. They 
also go on to say that any tree that is a danger that is 
leaning in toward the power line, we must contact Forest 
Service to get permission to cut that tree. If it is an 
immediate danger we can cut it, but we have 48 hours to notify 
them that we have done so.
    That led us to believe that all those trees outside our 
permit area were not our responsibility, but now they are. 
While we go through the EA process and all the rules and 
regulations, and all the study associated with this project, 
the clock is ticking, and the liability is still hanging over 
my head.
    At the beginning of this process, I guess one of the 
biggest problems we had is we were the first guys, to my 
knowledge, we were the first ones that moved ahead with a 
distribution power line clearing project. I guess one of the 
problems with being first is all the rules get created as you 
go along. That is one of the biggest things that has hindered 
us in moving forward with this.
    I would like to just close, and I thank you for your time. 
Again, the clock is ticking for us. I still have the liability 
issue as a cooperative. Many cooperatives in the state, in the 
states represented here today, have that hanging over their 
heads right now. We need your help.
    [The prepared statement of Mr. Larsen follows:]

           Statement of Charles A. Larsen, General Manager, 
             Carbon Power and Light Inc., Saratoga, Wyoming

    Honorable Committee Chairmen and Committee Members, my name is 
Charles A. Larsen and I am the General Manager of Carbon Power and 
Light Inc.(Carbon), a Rural Electric Cooperative providing distribution 
electric service to Member-Owners (consumers) of the Cooperative in 
south central Wyoming. The purpose of my testimony today is to provide 
you with information specific to Carbon's experiences associated with 
the impact of the Mountain Pine Beetle (Pine Beetle) infestation and 
the impact that infestation is having on the Cooperative.
    As stated Carbon is a Rural Electric Cooperative and like many 
Electric Cooperatives our service areas are large and our numbers of 
consumers are low. Carbon's consumer density is 3.3 consumers per mile 
of line for a total of 6,100 meters. The geological makeup of Carbon's 
service territory ranges from grassland, to foothills and portions of 
the Medicine Bow and Sierra Madre mountain ranges. For the purpose of 
this hearing, we will be focusing on Carbon's distribution electric 
system serving within the aforementioned mountainous areas.
    In 2006 and 2007 those of us living in south central Wyoming, 
watched as the Pine Beetle infestation, which was devastating 
Colorado's northern forests, rapidly spread into our forested areas. 
Because Carbon has several ``Special Use Permits'' within the National 
Forests, which provide right-of-way access and allows us to provide 
distribution electrical service to numerous cabin communities, 
communication sites, a reservoir providing water to the City of 
Cheyenne and Forest Service Facilities we understandably became quite 
concerned with the inevitable impact that these dying trees would have 
on our overhead power lines within these permit areas. At the start of 
this process, it was anticipated that within a 5 year period the 
mortality rate of the lodge pole pine species in our forested areas 
will be 90 to 95%--this estimation is proving to be correct.
    For clarification, each time Carbon extends its electrical 
distribution lines within the National Forest, we are required to apply 
for and receive approval from the U.S. Forest Service (Forest Service), 
under their permitting process, prior to constructing our facilities. 
Historically, the Forest Service has granted us right-of-way widths of 
20 and 30 feet (10 to 15 feet either side of centerline). Carbon is 
then required to maintain that permit area, based on a set of 
guidelines provided for in the ``Special Use Permit''. As you probably 
have already noted--20 to 30 feet is not very wide, however under a 
healthy forest situation, these widths have been adequate for many 
years. The permits for these right-of-ways are also very clear as to 
how Carbon must address trees leaning into the right-of way from 
outside the cleared permit area. Carbon must either notify the Forest 
Service that a tree is a problem and get permission to remove it or if 
it is an immediate hazard it can be removed, provided we notify the 
Forest Service within 48 hours after doing so.
    In October of 2007, recognizing the pending impact this tree 
mortality would have on our power lines; I requested a meeting with the 
Forest Service to discuss the situation. That meeting was held on 
October 9th and included myself, two Carbon employees and nine Forest 
Service employees. After expressing our concerns I was very surprised 
to learn that--all of those trees--dead and dying--outside our permit 
area, were now Carbon's future responsibility and expense to deal with. 
At this meeting and in subsequent meetings we were also informed that 
Carbon would be liable, if in fact one of those trees fell from outside 
the permit area, contacted our power line and started a forest fire.
    This was the beginning of Carbon's quest to address the Pine Beetle 
impact--a process that to date has failed to facilitate the large scale 
removal of any hazard trees adjacent to our permit areas.
    Early in this process, it seemed that the existing Forest Service 
Rules and Regulations were clear as to how to manage a healthy forest 
and the transition in dealing with a dead forest was something they had 
not planned for. For my part, I wrote numerous letters and met with 
Forest Service Officials, Wyoming's Congressional delegates, the Rural 
Utilities Service, the National Rural Electric Cooperative Association 
and neighboring Electric Cooperatives expressing my concerns and to 
attempt to seek some cohesive common ground in addressing the problem. 
Unfortunately--it was clearly apparent that no one knew just what to 
do. At this point, I must admit it felt pretty lonely out here in 
Wyoming.
    Since that time, after numerous meetings (12 total), countless 
phone calls and emails, the Forest Service has worked with Carbon to 
commence with the process of preparing an Environmental Assessment (EA) 
which will be required prior to achieving our goal of widening the 
existing right-of-ways to 150 feet. That process started in November of 
2008 and is yet to be completed. There is currently discussion 
regarding the requirement of an additional ``Goshawk Study'' under the 
biological component of the EA. It is now extremely unlikely that 
Carbon will be allowed to move ahead with any right-of-way widening in 
the current year.
    Carbon currently has 34 miles of distribution power line that must 
be addressed. To address our potential liability Carbon has increased 
its general liability insurance amount from $4 million to $10 million. 
It is estimated that before this project is completed, the general 
expenses associated with the project, the EA and the actual clearing, 
Carbon will expend an amount in excess of $1.3 million. In the scope of 
things currently taking place nationally--that may seem like a small 
amount, but for Carbon and other Cooperatives facing this similar 
issue, it is funding that we must borrow and which will be paid back 
through the electric rates of our current and future Member-Owners.
    In closing, there are those who say this is a natural occurrence, 
those that say it is caused by climate change and there are those who 
say that it is due to mismanagement of our forests. At this point 
however, laying blame accomplishes very little. The Forest Service, 
Environmental Community, General Public, Utilities and our 
Congressional Representatives must come together to address this issue. 
For Carbon--and other Electric Cooperatives serving in Pine Beetle 
impacted forests we need your help--the clock is ticking--and time is 
running out.
    I would like to thank the Committees for your time and your 
consideration in this matter.
                                 ______
                                 
    Mrs. Napolitano. Thank you, sir. I appreciate that.
    Mr. McGuire, we will finish your testimony. We already have 
a vote on the Floor, so we will have to leave. There will be no 
questions directed at you. The committee will submit them to 
you. If you will respond as promptly as you could.
    And your testimony, sir.

STATEMENT OF BRENDAN McGUIRE, MANAGER OF GOVERNMENT RELATIONS, 
               VAIL RESORTS, BROOMFIELD, COLORADO

    Mr. McGuire. Excellent, thank you. Good afternoon. Thank 
you for the opportunity to be here and present the views of 
Vail Resort on the bark beetle and potential strategies for 
protecting the West.
    Just to dive right in, we really have three main 
recommendations. This committee should be commended for its 
work on the FLAME Act, disentangling the fire suppression 
account from the Forest Service budget, and allowing for 
increased resources to flow to forest health and recreation 
operations is a major step forward. It is probably the most 
important action that Congress can take.
    Number two, I think, as you have heard today, this outbreak 
is beyond the capabilities of any single stakeholder in the 
forests to deal with on their own. We need to increase the 
partnerships that we have with all the stakeholders. For the 
ski resorts, that means increasing the partnership with the 
Forest Service in terms of increased funding to work on that 
vegetation management on the ski resorts, which are also 
basically part of the wildland-urban interface.
    Third, other opportunities to respond to the bark beetle 
include supporting the forest product infrastructure, 
opportunities in biomass energy, renewable energy standard; 
providing the Forest Service with increased flexibility to 
respond to this epidemic; and reforestation where it is 
appropriate.
    A little bit of information about Vail Resorts. We operate 
five of the most visited of the 10 most visited ski resorts in 
the United States. In Colorado those operations are Vail 
Mountain, Beaver Creek, Breckenridge, and Keystone, all located 
on the White River National Forest. Our fifth resort is 
Heavenly Mountain Resort in Lake Tahoe, and that is a 
management unit.
    We accounted for 5.9 million skier visits last season. That 
is the majority of visits in Colorado, about 10 percent of the 
United States skier visits.
    I see that, because I want to emphasize how important 
recreation is on the forest, and especially to Colorado, it is 
not only the economic base for our forest communities, but it 
is one of the economic bases for the State of Colorado. We have 
the most visitors to our national forests out of any state in 
the country, just a little bit above California.
    Tourism is our second-largest industry, and employs over 
143,000 people in our state. There is about $15 billion in 
annual travel spending.
    We do operate our resorts on the national forests under 
special use permits from the Forest Service. We really do value 
our partnership with the Forest Service, on the district, 
forest, regional, and national level. Without this partnership, 
our critical day-to-day operations really would be negatively 
impacted. We look forward to continuing to work closely with 
the men and women of the Forest Service.
    Our resorts are fortunate. We do have a diversity of trees. 
We are not totally dependent on the lodgepole pine. We have 
aspen and spruce and firs. But the beetle is in our trees. We 
have seen it before, but the extent this time around is much 
greater than we have seen before.
    It is going to necessitate a continued increased level of 
forest health work on our part. We need to do this in 
conjunction with the Forest Service, and we are committed to 
doing this really for two reasons: the safety of our guests and 
infrastructure, and to be responsible stewards of the public 
lands.
    The safety of our guests and the infrastructure is our 
number-one primary driver. To that end, we have to identify and 
remove hazard trees, much like the transmission folks do. 
Hazard trees are trees that get too close to the buildings or 
within our defensible space for wildfire purposes, and also 
trees that have the danger of dead falling or blowing down onto 
our lift lines or infrastructure, or onto the trails that our 
guests use.
    Since the outbreak began, we have seen a dramatic increase 
in the number of hazard trees that we need to take out of the 
forest. We work closely with the Forest Service to do this. We 
really appreciate the Forest Service's prompt responses to us. 
It is just very important that we get those trees down as 
quickly as possible once they are identified.
    With this widespread infestation we have to do more than 
just sort of look at individual hazard trees. We really need to 
look at the landscape, the mountain as a whole; looking at the 
entire stand of trees, and prioritizing treatment options.
    We are working closely with the Forest Service. We are 
consolidating this work into updated vegetative management 
plans for our mountains. These are in various stages of 
environmental review and implementation.
    So I am just going to sort of skip to the end. Those two 
recommendations I have--funding, funding, funding; resources, 
resources, resources--really is the crux of all the issues--in 
terms of what we can do, whether it is collaboratively, state, 
local, private lands. It is especially important for the 
Federal partnership that we have with the Forest Service.
    We would like to do more--leverage our dollars with the 
Forest Service, leverage the Forest Service dollars to do more 
work on these recreation areas, where millions upon millions of 
people visit their national forests every day and really get 
that good impression.
    So with that, I will conclude. Thank you very much for your 
time. It is an important issue. We look forward to working with 
you.
    [The prepared statement of Mr. McGuire follows:]

    Statement of Brendan McGuire, Manager of Government Relations, 
                              Vail Resorts

    Good morning and thank you for the opportunity to present Vail 
Resorts' views on the mountain pine beetle (MPB) and strategies for 
protecting our natural resources.
    My name is Brendan McGuire and I am the Manager of Government 
Relations at Vail Resorts. I also serve on Colorado Governor Bill 
Ritter's Forest Health Advisory Council.
    This hearing is of critical interest to Vail Resorts and the 
following testimony will focus on these recommendations:
    <bullet>  Disentangling fire suppression costs from the Forest 
Service budget and increasing funding for forest health and recreation 
operations is the most important action Congress can take.
    <bullet>  The MPB outbreak has created forest health challenges 
beyond the capabilities of any single stakeholder and increased 
partnerships are essential to achieve the desired outcomes.
    <bullet>  Other opportunities to responding to the MPB include 
supporting forest products infrastructure, biomass energy, providing 
the Forest Service with increased flexibility to respond to the MPB, 
and reforestation.
Background
    Vail Resorts is the premier mountain resort company in the world 
operating five of the 10 most visited ski resorts in the United States:
    <bullet>  Vail, Beaver Creek, Breckenridge, and Keystone located 
entirely or partially on the White River National Forest in Colorado; 
and
    <bullet>  Heavenly Mountain Resort in the Lake Tahoe Basin 
Management Unit in California & Nevada.
    During the recent 2008/2009 season our resorts drew 5.9 million 
skier visits (approximately 10% of United States skier visits). In 
addition to the ski season, thousands of people visit the communities 
in which we operate to enjoy the beautiful summer weather and multitude 
of activities including recreating in the woods. These tourism/
recreation based activities are the economic base for not only 
Colorado's forest communities but for Colorado's economy as whole. 
Tourism is Colorado's 2nd largest industry with over 143,000 employees 
and $15 billion in annual travel spending.
    Vail Resorts operates its resorts on National Forests under special 
use permits from the United States Forest Service (USFS). Our resorts 
value the partnership we have with the USFS on the district, forest, 
regional and national level. This partnership is critical to the day-
to-day operations of our resorts and we look forward to continuing to 
work closely with the dedicated men and women of the USFS.
Vail Resorts Forest Health & Response to Mountain Pine Beetle
    This testimony is based on our operations in Colorado where the MPB 
is currently active. However, at the end of the testimony I will 
briefly comment on forest health at Heavenly Mountain Resort in Lake 
Tahoe.
    The USFS are the forestry experts in the room so I will defer to 
them to elaborate on the state of forest health in the west and the 
MPB. However, for some context in my testimony, the Colorado State 
Forest Service's 2008 forest health report (to which the USFS 
contributed) estimates that the MPB has infested a total of 1.9 million 
acres 1996 when the outbreak was first noted. The MPB are primarily 
infesting lodgepole pines older than 30-40 years with a mortality rate 
of 90% and higher.
    While our resorts are fortunate to be home to diverse species of 
trees (including aspen, spruce, and fir), the extent of the MPB 
activity in aging lodgepole pines at our resorts necessitates an 
increased level of forest health efforts. In carrying out these 
efforts, in conjunction with the USFS, Vail Resorts is committed to the 
safety of our guests and the responsible stewardship of the 
environment.
    The safety of our guests and the resort infrastructure that serves 
them is our primary concern. To that end the identification and removal 
of hazard trees is an on-going initiative. Examples of hazard trees 
include:
    <bullet>  Trees within the wildfire defensible space of resort 
structures.
    <bullet>  Trees with the potential to dead-fall or blow-down onto 
lift lines, buildings, or trails.
    Since the MPB outbreak began we have seen a dramatic increase in 
the number of hazard trees that need to be removed each year.
    In addition to hazard tree removal, other forest health efforts are 
aimed at promoting increased species and age diversity through 
selective tree thinning, small patch cuts, and forest restoration work 
where the MPB has had or will have the greatest impact. Vail Resorts 
has also successfully utilized spraying to protect certain high value 
trees from MPB.
    In the past our forest management was focused on identifying and 
removing individual trees that had succumbed to insects before the next 
generation of insects emerged. Now, with a widespread infestation 
beyond anything we have experienced before, we are shifting our focus 
to more of a landscape level, looking at entire stands of trees 
(including what younger vegetation is present), evaluating treatment 
options for those stands, and prioritizing treatments. Working closely 
with the USFS, we have consolidated this work into updated vegetation 
management plans that are in various stages of environmental review and 
implementation.
    This landscape focus is leading to larger projects that accomplish 
the dual goals of protecting infrastructure as well as promoting 
reforestation. An example of that work is a project on Vail Mountain 
carried out in the fall of 2008. Over the course of three to four 
weeks, 16 acres of infested lodgepoles were treated along the Eagle 
Bahn Gondola line. Other species and small lodgepoles were retained. 
This pro-active treatment removed hazard and potential hazard trees as 
well as encourages accelerated reforestation by creating space for 
younger trees to thrive.
    As the visual impact of the MPB killed trees grew, it was important 
for us to inform our guests that the changing forest landscape was the 
result of a naturally occurring MPB. We deliver this message on our 
trail maps, websites, local resort television, and through the ``Ski 
with a Ranger'' program in partnership with the USFS.
    Through our charitable giving, employee engagement, and 
environmental stewardship program, Vail Resorts 360, we have also 
engaged our guests to actively support restoration work on the forest 
through a partnership with the National Forest Foundation Ski 
Conservation Fund. Our guests have the opportunity to support the fund 
with $1 when they purchase lift tickets, ski passes, or stay in our 
lodges. The National Forest Foundation uses these contributions for on-
the-ground conservation work in the National Forests.
Recommendations for Protecting the West
    <bullet>  Forest Service Budget Flexibility & Funding

        First and foremost, the Natural Resources Committee is to be 
        commended for re-introducing and passing the FLAME Act out of 
        the full House. Beginning to untangle the fire suppression 
        budget from the rest of the USFS budget is a critical step to 
        let USFS focus resources on forest health and recreation.

        The need for sustained funding increases to address forest 
        health challenges related to MPB is well documented. The USFS 
        has responded with some additional funds, however the need for 
        additional funding grows every year.

        Congress should consider additional funding for the USFS to 
        specifically address critical forest health issues related to 
        MPB in our region.

    <bullet>  Partnerships

        Congress has long recognized the importance of partnering with 
        local stakeholders and prioritizing finite resources for forest 
        health projects that provide the most ``bang for the buck.'' In 
        that spirit, the USFS should be commended for its existing 
        partnerships in Colorado including its close work with ski 
        resorts.

        Given the unprecedented scale of the management challenges 
        facing the USFS and ski resorts, encouraging increased 
        partnerships through greater funding to achieve successful 
        forest management outcomes is warranted. Increased funding to 
        USFS for the development, approval, and implementation of 
        vegetation management plans for special use permit areas will 
        greatly assist the USFS and its partners in managing MPB areas.

    <bullet>  Safety

        Vail Resorts would like to thank the USFS for working closely 
        with our mountain crews to facilitate the timely removal of 
        hazard trees presenting safety issues to our guests and 
        infrastructure. The importance of this work cannot be 
        overstated.

    <bullet>  Timber/Biomass Markets

        A major challenge facing all stakeholders is what to do with 
        the relatively low value timber coming off the forest.

        To help create and ensure a viable forest products 
        infrastructure in the West, Congress should continue to look 
        for opportunities to promote the use of forest biomass in 
        renewable energy efforts, such as a national renewable energy 
        standard and the Biomass Commercial Utilization Grant Program 
        in the Healthy Forests Restoration Act.

    <bullet>  Increased Flexibility for the USFS

        The USFS, operating within the relevant laws and regulations, 
        has demonstrated a great willingness to work with stakeholders 
        in a collaborative and flexible manner to facilitate the 
        response to MPB related forest health challenges.

        However, with the extreme challenge presented by the current 
        MPB outbreak it may be appropriate to consider allotting more 
        flexibility to the USFS to address forest health challenges.

        This flexibility does not need to call the NEPA process into 
        question. Rather, Congress should work with the USFS and other 
        stakeholders to determine if there are very specific areas 
        (such as stumpage fees for MPB killed trees) where the USFS 
        response to MPB would benefit from increased flexibility.

    <bullet>  Reforestation

        Ecologically speaking, many western forests have evolved to 
        naturally regenerate after disturbances such as fire, insects, 
        or logging. However, in some cases it is appropriate to aid 
        reforestation through replanting of native species. On national 
        forests, this reforestation must be done with specifically 
        approved species that are ecologically appropriate. The USFS 
        provides these stocks of trees (grown from cones and seeds 
        collected from the local area) from its system of nurseries. 
        Congress should provide the USFS with the resources needed for 
        the collection of cones and seeds and the development of a 
        stock of seedlings for reforestation efforts to help accelerate 
        the natural reforestation.
Lake Tahoe
    I would like to briefly comment on forest conditions at Heavenly 
Mountain Resort in Lake Tahoe.
    Currently, forest insect hot spots are developing in Lake Tahoe 
where a mix of conditions is creating what could be an ideal 
environment for an insect outbreak. The Lake Tahoe region is 
experiencing reduced precipitation levels and large swaths of the 
forest are over-stocked with aged trees in the 80 to 120-year age 
class. Recognizing these conditions has led stakeholders in the region 
to look towards increased active management to stay ahead of potential 
insect outbreaks.
Conclusion
    Thank you for the opportunity to present the views of Vail Resorts. 
I am happy to take any questions that the Committee may have and we 
look forward working closely with the Committee, Members of Congress, 
and the USFS on this and other issues.
                                 ______
                                 
    Mrs. Napolitano. Thanks for your testimony, and appreciate 
your being so patient. We will be submitting some questions for 
some answers.
    Dr. Kolb.

            STATEMENT OF DR. PETER KOLB, SOCIETY OF 
             AMERICAN FORESTERS, MISSOULA, MONTANA

    Mr. Kolb. Thank you for the opportunity to testify on 
behalf of the Society of American Foresters, an organization 
with over 15,000 professional foresters as members.
    I am the Montana State Extension Forestry Specialist. I am 
also a forest ecologist and management professor at the 
University of Montana. So I work with practitioners, industry, 
private landowners. I also do research on larger ecological 
cycles in the forests of the northern Rocky Mountain 
ecosystems.
    I have a lot of slides. I won't put them up. I encourage 
you to look at them when you have the opportunity, and I would 
be delighted to provide a narrative for them. But I will put up 
this last slide, and I will get to that in a second.
    But listening to the testimony today, a few observations 
and a few comments to make on this.
    First off, it is my overall impression that you are trying 
to deal with a symptom, and not the root cause here. There are 
multiple pests that are working on forests. In Montana, 
unprecedented spruce budworm, douglas fir beetle. We also have 
mountain pine beetle. We have introduced species that are 
working on there.
    These are all symptoms of a changing climate. Whether it is 
human-caused or non-human-caused, from my perspective it is 
irrelevant.
    There is a plethora of research. Climates have always 
fluctuated. The current trend and the current predictions under 
the best scenarios, if it is anthropogenically caused, is that 
things will get warmer and drier. This will be a benefit to all 
these pests, and a stressor to our forests.
    The problem with our forests is, as you have heard, and I 
concur with all of the testimony before, is we have large 
landscapes with similar-aged similar species. What we need to 
do is bring back the mosaic to these landscapes. This involves 
proactive management. Again, there are many slides that show 
that, and I will highlight what the Rocky Boy Reservation, 
Chippewa Cree Nations are doing, and the Salish and Kootenai 
Tribes. They have gone through an extensive planning process. 
They are extensively using harvests to recreate a natural 
historical mosaic. It is just like investing in a bank 
portfolio: you diversify, particularly under uncertain times, 
which is what we are seeing.
    Younger trees are less susceptible. We need to have all age 
classes represented on these landscapes, and all natural 
species that occur on those landscapes, which we currently do 
not have.
    The long-term implications of these massive scales of 
mortality is that we have hundred-hour and thousand-hour fuels 
that end up on the surface. We have new tree species 
regenerating in those.
    In a drier, warmer climate, these hundred-hour and 
thousand-hour fuels will ignite and will burn, which adds a 
magnitude of energy release that is phenomenal. It is the 
difference between a firecracker and a bunker-buster bomb going 
off.
    Those kill the regeneration. We lose our genetic resource 
off these sites. That is the long-term consequence that is 
going on there.
    So what do we need to do? I have grown up here, I have had 
the opportunity in the last six months, as a Fulbright Scholar 
in Germany, to look at their forest ecosystems. The reason for 
this is Germany and Montana have similar forest land base 
sizes.
    Montana's annual harvest on average is 750 million board 
feet. Germany's, off of the same land base, is 12 billion board 
feet, off a country with 83 million inhabitants. They export 
wood to the United States.
    This map is the state of Bavaria in Germany. Those are all 
the wood product facilities, in a state the size of 
Massachusetts. The black dots are wood biomass energy plants, 
cogent plants. They have a diversified forest parts industry. 
Lumber and waste products go into bioenergy. That is what keeps 
their industry robust, keeps it functioning, even during 
periods of economic downturn.
    The other most important factor is their forests are 
managed for diversity, but overall sustainability, and a 
predictable wood supply. Investing in a mill requires hundreds 
of millions of dollars. Investing in modern logging technology 
requires millions of dollars.
    We have loggers in Montana that right now do not have work, 
and they have a million dollars' worth of ecologically 
sensitive equipment sitting on their front lawn. This is a very 
skilled, experienced workforce that we are about to lose, and 
we won't get back, because there are no schools that teach 
these skills.
    So as you work through these solutions, and I would suggest 
long-term planning processes across landscapes, a 10-year 
planning cycle does not work in an ecosystem that cycles in 100 
to 500 years.
    I would suggest long-term stewardship contracts, 20 to 50 
years, where you do the NEPA on an entire watershed. Once you 
are through that rigorous and painful process, a mill can bid 
on that, and now they have 20 to 50 years of sustainable 
management activities that they can conduct, which allows them 
to invest and pay off their equipment.
    These are some real solutions. Collaborative meetings are 
great if the collaborators must come to an agreement, and 
people can't come out of left field and suddenly appeal. One of 
the best forest practitioners in Montana also has his own 
logging operation, has been now to count 554 collaborative 
meetings, with no results. He is currently clearing brush under 
power lines in Kansas instead of working in the forest.
    Thank you.
    [The prepared statement of Mr. Kolb follows:]

         Statement of Dr. Peter Kolb, Montana State University

    My name is Peter Kolb, and I am the Montana State University 
Extension Forestry Specialist and an Associate Professor of Forest 
Ecology and Management at the University of Montana College of Forestry 
and Conservation. I'm here today speaking on behalf of the Society of 
American Foresters (SAF), an organization of over 15,000 forest 
managers, researchers, and educators. I've been a SAF member for 27 
years.
    I am here today to offer you my testimony with regard to the bark 
beetle situation across western forests with specific reference to the 
conditions across the Montana with which I am most familiar. My 
perspective is not that of an entomologist, but that of a forest 
ecologist and management specialist whose main work objective is to 
help implement the results and conclusion of scientific research into 
practical working applications. I work in both academic circles as an 
applied researcher and educator, and in the forest practitioners' 
realm, which gives me the opportunity not only to conduct relevant 
research, but to examine the effects of forestry applications. Just 
three days ago I returned from a week of working with family landowners 
and the Cree and Chippewa tribes of central Montana where we examined 
the forest conditions there and the effectiveness of various forest 
practices in combating a mountain pine beetle outbreak in the Bearpaw 
Mountains.
Bark Beetles
    The bark beetle outbreak we are experiencing across the entire 
western portion of North America is the result of multiple ecological 
factors converging at the same time. Its occurrence is not a surprise 
for foresters across western forests as the current expansiveness of 
bark beetle activity has been building for many years. Bark beetles 
such as mountain pine beetles, one of the main culprits in the current 
outbreaks, have been extensively studied since the mid 1970s. Its life 
cycle and ecology are very well understood. It has been a natural part 
of western forests for millennia and its population cycles are fairly 
predictable. Under what we would characterize the average forest and 
climatic conditions of the past century it exists as a chronic 
population within pine forests, colonizing and killing trees that are 
unable or incapable of defending themselves due to a variety of 
physiological, genetic or environmental factors. It may be considered 
analogous to wolves circling a herd of caribou, culling out the weak, 
unfit and injured. As with any species, bark beetles have numerous 
pests and predators themselves including a variety of predatory 
beetles, wasps, nematodes, mites, fungal diseases, and larger predators 
such as bark gleaning birds and woodpeckers. Depending on the 
populations of these predators and pests, chronic bark beetle 
populations might be kept in check.
    Perhaps one of the most important factors affecting bark beetle 
populations is climate. Typically higher elevation and northern 
latitude forests experience extreme cold periods where air temperatures 
hover at minus 30-40+F for several or more weeks in winter. Under such 
temperatures overwintering beetles or larvae experience significant 
mortality. Similarly, cool moist summers can inhibit beetle activity 
and larval development and increase the effects of fungal pathogens. 
When climatic conditions cycle into warmer and drier trends, beetle 
populations are favored with less winter mortality and faster and 
better reproductive cycles. Across higher elevation lodgepole pine 
forests in Montana for example, mountain pine beetles rarely have been 
able to expand into larger populations in the past 100 years because of 
extremely cold winter temperatures. Also, short summers have only 
allowed the beetles to typically have one reproductive cycle. When 
warmer winters, earlier springs and resulting longer summers prevail, 
bark beetle populations gain an advantage. Under longer summer 
scenarios, such as we experienced across Montana for the past decade, 
mountain pine beetles may start to achieve two regeneration cycles. Two 
bark beetles produce an average of 80 offspring on one reproductive 
cycle. With a second cycle the first generation then can produce 3,200 
offspring by the end of summer. Milder winters then allow most 
overwintering beetles to survive, which means in the second summer the 
overwintering beetles can produce 128,000 offspring in the first 
reproductive cycle and 5,120,000 offspring in the second cycle.
    An equally important factor that influences bark beetle populations 
is the availability of suitable host trees. Each bark beetle species 
has adaptations that allow it to attack and reproduce best in specific 
tree species, and when those trees are in a certain size and age range. 
The greater the suitable host tree number, the greater the potential 
food source and thus the larger the population of bark beetles that can 
develop. Likewise, the greater the percentage of host trees that are 
similar in age and size, the greater the probability of bark beetles 
successfully attacking and colonizing them at the same time.
    A landscape such as Yellowstone National Park, that had a large 
acreage burn catastrophically in 1988, will develop an even aged forest 
of fire adapted lodgepole pine that are all similar in size equivalent 
in expansiveness as the area of disturbance. When these trees reach 90-
100 years of age, they will mostly become suitable host trees at the 
same time that under the right climatic conditions can allow an 
epidemic of bark beetles to develop once again. The epidemic will then 
persist as long as there are host trees within flying distance of 
beetles and the climate remains favorable. The same is true, for 
example, of Colorado and Wyoming's lodgepole pine forests. By and 
large, these forests are mature, even age forests of lodgepole pine 
stressed by drought and high densities of trees combined with warmer 
temperatures that foster mountain pine beetle population explosion.
    Since native tree species and their pests have coevolved, trees 
have natural defense mechanisms against herbivore attacks. Most 
conifers, the prevalent category of trees in the western United States, 
produce pitch, which is a viscous liquid and toxic defensive compound 
(not to be confused with sap, which is the water and nutrient 
conducting liquid within a tree) and if present in adequate amounts can 
be used to kill bark intruders such as bark beetles as well as seal off 
tree wounds. Likewise secondary metabolite products such as terpene and 
phenolic compounds can be produced as toxic countermeasures to insect 
or disease attack. The forest products industry processes these very 
materials out of harvested wood to produce a variety of chemicals we 
use in our everyday lives as disinfectants, preservatives and even 
products such as arabinogalactan that is thought to enhance human 
immune systems. The production of these defense mechanisms, however, 
only occurs in adequate quantities when a tree has the resources needed 
to grow well, such as enough sunlight, water and nutrients. Stress 
brought on by drought periods, mechanical injury, or excessive 
competition with neighboring trees results in a weakened tree defense 
capability (Hermes and Matson 1992). The energy allocation within a 
tree is thought to be prioritized first on maintenance respiration 
(keeping its cell structure alive), next in adding new growth, and only 
then in producing defense mechanisms. Thus weakened trees become the 
natural targets for pests such as bark beetles.
    Mature forests with dense canopies have the additive effects of 
transpiring more water than forests of younger trees with less needle 
area, and intercepting rainfall and snowfall in their dense canopies 
that evaporates back into the atmosphere before having a chance to 
enter the soil where trees can absorb it. The additive impacts of 
greater water and energy production requirements, less soil water 
recharge, and limited space for photosynthetic (needle) area leads to 
significantly weakened trees. At this point the trees in this condition 
represent a large food source without any defenses, the perfect target 
for bark beetles and a host of other tree pests and pathogens.
    When mild winters, early springs and longer summers, perfect 
conditions for bark beetle survival and reproduction, are combined with 
a landscape covered with a disproportionately large population of 
mature preferred host trees, that are suffering from the stress of 
overcrowding coupled with drought brought on by the warmer winters and 
longer summers, the conditions for a perfect bark beetle storm arise. 
If the climatic conditions that favor bark beetles persist, this storm 
will last as long as there are host trees available to eat. When 
epidemic populations develop, trees that originally exhibited 
resistance to pest attack can succumb to the sheer number of successive 
attacks. It is not uncommon to find trees that have resisted and 
survived the first year of a bark beetle attack only to be successfully 
colonized in the second or third year of an outbreak. This may be a 
significantly undesirable impact of a forest pest epidemic as the trees 
exhibiting superior survival abilities and possibly genetically 
desirable characteristics as the potential seed sources of the future 
forest are also lost. Local seed sources have their limits, especially 
when trying to restore ecosystems across broad geographic scales. 
Diverse seed sources are relevant to restoring vegetation that is 
resilient, ecologically competent and possesses the evolutionary 
potential required to meet changing and challenging environments 
(Broadhurst et al 2008). This can reduce the overall genetic diversity 
within a population, weaken the robustness and health of a species, and 
reduce the ability of the species to adapt to new environmental 
conditions such as may be the case with global climate change. Genetic 
variation within populations of tree species is a substantial component 
of biodiversity and appears to be a significant prerequisite for the 
survival and persistence of forest ecosystems, particularly under 
heterogeneous and changing environmental conditions. Inbreeding results 
in weaker individual trees with less stress resistance (Muller-Stark et 
al 2005).
    As long as forests have been a primary provider of resources for 
human populations, tree damaging agents have been considered unwelcome. 
Scientific understanding of how forest ecosystems function has 
progressed to the point in the recent half century to where we 
understand and appreciate that most organisms perform an important 
function in keeping forests healthy and in a sense, push species to 
continue to evolve. Bark beetles are no different and not only continue 
to help select for genetically strong individuals, but also create 
habitat and provide food sources or multiple other organisms. As such 
it would be unwise to eradicate bark beetles and other natural 
organisms that interfere with our immediate needs from the forest. At 
some point, however, an organism may reach a tipping point where it 
gains an unfair advantage against another organism. The result is that 
the disadvantaged species goes extinct or is pushed onto a small 
fraction of its former distribution.
German Forests
    Across central Europe forests have been harvested intensively and 
continually for over 2000 years. Many countries there, notably Sweden, 
Germany, Austria, France and Switzerland have developed forest 
management practices that maintain forest productivity, biodiversity, 
scenic and recreational beauty, and that have greatly limited 
catastrophic disturbances including bark beetle outbreaks.
    As an example, the country of Germany has roughly the equivalent 
land area and forested area as Montana. A greater oceanic effect 
provides for a slightly milder climate and more evenly distributed 
annual precipitation. Tree growth rates can be twice as high there as 
in Montana. Whereas Montana has approximately 950,000 permanent 
residents, Germany has 83 million residents. Hiking and nature 
appreciation is a national pastime, and a large proportion of German 
forests have a primary nature reserve or biodiversity protection 
designation. Important to note is that forest management including tree 
harvesting is not viewed as a barrier to such objectives, but rather a 
tool to help achieve desired conditions for rare and endangered species 
and recreational quality. Wood has also been identified as a primary 
mechanism of reducing atmospheric carbon emissions and global warming 
as it sequesters large amounts of carbon in living trees, wood 
products, and offsets fossil fuel consumption when used as a primary 
building material and source of energy. It is a highly valued product 
in the European carbon cap and trade system. According to the European 
Forestry Institute, ``When wood products are used instead of non 
renewable materials such as steel or plastics, the carbon is 
sequestered longer before it is released back into the atmosphere.
    On an annual basis Germany harvests 12.6 billion board-feet 
equivalent of wood, Montana over the past decade has annually harvested 
an average of 750 million board-feet, most of which has come from 
private lands, not federal lands even though the later accounts for 67% 
of the Montana forest land base. To put this in perspective, the height 
of the timber harvest from national forests was roughly 12 billion 
board-feet in the 1980s. Now the entire harvest off of national forests 
is roughly two billion board-feet. For Montana, as many other western 
states, the repercussions have been devastating to the wood products 
industry, forestry and logging professions.
    Bark beetles are a common problem in all forests in Germany for the 
most prevalent tree species, yet in the past decades bark beetle 
epidemics have not occurred, mainly because they have been prevented. 
The one exception is in the Bavarian National Park, were forest 
management was excluded as the purpose of the park was for nature to 
run its course without human interference, and for the dominating 
native pure spruce forest to grow into ancient old growth character. In 
the late 1990's a spruce bark beetle population started to build in 
this forest. In the past decade it has killed 80% of the trees across 
60% of the park and is expected to decimate the rest in the next five 
years. This past year, the Bavarian government agreed to allow 
foresters to start implementing measures to attempt to control the 
epidemic as it is now spilling out of the park onto private forested 
lands. The measures being used, which are successfully used to prevent 
outbreaks across the rest of the nation are: 1) remove beetle infested 
trees before the brood hatches out of it, 2) bait and trap beetles, 3) 
manage surrounding spruce forests with thinning applications to enhance 
tree vigor and natural resistance, 4) increase non-host tree species 
diversity in forests around the park to limit beetle food sources, 5) 
divert planned harvests of green trees to harvesting of beetle infected 
or killed trees instead, 6) pursue research into other methods for 
controlling bark beetle outbreaks, 7) manage for tree species that are 
calculated to be adapted for future (warmer) climate scenarios.
Management Solutions for the US?
    Can these management tactics also work for forest across the 
western United States? Our understanding of tree and beetle biology for 
our afflicted areas and species, as well as experiential knowledge 
certainly matches what German foresters have to work with. Multiple 
studies have shown that thinning forest stands to alleviate the impacts 
of light and water competition on tree vigor while leaving what appear 
to be the best trees results in less successful bark beetle attacks 
(Schmid et al. 2007). It has also been postulated that the greater 
heating from sunlight increases stress on bark beetles as they seek out 
trees. Increasing the diversity of tree species in forests that are 
primarily monocultures, such as the situation we see in Wyoming and 
Colorado with lodgepole pine, thus reducing contiguous host tree 
availability also makes for a more difficult environment for bark 
beetles, and reduces the ability of epidemics to develop. Similarly, 
decreasing the size of similar tree age and size patches of host trees 
will have the same effect as increasing species diversity, as younger 
age trees are not suitable host trees for most of the most prevalent 
tree killing bark beetle species. Finally, using harvest trees to trap 
beetles into, and then processing those trees thereby destroying the 
brood, combined with the use of synthesized aggregation and anti-
aggregation pheromones (attractants and repellents) to manipulate and 
control populations of beetles. All of these tactics have been used 
with documented success in western forests. They do require the skill 
and expertise of forest managers and forest entomologists, as well as a 
skilled and modern logging workforce. They also require a funding 
mechanism as the extensiveness of bark beetle mortality and risk is 
enormous (Figure 1). As a side note, we are quickly losing our skilled 
logging workforce in Montana (and across the West). Without this 
workforce and infrastructure to take these materials, we'll lose our 
ability manage forests.
    Another issue is what to do with the significant volume of already 
dead trees. In Germany much of the beetle infested or killed wood is 
harvested. Fifty percent of the more than four billion board-feet 
equivalent annual harvest in the German state of Bavaria, a forested 
land base of slightly more than 6 million acres, is salvage and 
sanitation harvest of dead and dying trees. This is all accomplished in 
a taxable profit generating free market system. What is suitable goes 
to sawmills and much of the rest is utilized for electricity, steam and 
home heating (Figure 2) with one third of all households heating with 
wood. Wood is rated as a renewable biomass source and replaces an 
equivalent of 396 million gallons of heating oil per year in Bavaria 
alone. Across the western United States, such utilization also occurs 
at a small scale in the form of rural home heating and cogeneration 
``hog-fuel'' of some wood products industries. For Montana the 
calculated home heating oil replacement for national forest private 
firewood cutting permits is 3.1 million gallons. Several small wood 
burning school heating systems have been installed in recent years, and 
several of the few remaining sawmills are considering investing in wood 
generated power plants as the heat by-product of a wood-to-energy plant 
can be used heat the dry kilns of the sawmills, thereby increasing the 
efficiency and output of such a facility. One of the major barriers for 
such investments remains the availability of wood raw materials where 
67 percent of the forested land base, bark beetles and all, is under 
federal management.
    Forests suffering from large scale bark beetle outbreaks accumulate 
significant amounts of dead wood. Mountain pine beetle-killed trees of 
ponderosa and lodgepole pine typically topple over within 2-10 years, 
creating large fuel loading for wildfires. Such heavy fuel 
accumulations represent challenging wildfire control scenarios, and if 
the larger diameter stem material dries out sufficiently, as has 
occurred frequently in the past decade, wildfire severity and intensity 
is greatly increased, which can result in mortality of beetle surviving 
trees and their seed source. Such scenarios can further decrease the 
genetic diversity of forests, particularly during a time when such 
diversity may be needed to help forests adapt to projected climatic 
change. Fuel management addresses directly the root of the wildfire 
problem and when properly designed and implemented increases the 
effective weather threshold for effective fire control, which is even 
more relevant in a climate change scenario (Rigolot et al. 2009).
    Conserving tree species across their historical range with 
densities fitting the definition of ``forest'' both in the short term 
(next 50 years) and long term (next 50-200 years), that are capable of 
naturally regenerating and conserving their gene pool will be 
challenging if the predictions of climate change are realized. In 
addition, the characteristics and values associated with those forests 
have a greater probability of being conserved with active forest 
management than if left to what are deemed ``natural'' processes and 
consequences. ``Active management'' is defined here as the process 
where forests are inventoried within a reasonable scale for their 
biological and physical properties, that this knowledge is used to plan 
and implement landscape activities that provide for greater tree 
survival and natural regeneration when exposed to significant changes 
in temperature, precipitation and associated disturbances (wildfires, 
insects and diseases), and that all management options ranging from 
benign neglect to commercial tree harvesting are utilized. A thus 
managed forested landscape would consist of a mosaic of ``wilderness'' 
and ``old-growth'' patches as well as areas with harvests designed to 
promote tree vigor (thinning) and species and age class diversity (seed 
tree, shelterwood, patch cutting). In Montana, most Native American 
tribes have already adopted this management style on their reservation 
lands. Both the confederated Salish and Kootenai tribes (Flathead 
reservation) and Chippewa and Cree tribes (Rocky Boy reservation) are 
using active forest management as well as rapid salvage and sanitation 
harvesting to stem bark beetle epidemics and reduce the probability of 
catastrophic wildfire effects in their forests.
    Forest ecosystems are an important part of the global carbon cycle 
since they are estimated to sequester and store approximately 80% of 
the aboveground terrestrial carbon (Waring and Running 1998) which 
equates to estimates from 380 to 458 Pg of total global stored 
biologically based carbon (1 petagram = 1 gram x 1015 or about 
1,100,000,000 tons). These estimates have put forests and their 
management into the forefront of anthropogenic caused global climate 
change debates as they may be one of the most efficient and effective 
mechanisms for offsetting the most common human caused source of 
atmospheric carbon dioxide: fossil fuel consumption that emits an 
estimated global rate of 5.5 Pg of carbon per year (Waring and Running 
1998). The European Community has instigated policy that offers 
financial support for afforestation of agricultural lands and 
silvicultural actions that may increase carbon sequestration (FAO 
2009).
    Larger disturbance such as a wildfire can kill many trees, thereby 
releasing the stored carbon quickly through wood combustion or slowly 
by killing the tree and thus releasing carbon through the slower 
decomposition process. Wildfires release an instant pulse of carbon and 
then changes the albedo of the land surface that allows for a much 
greater absorption of solar energy that may last decades in boreal 
forests (Running 2008). A young forest that may develop in the burned 
area over the next 100-300 years recaptures the carbon again leading to 
the concept that forests are actually ``carbon neutral'' in the long 
term. However, if forest's natural cycles are altered, their overall 
contribution to atmospheric carbon-dioxide also changes. Enhanced 
growing conditions resulting from factors such as increased 
precipitation, milder or shorter winters, fewer pests and pathogens, 
faster growing or longer lived species to name a few all can lead to 
greater carbon sequestration and carbon storage. Alternatively, 
conditions such as less precipitation, greater drought periods, 
uncharacteristic summer and winter temperatures, unusual wind events, 
and increased pest, pathogen and wildfire occurrence can result in 
lower rates of tree carbon sequestration, and the loss of total 
forested area and the release of large amounts of wood sequestered 
carbon into the atmosphere. The global carbon cycle can be converted 
into atmospheric carbon dioxide, a primary greenhouse gas when trees 
burn or decay, or atmospheric carbon can be sequestered when trees grow 
and produce wood. As part of the IPCCs 4th assessment, seven general 
circulation model simulations unanimously project an increase in June 
through August temperatures of 2 to 5+C by 2040 to 2069. Wildfire burn 
areas in Canada and the western United States are expected to increase 
by 74 to 118%. Wildfires add an estimated 3.5 x 10 15 g atmospheric 
carbon each year equivalent to 40% of annual fossil fuel emissions 
(Running 2006). Forests thus represent both a potential source of 
atmospheric carbon dioxide if they are degraded, or the most efficient 
land based sink with a large capacity to absorb atmospheric carbon 
dioxide when trees are rapidly growing.
    Opinions vary and range from those that advocate active forest 
management to enhance forest's resilience to bark beetle epidemics, 
wildfires and ability to adapt as well as increase atmospheric carbon 
dioxide sequestration rates and fixed carbon storage capacity to those 
that feel active management of forests causes a net carbon storage loss 
as well as less carbon sequestration capacity and overall harm to 
forest function and integrity. As with all complex natural resource 
issues, there are valid arguments based on site specific and single 
species research that can be made to support both sides of the issue. 
As a forest practitioner with now 29 years of applied experience caring 
for trees and managing forests as well as extensive academic and 
scientific training and work on the ecology of Northern Rockies forest 
ecosystems, it is my opinion that active forest management and the use 
of wood-based renewable bioenergy applied in appropriate locations 
using both the academic and practical knowledge and experience 
currently available, will most likely result in greater forest 
resilience to large landscape level disturbances that are both within 
and outside of the historic range of variability. This will also 
maintain or increase most forest ecosystems ability to store and 
sequester atmospheric carbon dioxide.

[GRAPHIC] [TIFF OMITTED] T0438.005

[GRAPHIC] [TIFF OMITTED] T0438.006

Bibliography
Alvarez, M. 2007. The State of America's Forests. Bethesda, MD: Society 
        of American Foresters. 68 pgs.
Broadhurst L.M., Lowe, A., Coates, D.J., Cunningham, S.A., McDonald, 
        M., Vesk, P.A., and C. Yates. 2008. Seed supply for broadcast 
        restoring: maximizing evolutionary potential. Evolutionary 
        applications CSIRO ISSN 1752-4571. Blackwell Publishing Ltd 1, 
        587-597.
European Forest Institute. 2009. Climate change and other a(biotic) 
        disturbances. www.efi.int/research/themes/
        climate_change_and_other_a_biotic_disturbances.htm
FAO. 2009. Climate change and the forest sector. www.fao.org/docrep/
        007/y5647e/y5647e05.htm
Gannon A., and S. Sontag. Compilers 2008 MONTANA Forest Insect and 
        Disease Conditions and Program Highlights--2004. Report 08-1 
        USDA Forest Service, Northern Region, State and Private 
        Forestry, Forest Health Protection. 80 pgs.
Herms, D.A. and W. J. Mattson. 1992. The Dilemma of Plants: To Grow or 
        Defend Author(s): Source: The Quarterly Review of Biology, (67) 
        3, pp. 283-335
Immler, T. 2004. Waldbauliche Pflegestandards zu den 
        Fortbildungsveranstaltungen. Landesanstalt fur Wald und Forst. 
        Freising Bayern. 19 pgs.
Janisch J.E. and M.E. Harmon. 2002 Successional changes in live and 
        dead wood carbon stores: implications for net ecosystem 
        productivity. Tree Physiology 22, 77-89.
J. Jouzel C. Lorius J. R. Petit C. Genthon N. I. Barkov V. M. Kotlyakov 
        & V. M. Petrov. 1987. Vostok ice core: a continuous isotope 
        temperature record over the last climatic cycle (160,000 years) 
        Nature 329, 403-408
Keane, Robert E.; Agee, James K.; Fule, Peter; Keeley, Jon E.; Key, 
        Carl; Kitchen, Stanley G.; Miller, Richard; Schulte, Lisa A. 
        2008. Ecological effects of large fires on U.S. landscapes: 
        benefit or catastrophe?. International Journal of Wildland 
        Fire. 17: 696-712.
Kolb, P. 2002. Forest stewardship field guide for alternative forest 
        management practices and forest wildfire hazard reduction. MSU 
        Extension Forestry misc. publications, Missoula, MT. 140 pgs.
Meyer, L. Compiler 2005. MONTANA Forest Insect and Disease Conditions 
        and Program Highlights--2004. Report 05-1 USDA Forest Service, 
        Northern Region, State and Private Forestry, Forest Health 
        Protection. 50 pgs.
Muller-Stark, G. M. Ziehe, and R. Schubert. 2005. Genetic diversity 
        parameters associated with viability selection, reproductive 
        efficiency, and growth in forest tree species. Springer-Verlag 
        Berlin. Ecological Studies, Vol 176, 87-108.
Petit J.R., Jouzel J., Raynaud D., Barkov N.I.,Barnola J.M., Basile I., 
        Bender M., Chappellaz J., Davis J., Delaygue G., Delmotte M., 
        Kotlyakov V.M., Legrand M., Lipenkov V., Lorius C., Pepin L., 
        Ritz C., Saltzman E., Stievenard M. (1999), Nature, 399: 429-
        436.
Rigolot, E., Fernandes, P., and F. Rego. 2009. Managing wildfire risk: 
        prevention, suppression. European Forest Institute, Discussion 
        Paper 15. In: Living with Wildfires: What science can tell us, 
        Yves Birot (ed.) 49-52.
Running, S. 2008. Ecosystem Disturbance, Carbon, and Climate. Science 
        11, 652-653.
Running, S. 2006. Is global warming causing more larger wildfires? 
        Science 313, 927-928.
Schmid, J.M, S.A. Mata, R.R. Kessler, and J.B. Popp. 2007. The 
        influence of partial cutting on mountain pine beetle-caused 
        tree mortality in Black Hills ponderosa pine stands. USDA 
        Forest Service Rocky Mountain Research Station, RMRS-RP-68. 19 
        pgs.
Waring R. and S. Running.1998. Forest Ecosystems Analysis at multiple 
        scales. Academic Press, San Diego CA. 370 pgs.
Wegener, G., and B. Zimmer. 2000. Wald und holz als kohlenstoffspeicher 
        und energietrager. Chancen und wege fur die forst und 
        holzwirtschaft. In: Schulte A. et al (ed) Weltforstwirtschaft 
        nach Kyoto: Wald und holz als kohlenstoffspeicher und 
        regenerativer energietrager: Aachen Shaker V1g. ISBN 3-8265-
        8641-7, 113-122.
Westerling, A.L., Hidalgo, H.G., Cayan, D.R., and T.W. Swetnam. 2006. 
        Warming and earlier spring increase western U.S. forest 
        wildfire activity. Science 313, 940-943
                                 ______
                                 
    Mrs. Napolitano. Thank you, Dr. Kolb, for your testimony. I 
apologize for the rush, but we have about one minute to get to 
the Floor.
    We thank the panel for your forbearance, and your testimony 
has been very, very enlightening. We hope to pursue this to a 
greater extent.
    I want to add a special thanks to the Forest Service people 
who are dedicated to our forests.
    With that, this concludes the Subcommittees' oversight 
hearing on the mountain pine beetle, strategies for protecting 
the West. Thanks to all of you for appearing before the 
Subcommittees. Your testimonies and expertise have, of course, 
been very enlightening and helpful.
    Under Subcommittee Rule 4[h], additional material for the 
record should be submitted within 10 business days after the 
hearing. Your cooperation in replying promptly to any questions 
submitted to you in writing will be very much and greatly 
appreciated.
    With this, the hearing is adjourned. Thank you very much.
    [Whereupon, at 1:38 p.m., the Subcommittees were 
adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Mr. Smith of 
Nebraska follows:]

 Statement of The Honorable Adrian Smith, a Representative in Congress 
                       from the State of Nebraska

    Good morning and thank you, Chairwoman Napolitano, Chairman 
Grijalva, Ranking Member McMorris Rodgers and Ranking Member Bishop for 
holding this important oversight hearing today on the Mountain Pine 
Beetle.
    As a member of this Committee and the House Agriculture Committee, 
today's discussion must give attention to the need for better forest 
management. The overgrowth of trees coupled with stringent fire 
suppression policies has increased the stress on the West's water 
supply. This scarcity of water not only makes trees susceptible to 
disease and insect infestation, such as the Mountain Pine Beetle, but 
also can significantly reduce water flows. The West's Platte River, 
which feeds into my district in Nebraska, is undergoing far-reaching 
new ecosystem management in order to restore the wildlife habitat lost 
from years of declining water flows.
    All that said, I question why the U.S. Forest Service and the 
National Park Service stopped managing the overgrowth of trees over the 
past few decades. Besides the massive damage from the mountain pine 
beetle, there are many other consequences from inaction.
    Thank you again. I appreciate both Subcommittees for holding this 
joint hearing today on recommendations for improving our nation's land 
management. I look forward to hearing testimony from the U.S. Forest 
Service, the National Park Service, Department of Energy, and all of 
our witnesses. I hope they will be able to shed light on these 
important issues.

                                 <all>

</pre></body></html>
